<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2002</title>
<body><pre>[Senate Hearing 107-355]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 107-355, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1416

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2002 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                        MAY 15 AND JULY 12, 2001


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                              2002--Part 5

                   EMERGING THREATS AND CAPABILITIES


                                                 S. Hrg. 107-355, Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1416

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2002 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                        MAY 15 AND JULY 12, 2001


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
75-350 PDF                 WASHINGTON DC:  2002
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

                Les Brownlee, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                     PAT ROBERTS, Kansas, Chairman

BOB SMITH,  New Hampshire            MARY L. LANDRIEU, Louisiana
RICK SANTORUM, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JEFF SESSIONS, Alabama               ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BILL NELSON, Florida
SUSAN COLLINS, Maine                 MARK DAYTON, Minnesota

                 MARY L. LANDRIEU, Louisiana, Chairman

EDWARD M. KENNEDY, Massachusetts     PAT ROBERTS, Kansas
ROBERT C. BYRD, West Virginia        BOB SMITH, New Hampshire
JOSEPH I. LIEBERMAN, Connecticut     RICK SANTORUM, Pennsylvania
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
JEAN CARNAHAN, Missouri              TIM HUTCHINSON, Arkansas
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
        Department of Energy's Nuclear Nonproliferation Programs
                              may 15, 2001

                                                                   Page

Gordon, Gen. John A., USAF (Ret.), Under Secretary for Nuclear 
  Security and Administrator, National Nuclear Security 
  Administration, U.S. Department of Energy......................     4
Jones, Ms. Gary L., Director of Natural Resources and 
  Environment, U.S. General Accounting Office....................    17
Baker, Kenneth, Acting Deputy Administrator for Nonproliferation 
  and National Security..........................................   141

   Cooperative Threat Reduction, Chemical Weapons Demilitarization, 
    Defense Threat Reduction Agency, Nonproliferation Research and 
                   Engineering, and Related Programs
                             july 12, 2001

Johnson-Winegar, Dr. Anna, Deputy Assistant to Secretary of 
  Defense (Chemical and Biological Defense)......................   274
Bongiovi, Maj. Gen. Robert P., USAF, Acting Director of the 
  Defense Threat Reduction Agency................................   277
Waldron, Robert, Assistant Deputy Administrator, Nonproliferation 
  Research and Engineering, National Nuclear Security 
  Administration.................................................   281
Koch, Dr. Susan, Acting Assistant Secretary of Defense for Threat 
  Reduction......................................................   286

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                         TUESDAY, MAY 15, 2001

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

        DEPARTMENT OF ENERGY'S NUCLEAR NONPROLIFERATION PROGRAMS

    The subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SR-222, Russell Senate Office Building, Senator Pat 
Roberts (chairman of the subcommittee) presiding.
    Committee members present: Senators Roberts, Allard, and 
Landrieu.
    Committee staff members present: L. David Cherington, 
counsel.
    Professional staff members present: Edward H. Edens IV, 
Carolyn M. Hanna, and Mary Alice A. Hayward.
    Minority staff members present: David S. Lyles, staff 
director for the minority; Madelyn R. Creedon, minority 
counsel; and Creighton Greene, professional staff member.
    Staff assistants present: Jennifer L. Naccari and Suzanne 
K.L. Ross.
    Committee members' assistants present: George M. Bernier 
III, assistant to Senator Santorum; Robert Alan McCurry, 
assistant to Senator Roberts; Douglas Flanders, assistant to 
Senator Allard; Erik Raven, assistant to Senator Byrd; Peter A. 
Contostavlos, assistant to Senator Bill Nelson; and Brady King, 
assistant to Senator Dayton.

       OPENING STATEMENT OF SENATOR PAT ROBERTS, CHAIRMAN

    Senator Roberts. The subcommittee will come to order.
    General, I apologize to you and the witnesses from the 
General Accounting Office (GAO). We had a vote on the Senate 
floor, and that takes precedence. I have a statement that I 
would like to make, then we will recognize you, General, 
because I know your time is valuable, as is the GAO's.
    This afternoon the Subcommittee on Emerging Threats and 
Capabilities meets to receive testimony on the fiscal year 2002 
budget request for the Office of Defense Nuclear 
Nonproliferation in the National Nuclear Security 
Administration. Providing testimony for the National Nuclear 
Security Administration is Gen. John A. Gordon, who is the 
administrator.
    I would like to welcome you, General. This is the first 
time you have testified before the subcommittee. I look forward 
to receiving your remarks and thank you for your testimony last 
week, in regards to homeland security.
    In addition to the General, we have the GAO here today to 
provide testimony on two GAO reports that discuss two programs 
with the Office of Defense Nuclear Nonproliferation.
    One of these GAO reports, the Nuclear Cities Initiative, 
will be released to the public at the conclusion of this 
hearing.
    Providing testimony for the GAO is Ms. Gary L. Jones, the 
Director of Natural Resources and Environment. This is also 
your first time before this subcommittee. We thank you and I 
welcome you and look forward to your statement.
    Following this open session we will move to a closed 
session in Hart 219 to hear testimony from representatives of 
the Intelligence Community. This subcommittee has had oversight 
responsibilities for the Office of Defense Nuclear 
Nonproliferation of the National Nuclear Security 
Administration. Try saying that five times real fast on CSPAN, 
and you will get in a lot of trouble.
    The programs within this office work to prevent, detect, 
and reverse the proliferation of weapons of mass destruction, 
and to assist with international nuclear acts for safety and 
excess fissile material elimination.
    Over 50 percent of the office's budget supports programs in 
Russia. The remaining percent of the budget focuses on 
improving U.S. capabilities in proliferation monitoring and 
detection through research and development.
    As many know, last year this subcommittee found 
programmatic management problems, problems and challenges with 
several programs in this Cooperative Threat Reduction endeavor.
    To that end, the subcommittee established greater reporting 
controls on these programs to improve management and 
accountability in the implementation of these critical national 
security programs. It is imperative that the United States have 
every measure available to ensure Russia's long-term commitment 
to U.S. threat reduction and nonproliferation cooperative work.
    I cannot stress enough how important it is that these 
programs are carried out effectively, efficiently, and have the 
committed support of the Russians.
    Over the next few weeks, I will review in great detail the 
administration's budget request for these programs. It will be 
a priority of this subcommittee to ensure that the funds 
requested will be utilized effectively and efficiently, and 
that program goals can be realized with the resources that we 
have.
    We must ensure that our current and future national 
security efforts are not weakened by management failures and 
poor implementation on what I consider to be a vital national 
security effort.
    I look forward to the comments of both witnesses this 
afternoon on the progress they have made in addressing this 
subcommittee's concerns with these programs, and how they 
intend to proceed during the coming year. I believe they are 
doing very critical work, very important, critical work in 
protecting our nation. I commend them for their perseverance 
and dedication.
    I thank you for the time and attention that you have placed 
in preparing your remarks for this afternoon. I will turn to my 
esteemed Ranking Member, when she arrives to the subcommittee, 
for any comment that she might have. I would now like to 
welcome for his statement General Gordon.
    [The prepared statement of Senator Roberts follows:]

               Prepared Statement by Senator Pat Roberts

    This afternoon the Subcommittee on Emerging Threats and 
Capabilities meets to receive testimony on the fiscal year 2002 budget 
request for the Office of Defense Nuclear Nonproliferation in National 
Nuclear Security Administration. Providing testimony for the National 
Nuclear Security Administration is Gen. John A. Gordon, Administrator. 
I would like to welcome you, General Gordon. This is the first time you 
have testified before the subcommittee and I look forward to receiving 
your remarks.
    In addition to General Gordon, we have the GAO here today who will 
provide testimony on two GAO reports that discuss two programs within 
the Office of Defense Nuclear Nonproliferation. One of these GAO 
reports, this one on the Nuclear Cities Initiative, will be released to 
the public at the conclusion of this hearing. Providing testimony for 
the GAO is Ms. Gary L. Jones, Director, Natural Resources and 
Environment. This is also your first time before this subcommittee. I 
welcome you, Ms. Jones, and look forward to your statement.
    Following this open session, we will move to closed session in Hart 
219 to hear testimony from representatives of the Intelligence 
Community.
    This subcommittee has oversight responsibilities for the Office of 
Defense Nuclear Nonproliferation of the National Nuclear Security 
Administration. The programs within this office work to prevent, 
detect, and reverse the proliferation of weapons of mass destruction 
and to assist with international nuclear reactor safety and excess 
fissile material elimination. Over 50 percent of the office's budget 
supports programs in Russia. The remaining percent of the budget 
focuses on improving U.S. capabilities in proliferation monitoring and 
detection through research and development.
    Last year this subcommittee found programmatic management problems 
with several programs in this cooperative threat reduction endeavor. To 
that end, this subcommittee established greater reporting controls on 
these programs to improve management and accountability in the 
implementation of these critical national security programs. It is 
imperative that the United States have every measure available to 
ensure Russian long term commitment to U.S. threat reduction and 
nonproliferation cooperative work. I cannot stress enough how important 
it is that these programs are carried out effectively and efficiently 
and have committed Russian support.
    Over the next few weeks, I will review in great detail the 
administration's budget request for these programs. It will be a 
priority of this subcommittee to ensure that the funds requested will 
be utilized effectively and efficiently and that program goals can be 
realized with the resources we have. We must ensure that our current 
and future national security efforts are not weakened by management 
failures and poor implementation in what I consider to be a vital, 
national security effort.
    I look forward to your comments this afternoon on the progress you 
have made in addressing this subcommittee's concerns with these 
programs and how you intend to proceed during the coming year. I 
believe you are doing critical work in protecting our Nation and I 
commend you for your perseverance and dedication. I thank you for the 
time and attention you have placed in preparing your remarks for this 
hearing.

    Please proceed, General Gordon.
    General Gordon. Thank you very much, Mr. Chairman, for the 
opportunity to meet with the subcommittee today and discuss the 
fiscal year 2002 budget request for the National Nuclear 
Security Administration. I do have a little bit longer formal 
statement that I would offer for the record, sir.
    Senator Roberts. Without objection, please feel free to 
summarize as you see fit, sir.

STATEMENT OF GEN. JOHN A. GORDON, USAF (RET.), UNDER SECRETARY 
   FOR NUCLEAR SECURITY AND ADMINISTRATOR, NATIONAL NUCLEAR 
       SECURITY ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    General Gordon. I also want to thank the members of the 
subcommittee for their continuous support for the mission of 
NNSA and for the people who really make it happen here in 
Washington and in the field, those traveling overseas, the 
Federal workforce, the contract workforce, a lot of folks who 
are working pretty hard on these initiatives, Mr. Chairman.
    If I could speak for a few moments broadly about NNSA 
before we turn to the details of the budget itself, I want to 
report to you that we are making steady, albeit somewhat slow 
progress towards the goals I think we all share of having 
efficient and effective organization to lead and manage the 
national security enterprise that's been entrusted to us.
    I'm not particularly satisfied with where we are, nor what 
we have been able to accomplish to establish NNSA as a full-up 
organization with a unique identity and the clear lines of 
authority that we need.
    We're moving forward, and we've made remarkable progress 
when measured against the barriers and bureaucracy that we 
confront. Even though it has been difficult to move 
dramatically on organizational issues, we've gotten well beyond 
some of the issues that confronted us in the beginning, such as 
dual hatting.
    We have set up a new framework for the organization and 
management of NNSA, and we have brought on board critical staff 
for vital issues such as counter-intelligence, security and 
contracting, and made real progress in each of these areas.
    We have on board two senior advisors of immense capacity, 
Director of Congressional Affairs and an Environmental Safety 
and Health Advisor with professional experience from naval 
reactors, a senior military assistant, and a strong chief of 
staff who knows the system in considerable detail.
    I've established an Office of Policy Planning that will 
really help us work better in the inner agency. An acting 
principal deputy for NNSA will be starting this week helping 
move the organization forward while we seek congressional 
authority for a confirmed Presidential approved position.
    We plan to announce the choice of an NNSA general counsel 
within the next couple of days.
    Perhaps most importantly I am hopeful that the President 
will very soon be able to announce his intention to nominate 
NNSA's two deputy administrators.
    That said, Mr. Chairman, let me focus my comments on 
efforts on nonproliferation.
    In this decade after the Cold War, the United States 
continues to wrestle with the dangers arising from enormous 
stockpiles of nuclear weapons and the materials produced by the 
former Soviet Union from the extensive nuclear establishment 
inherited by Russia.
    We must also contend with concerted efforts by rogue states 
and others to acquire weapons of mass destruction, and with the 
threat that terrorists might gain access to these weapons or to 
quantities of material.
    Mr. Chairman, I would like to reiterate my thanks to you 
and your colleagues for last week's hearings which discussed 
the importance of focusing national attention on combating 
terrorism, particularly with the focus on WMD.
    The NNSA is pursuing programs to address the threats of WMD 
proliferation, both in the former Soviet Union and worldwide. 
The fiscal year 2002 budget request is $773.7 million for 
nonproliferation programs. Our request covers ongoing efforts 
to provide security for nuclear materials to implement the 
purchase and conversion of weapon-grade usable highly enriched 
uranium, and, to dispose of excess weapons-grade plutonium.
    It seeks funding for programs that redirect the activities 
of weapons scientists, including the development of commercial 
partnerships with U.S. industry, and encourages the down-sizing 
of the Russian nuclear weapons complex.
    The same request funds the development of new technologies 
to detect chemical and biological weapons, to monitor nuclear 
testing worldwide, to implement U.S. export controls on nuclear 
technology, other international nuclear safeguards, and to 
strengthen the safety of Soviet-designed nuclear reactors.
    We literally provide the technical base for much of what 
our government does in proliferation protection and provide the 
expertise base to work effectively inside Russia and elsewhere.
    Before I get to questions, Mr. Chairman, the 
administration's request for proliferation programs is $101 
million less than last year's appropriation. At that level it 
should be apparent and obvious that we will have to curtail 
efforts in several areas and potentially lose momentum in 
others; however, and I will talk more about this later, the 
administration is conducting a review of each program, and we 
await the conclusion of that review to see if the budget 
request should be modified.
    The problems we're trying to address are hard. It's not 
easy to persuade Russia that it needs our help in facilities at 
the heart of its nuclear weapons complex, nor to find private 
sector partners willing to invest in an uncertain and unproven 
business environment.
    Our Russian counterparts sometimes doubt our motives and 
our commitments, and even when we have their support, we still 
have to cope with the suspicions of the Russian security 
services, as well as their legitimate interests, in protecting 
what remain highly sensitive activities and facilities.
    We remain concerned about the extent to which Russian 
authorities (including MinAtom leadership) share a common view 
of nonproliferation objectives.
    Nuclear-related exports to Iran continue to be highly 
troubling. We need to ensure that our programs do not 
inadvertently support continuing military activities and that 
our funds are spent on their intended purposes.
    Even taking account of these problems, however, 
nonproliferation cooperation with Russia remains highly 
beneficial to the United States, addressing real threats to our 
nation in both immediate and long terms. It reduces the danger 
that nuclear materials will find their way to our adversaries, 
builds barriers against transfer of nuclear weapon expertise, 
and strengthens our ability to combat proliferation globally.
    In a number of areas we have built a basis for mutual 
confidence with Russian scientists, military officers, and 
plant managers, and that has permitted us to work together 
towards common security objectives in ways that probably were 
not imaginable only a few years ago.
    Ultimately, we recognize the resources required to 
transform the safeguarding of Russia's nuclear weapon 
establishment are probably beyond the scope of any conceivable 
U.S. assistance program. Fundamentally, this transformation has 
to be a Russian responsibility. But we can show the way, we can 
be a catalyst, and we can demonstrate what's possible to the 
Russians and to business communities.
    Many of the members of this subcommittee are very familiar 
with some of the examples of what has been done, and we have 
just touched on a couple of those. Rapid security upgrades have 
been completed on more than 3,000 nuclear weapons warheads and 
some 220 tons of fissile material. The goal for fiscal year 
2002 is to complete the upgrades on another 13 sites, bringing 
the total to 50.
    We have developed training, procurement, internal 
accounting, and regulatory measures to help ensure Russia can 
sustain operation of the improved security measures we've 
provided.
    We have initiated the design of a mixed oxide fuel 
fabrication facility and a pit disassembly and conversion 
facility, to enable us to meet the commitments of our bilateral 
plutonium disposition agreement with Russia and support Russian 
development of a comparable program.
    We've installed monitoring equipment at the first of three 
Russian facilities for transparency of the down-blending of the 
highly-enriched uranium that the U.S. is purchasing.
    As I mentioned earlier, the administration is reviewing 
U.S. nonproliferation operations in connection with Russia, 
taking a comprehensive look across agency lines. It's quite 
likely that the administration will request adjustment of the 
budget once these reviews are complete. NNSA is a full 
participant in this review process.
    I expect and certainly hope the administration will develop 
an over arching strategy that really sets the priorities and 
the realistic goals, and that it will take a fresh look at how 
nonproliferation activities fit into our overall policy toward 
Russia. The review is critically examining the effectiveness of 
existing programs and will identify needed changes in focus, 
organization, or management approach.
    We're also considering new ideas and new approaches. But 
even so, we're mindful of how difficult it is to operate in 
this environment, and the ongoing reviews and policy 
development activities must specifically deal with Russian 
attitudes, their relationships with proliferation issues, 
access, and issues of sustainability. I expect this review to 
be completed shortly. After which we can brief the subcommittee 
on the results.
    Mr. Chairman, with NNSA I'm also committed to my own review 
of the management and implementation of our programs and how 
the individual pieces fit together. As I noted earlier, I hope 
we will soon have on board a Senate-confirmed Deputy 
Administrator who can work with me and the program offices to 
ensure that our nonproliferation programs have clear, stable 
goals and realistic plans that are integrated within NNSA and 
integrated within the interagency community.
    We'll be careful not to promise more than we can deliver, 
and we'll do our level best to deliver what we promise.
    We'll be straight with Congress and straight with ourselves 
about the real problems of working with Russia, and straight 
with the Russians about what we have to have in order to do 
business.
    In running these programs, I'll be mindful of the 
critically important contribution that they can and do make to 
national security, and equally mindful of the need to ensure 
responsible and accountable management of taxpayer dollars.
    Mr. Chairman, I know that in a couple of moments the GAO 
will be testifying on their reports on the Nuclear Cities 
Initiative (NCI) and the Material Protection Control and 
Accounting (MPC&A). Let me offer a few thoughts. First with 
respect to NCI.
    The closed cities of the Russian nuclear complex clearly 
present some of the most difficult environments for success in 
nonproliferation. These cities are out of the Russian 
mainstream and have little history of commercial business or 
economic integration. Our key goal here is to encourage the 
downsizing of the Russian nuclear weapons design and production 
facilities without creating additional proliferation risks.
    NCI is a relatively young program that encountered several 
start-up problems, including lack of Russian support in some 
channels, high overhead and start-up costs, and program 
management inefficiencies.
    Nevertheless, it has had some initial successes. Last year 
for the first time the Avangard nuclear weapons facility 
reduced its footprint, creating some 500,000 square feet of 
commercial production space where once nuclear weapons 
components were made.
    NCI has built a partnership with the Fresenius Medical 
Corporation, the world's largest manufacturer of dialysis 
equipment, who is eager to utilize this space and take 
advantage of the relatively lower production costs in Russia.
    Another modest success is the establishment of two open 
computing centers in Sarov and Snezhinsk. Mr. Chairman, while 
it's my understanding that the about-to-be-released GAO report 
on NCI does not take issue with the basic goals of the NCI 
program, it clearly identifies several areas in which we need 
to make important management improvements.
    For example, we can do much better reviewing candidate 
proposals for new projects as we do now in the Initiatives for 
Proliferation Prevention (IPP) program, largely because we 
followed and took on board earlier GAO recommendations.
    In fact, this recommendation for the NCI program has 
already been implemented. This set of recommendations by the 
GAO should help ensure the program is well-managed and 
transparent to me and to the subcommittee.
    As I mentioned, NNSA will be doing a comprehensive review 
of how we manage these programs to ensure we're getting the 
best possible return for the taxpayer, and that we have the 
right objectives and right programmatic measures. The GAO 
recommendations, including an evaluation of possibly combining 
the NCI and IPP programs, will be important inputs.
    One last point with regard to NCI. We need to continue our 
dialogue with the subcommittee and Congress to see if we can 
release the $10 million currently conditioned on agreement with 
Russia regarding facility closure. We have a written commitment 
to that effect from First Minister of MinAtom, Mr. Ryabev.
    I'll close, Mr. Chairman, with a comment on the Material 
Protection Control and Accounting program. The GAO report here 
is fair, balanced, and reflects over a year of work by the GAO 
team. I understand the report states that the MPC&A programs 
have achieved real threat reductions on some 32 percent--some 
190 metric tons of the estimated 603 metric tons of Russian 
material that could be used to make a nuclear device. The 
report acknowledges that the work being performed by the 
program is on an additional 130 tons.
    These figures do not reflect the upgraded security 
protection on several thousand nuclear warheads controlled by 
the Russian Navy. Here, too, however, I also agree with the GAO 
that significant work remains to be done, and in this regard, 
we will implement the GAO's two major recommendations.
    First, the NNSA will develop a system to better monitor the 
security systems installed and ensure that they continue to 
function--the sustainability question.
    Second, our strategic plan will include estimates for 
sustainability activities.
    Mr. Chairman, I believe I'll stop at this point so we can 
turn to your questions or however you would like to proceed. I 
do appreciate very much the opportunity to join with you today 
to discuss this important program which I believe does provide 
such a valuable and important contribution to U.S. national 
security.
    [The prepared statement of General Gordon follows:]

               Prepared Statement by Gen. John A. Gordon

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on the National Nuclear Security 
Administration's (NNSA) nonproliferation fiscal year 2002 budget 
request.
    The fiscal year 2002 budget request for the Office of Defense 
Nuclear Nonproliferation is $773.7 million. The request covers the 
funding needed to support a broad range of nonproliferation goals. 
Specific line items include:

        <bullet> Nonproliferation and Verification Research and 
        Development ($206,102,000)
        <bullet> International Nuclear Safety ($13,800,000)
        <bullet> Highly Enriched Uranium (HEU) Transparency 
        Implementation ($13,950,000)
        <bullet> Arms Control and Nonproliferation ($101,500,000)
        <bullet> International Materials Protection, Control and 
        Accounting ($138,800,000)
        <bullet> Fissile Materials Disposition ($248,089,000)
        <bullet> Program Direction ($51,459,000)

    Addressing international threats to U.S. national security 
interests from the potential proliferation of weapons of mass 
destruction is one of the primary mission goals of the NNSA. These 
international threats derive largely from the former Soviet Union's 
production of enormous quantities of nuclear materials and weapons, and 
from potential actions by rogue nations or terrorist organizations. The 
NNSA is pursuing a balanced and comprehensive approach to 
nonproliferation that seeks to reduce or eliminate these threats to 
U.S. national security interests.
    NNSA has been hard at work to secure and dispose of nuclear warhead 
materials, at home and abroad. We are establishing methods to help 
prevent the unthinkable from happening, the use of weapons of mass 
destruction in an attack on this country or our citizens. NNSA's world-
class expertise at its national laboratories is vital to the success of 
this important effort.
    I understand the subcommittee has a particular interest in the work 
NNSA is doing in Russia. Therefore, I would like to address our efforts 
in that regard up front, and then talk more broadly about NNSA overall 
nonproliferation work.
    The bipartisan Baker-Cutler Report and numerous other studies in-
and-outside of Government attest not only to the importance of the 
proliferation threats in Russia our programs are designed to address, 
but to the need for an overarching strategy. We are working to 
articulate that strategy as well as to develop and strengthen our long-
range thinking in this area.
    To that end, the administration has chartered several major reviews 
in order to examine the appropriate national security strategy for this 
country. The Department and the NNSA are active participants in these 
ongoing reviews. One of these reviews is currently evaluating all U.S. 
nonproliferation programs with Russia. At the end of this review, I am 
confident we will have a comprehensive strategy for our threat 
reduction activities with Russia.
    We can lay out the United States' goals we are helping with Russia 
into five broad objectives:

        <bullet> Reduce the threat to the United States and its allies 
        from Russian nuclear delivery systems
        <bullet> Reduce potential for diversion of Russian nuclear 
        warheads to rogue states or terrorist groups
        <bullet> Reduce potential for diversion of Russian weapons-
        useable nuclear materials
        <bullet> Make Russian force reconstitution more difficult, time 
        consuming, and detectable
        <bullet> Reduce potential for diversion of nuclear-weapon/dual-
        use expertise and technologies.

    Given this set of objectives for our work in Russia, let me 
describe how our activities are supporting this framework. The first 
objective to reduce the threat to the U.S. and its allies from Russian 
nuclear delivery systems has been the principal goal of the DOD's 
Cooperative Threat Reduction (CTR) program. I will not deal with their 
myriad successes other than to note that they continue to make 
substantial progress in their programs.
    Our next key objective is to reduce the potential of diversion of 
nuclear weapons. Both DOD and NNSA have programs that are working with 
the Russian military to improve the security of nuclear weapons storage 
sites in Russia. The NNSA program is with the Russian Navy and grew out 
of our cooperation with the Russian Navy on securing HEU materials used 
as reactor fuels on their ships. We feel that we are making good 
progress on this program. We have excellent cooperation with the 
Russian Navy on this program.
    Our third objective is to reduce the potential for diversion of 
Russian Federation weapons-useable nuclear materials. This is the 
flagship of NNSA's cooperation with Russia. The Materials Protection, 
Control, and Accounting (MPC&A) program has been working with MinAtom 
on securing weapons-useable nuclear materials throughout Russia. We 
work with the civilian sites where such materials are present and we 
work at many of the military sites where the Russian weapons grade 
nuclear materials are stored.
    The NNSA's MPC&A program is working rapidly to complete its 
mission, and estimates in its strategic plan that comprehensive 
security upgrades will be complete at all of the warhead storage 
locations that the Russian Navy has requested, as early as 2007, and 
for 603 metric tons of weapons-usable nuclear material by 2011. Since 
1993, the program has completed rapid upgrades for nearly 4,000 
warheads and 220 metric tons of fissile material. One programmatic goal 
for fiscal year 2002 is to complete security upgrades at thirteen 
nuclear sites, bringing the total number of completed sites to fifty.
    A part of this goal is to promote sustainable security 
improvements. ``Sustainability'' is critical to the long-term mission 
of the program, because we must ensure that installed MPC&A systems are 
maintained and operated over the long term. Sustainability also entails 
fostering the ability of our Russian counterparts to operate and 
maintain the MPC&A systems unilaterally. To help ensure sustainability, 
we are establishing training centers, identifying credible Russian 
suppliers of MPC&A equipment, helping draft national regulations and 
security force procedures, and establishing an information accounting 
system to track amounts and locations for all of Russia's nuclear 
material.
    Furthermore, we have developed and implemented a program to 
consolidate material into fewer buildings and fewer sites, and to 
convert excess highly attractive material to a form that is less 
attractive to potential proliferant nations. This program reduces costs 
to the U.S. by limiting the number of buildings requiring security 
upgrades.
    Through the Fissile Materials Disposition program, NNSA is 
responsible for disposal of surplus inventories of U.S. weapon-grade 
plutonium and highly enriched uranium. We are also responsible for 
efforts to obtain reciprocal disposition of surplus Russian weapon-
grade plutonium.
    The fiscal year 2002 budget request will fund the completion of the 
mixed oxide (MOX) Fuel Fabrication Facility design and proceed with 
related MOX fuel qualification activities. We will continue the design 
of the Pit Disassembly and Conversion Facility at a reduced rate, and 
we will suspend the design of the Plutonium Immobilization Plant. These 
changes are necessary to reduce the anticipated future-year peak 
funding requirements associated with plans for simultaneously building 
three plutonium disposition facilities at the Savannah River Site. The 
NNSA continues to pursue the irradiation of MOX fuel in existing 
reactors and, at a much reduced pace, immobilization for the 
disposition of surplus U.S. weapon-grade plutonium. This will enable us 
to meet the commitments called for in the recently signed U.S.-Russia 
Plutonium Management and Disposition Agreement and to support the 
continued consolidation, cleanup, and shut down of DOE sites where 
surplus plutonium is stored.
    Other activities planned for fiscal year 2002 involve providing 
support for the development of facilities in Russia for disposition of 
surplus plutonium, and continuing surplus U.S. HEU disposition, 
including capital improvements at the Savannah River Site to support 
the off-specification blend-down project with the TVA. This project 
will eliminate tons of surplus weapons material by converting it to 
reactor fuel for use in TVA's reactors, which provide electric power 
throughout the Southeast. Equally important, this work will save the 
taxpayers $600 million by avoiding the cost to dispose of this surplus 
material as waste.
    We have a number of other programs that help achieve the objective 
of reducing the potential for diversion of nuclear materials. Through 
the Second Line of Defense program we have been working with the 
Customs Service in Russia to upgrade the Russian capabilities to detect 
and interdict nuclear materials at border checkpoints and at airports. 
While we have made some progress in this activity, this is a huge job. 
The Russian border is thousands of miles long, and borders on a number 
of countries where we have concerns about proliferation. We may need to 
put more effort into this program in the future or to develop and 
explore practical alternatives.
    The current administration review of Russian programs will help 
guide us on whether or how we should direct our efforts on this issue, 
and how we should coordinate with other agencies that have 
complementary activities.
    The fourth objective is to make reconstitution of the large forces 
and enormous nuclear weapons stockpile that existed during the Cold War 
more difficult. NNSA shares responsibility with DOD for programs that 
address this issue. For NNSA one of our problems is the size of the 
Russian nuclear weapons complex. The production complex of the U.S. is 
significantly reduced from what it was during the Cold War, while the 
Russian nuclear weapons complex is basically unchanged from the Cold 
War.
    Some of these Russian facilities may be old, but the sense is, they 
can still do the job of producing weapons for the Russian stockpile. As 
we go into an era of reduced nuclear forces, this excess capability for 
production could present a problem for the U.S. We would like the 
Russian complex to be reduced to a size consistent with the much-
reduced stockpiles that are needed in the post-Cold War era. Concerned 
about the human costs of downsizing, the Russians have asked us to help 
them reduce the size of their weapons complex. NNSA is pursuing the 
Nuclear Cities Initiative whose main goal is to reduce the size of the 
Russian nuclear weapons complex, both its facilities and 
infrastructure, as well as manpower.
    While the underlying national security objective is valid, I am 
aware that there are some serious concerns about this program and I 
will elaborate on the Nuclear Cities Initiative a little later in my 
testimony. Based on the administration review of this and other 
nonproliferation programs in Russia, we may need to reconfigure the 
program to be more effective.
    A part of this objective to make reconstitution to Cold War levels 
more difficult we are monitoring the HEU purchase agreement that is 
down-blending 500 metric tons of highly enriched uranium to low 
enrichment material that will be used in reactor fuel. The 1993 U.S.-
Russia HEU Purchase Agreement remains one of our key threat reduction 
achievements of the last decade. As of May 2001, we have overseen the 
conversion of more than 117 metric tons of HEU; this is enough material 
for over 4,700 nuclear devices.
    Our fifth objective is to reduce the potential for diversion of 
nuclear weapons or dual-use expertise and technologies. This objective 
captures two separate but related needs. One is that we need to work 
with the Russian Government to gain their cooperation on limiting the 
export of nuclear technology and equipment that may help countries that 
are trying to develop nuclear weapons. These exports are not, in our 
view, in the interest of either the United States or the Russian 
Federation, and mitigating the economic incentives that seem to propel 
them in this direction would help to achieve our goals.
    The related issue is often referred to as the ``brain drain''. 
There are thousands of scientists that worked on the nuclear, chemical, 
and biological weapons programs of the Soviet Union who were 
unemployed, underemployed, or unpaid following the breakup of the USSR. 
NNSA and State Department have had programs in place for a number of 
years to provide alternate employment to as many of these scientists as 
possible and to try to integrate them into the international science 
community.
    The State Department program is the International Science and 
Technology Centers (ISTC). It was created in 1992 and became 
operational in 1994. It is a multilateral organization and has 
excellent international support and strong support from the Russian 
Government. The NNSA programs are working in close cooperation with the 
ISTC. While the ISTC focused on providing jobs in basic science and 
exploring the possible application of technology to commercial 
applications, the Initiatives for Proliferation Prevention (IPP) 
program of NNSA has focused on the commercialization of Russian 
technology in partnership with U.S. industry.
    The IPP program is designed to prevent the spread of weapons of 
mass destruction technologies and expertise by engaging former Soviet 
weapons scientists. It funds non-military joint R&D projects between 
former Soviet weapons institutes and U.S. laboratories. The goal is 
identifying and creating non-military, commercial applications of 
weapons-related technologies. We have instituted a rigorous project 
review process within the U.S. government to ensure that no projects 
have dual-use potential. These efforts allow us valuable access to 
Russian scientific and technical research and development as well as 
transparency into the Russian weapons complex. Unlike NCI, the IPP 
program works in the nuclear, chemical, and biological arenas and in 
Russia, Ukraine, and Kazakhstan. As we are focusing the IPP program on 
commercialization, all projects must have an industry partner who 
provides significant funding for the project--roughly a 3:2 ratio, 
private sector to government funding.
    Those of you who have followed the progress of both the ISTC and 
the IPP programs might remember that both of these took several years 
to become mature and develop management processes and project 
portfolios that clearly met the intent of the programs.
    But today the commercialization efforts of the IPP program are 
taking off. Eight IPP projects are now commercially successful, 
providing 300 long-term private-sector jobs in Russia and more that $17 
million in annual sales revenues. There are another 20 IPP projects 
poised for commercialization over the next year. We are pleased with 
the progress that the IPP program has made in the past couple of years.
    That brings me back to NCI. While the goals of the NCI program are 
to reduce the size and capability of the Russian nuclear weapons 
complex, it must address the unemployment that accompanies downsizing 
to accomplish that goal. NCI works with MinAtom to bring commercial 
development to the closed cities where the manpower requirements for 
nuclear weapons work are reduced or where entire plants stop weapons 
work.
    This is a difficult task. Even in the U.S. when we downsize our 
weapons workforce or shut facilities, finding new jobs for those who 
are displaced is the most difficult part. But the U.S. economy is 
robust, and in most cases, our economy is able to absorb the extra 
workers within a reasonable amount of time.
    In the closed cities in Russia, however, finding jobs for displaced 
workers is extremely difficult. There is little if any business 
culture, buildings are unsuitable for most western business, there are 
access rules, legal obstacles, and perhaps the largest difficulty is 
the Russian economy is smaller that it was a decade ago. But in spite 
of all these problems we have businesses that are interested in 
participating with us in working in the ``closed cities''. We try to 
provide them the necessary support to reduce their risks in putting 
jobs in these ``closed cities,'' and helping them become successful. We 
are coordinating with the ISTC and the IPP program in this effort to 
develop jobs in the closed cities. However, the charters of the ISTC 
and the IPP program make it difficult for them to sponsor some of the 
types of activities that will make it more attractive for businesses to 
come to the closed cities; such as refurbishing buildings, and 
implementing manufacturing activities. With proper coordination, the 
combination of programs will make the prospect for successfully 
bringing commercial jobs to these cities much higher.
    You might ask, ``if the Russians are going to downsize their 
nuclear complex anyway, why should the U.S. spend its taxpayer dollars 
to help them?'' The answer is, we can make the downsizing happen 
faster, and our involvement also gives us a window into the Russian 
complex. This may also allow us to have greater confidence in any 
future unilateral arms reductions if we know more about what their 
complex looks like.
    Let me review the progress that the NCI program has made thus far. 
The program has been operating for roughly 2\1/2\ years and has been 
funded for only 26 months. Currently, NCI is working in three nuclear 
cities. The primary focus is on Sarov (formerly known as Arzamas-16) 
which includes both a nuclear weapons design laboratory and a nuclear 
weapons assembly/disassembly plant known as the Avangard 
Electromechanical plant. Sarov, and Avangard specifically, is MinAtom's 
highest conversion priority. Therefore, it is the one city we 
anticipate focusing on in fiscal year 2002.
    Last year, this program achieved an historic accomplishment when 
the Russians moved a concrete fence at the Avangard weapons facility, 
creating an open ``Technopark'' for commercial businesses. This is the 
first time that a Russian weapons facility has reduced its footprint as 
part of the nuclear weapons complex downsizing they have committed to 
undertake. The Russian Government has indicated that it intends to shut 
down two of its weapons assembly and disassembly facilities. First 
Deputy Minister of MinAtom Lev Ryabev stated in an international forum 
in January 1999 that the Russian Government planned to close down two 
of its four weapons assembly and disassembly facilities, beginning in 
2000. This intention was recently reinforced by a letter from Minister 
Ryabev to the NNSA in March 2001.
    Finally, I would like to address GAO's report that was just 
released on the NCI program. Let me first say that I was pleased to 
read that the GAO determined that: ``DOE's effort to help Russia create 
sustainable commercial jobs for its weapons scientists and help 
downsize its nuclear weapons complex is clearly in our national 
security interests.'' The report also highlights a number of issues and 
areas in the program that must be addressed and be improved upon. In 
concert with the administration's nonproliferation review, I am closely 
examining this as well as other Russian programs in order to maximize 
their effectiveness, and ensure they are operating in a manner 
consistent with national objectives and coordinated with other U.S. 
government nonproliferation activities.
    It should be noted that to produce this report, the GAO review team 
obtained cost data from DOE headquarters and the National laboratories, 
reviewed NCI projects to determine their impact on program goals and 
objectives, and traveled to Russia to visit Sarov to meet with MinAtom 
officials. Finally, the GAO also met with proponents of the European 
Nuclear Cities Initiative. NNSA NCI program staff were active 
participants in this review, and we are prepared to implement any and 
all policy recommendations.
    The report's focus on job creation as the primary measure of NCI 
program success differs from our perspective of the primary goal of the 
program, and does not fully appreciate U.S. experience with downsizing 
its own nuclear weapons complex. There are multiple measures of success 
and we are tracking and reporting on them. For example, NCI's 
performance metrics include facility downsizing, infrastructure 
upgraded or created, credits and investments provide to local 
businesses and so on.
    The GAO report cites MinAtom official dissatisfaction with the 
amount of NCI funds spent in Russia. The bottom line on funding is that 
MinAtom officials would prefer that monies be provided directly to 
them, to carry out major projects as they see fit. This top-down 
central planning approach has failed Russia in the past and will 
continue to fail. In the United States, we have learned that successful 
economic diversification is based on an active partnership among 
government, industry and the community. We are attempting to pass on 
this knowledge and experience to our Russian colleagues by working 
directly with the cities and institutes.
    In the initial start-up phase of the NCI program, the preponderance 
of funds were spent in the U.S. at the National laboratories. We relied 
on the labs to make the first contacts for the program since they had 
the ongoing, long-standing relationships. The labs also were integral 
in developing the projects jointly, and then providing the project 
oversight required. Now that the NCI program is entering a new phase, 
the role of the labs is being reduced and we anticipate meeting the 
congressionally-mandated 51 percent of funds spent in Russia in fiscal 
year 2001. We have instituted new processes, including financial 
reporting procedures that will help us meet that goal. Additionally, we 
have negotiated with some labs a reduction in their project management 
costs. Overall, lab activities will be reduced in coming years as the 
program attracts more commercial partners. We firmly believe that 
oversight of projects is important and that requires lab participation.
    The GAO noted that some project funding proposals have been 
submitted to both NCI and IPP, in the hope of maximizing the chances of 
receiving funding. This does not indicate that the two programs are 
identical. All project proposals undergo a vigorous interagency vetting 
and review process to ensure, among other things, that scientists are 
not getting funded twice for the same work.
    That said, I take the GAO observations and recommendations very 
seriously and thus tasked my management team to reexamine possible 
options for consolidating the NCI and IPP programs in an effort to 
achieve cost savings and other programmatic and administrative 
efficiencies. However, keep in mind this involves complex issues, and 
rather than rush to get the job done, I want to make sure that we do 
this right the first time. Therefore, I am waiting for the completion 
of the NSC reviews that are now underway, and the recommendations from 
my management team.
    As we continue to move forward, I am confident that much-needed 
changes will occur. This is the nature of these types of programs. In 
fact, the IPP program, in its early years, experienced similar growing 
pains and was the subject of significant criticism. IPP has now become 
a successful program. We want to make sure that NCI is on a similar 
path. Furthermore, the U.S. Government's involvement will decrease over 
time, and business participation will grow. This increased role for 
business will lead the Russians toward self-sustaining civilian and 
commercial enterprises in the city, and provide the basis for the U.S. 
exit strategy. Our plans are to continue with a strong focus on Sarov.
    Now, I would like to quickly touch on the rest of NNSA's 
nonproliferation programs. These programs address the issues of 
detecting, deterring, and impeding proliferation and the use of weapons 
of mass destruction. In addition to the programs already described, 
NNSA has extensive efforts in research and development (R&D) and arms 
control arenas. Our active role in the U.S. nonproliferation 
interagency community derives, in large measure, from the nuclear 
expertise found in the national laboratories. NNSA supports U.S. 
national, bilateral, and multilateral efforts to reduce the threat 
posed by the proliferation of weapons of mass destruction.

                   RESEARCH AND DEVELOPMENT PROGRAMS

    A key nonproliferation strategy is to enhance the capability to 
detect weapons of mass destruction. The NNSA goal of integrating 
technical talent and policy expertise is evident in the 
Nonproliferation and Verification R&D Program, which enhances U.S. 
national security through needs-driven R&D, with an emphasis on 
developing technologies to detect nuclear, chemical, and biological 
proliferation, and to monitor nuclear explosions.
    The following accomplishment is just one indication of the type of 
activities NNSA is involved with in the R&D area. NNSA is proud that, 
last year, we achieved a significant milestone in one of our R&D 
programs: The Multispectral Thermal Imager satellite was launched in 
March 2000. This small research satellite, designed and built by a team 
of NNSA laboratories and industry partners, will develop and test 
remote-sensing concepts that will add to our country's ability to 
monitor nuclear proliferation. The satellite has already achieved most 
of its design objectives.
    The Proliferation Detection program will develop the requisite 
technologies to detect nuclear proliferation. Our unchallenged lead 
responsibility for nuclear nonproliferation technology derives from the 
expertise and knowledge base resident in our nuclear weapons complex, 
and it provides a technology template for the detection of activities 
related to all weapons of mass destruction. The objectives of the 
detection program are:

        <bullet> to produce technologies that lead to prototype 
        demonstrations and resultant remote proliferation detection 
        systems,
        <bullet> to strengthen our detection capabilities to respond to 
        current and projected proliferation threats, and
        <bullet> to develop technologies that are subsequently made 
        available to a wide range of government users, including DOD 
        and the intelligence community.

    The separate, yet closely related, Proliferation Deterrence program 
seeks to develop technical options to prevent and deter proliferation 
of nuclear weapon technology and fissile materials. Research is focused 
on developing integrated sensor systems that will improve the accuracy 
and timeliness of information.
    With the fiscal year 2002 budget, we will continue to develop and 
demonstrate innovative remote sensing, sampling, and analysis 
technologies needed to improve early detection of a proliferant 
nation's nuclear weapons program or non-compliance with international 
treaties and agreements, as well as tracking foreign special nuclear 
materials.
    The Nuclear Explosion Monitoring Program is designed to provide the 
U.S. with the technical capability to detect nuclear explosions. 
Specifically, NNSA technical experts are working to develop and deploy 
sensors and algorithms that enable the U.S. to meet its national 
requirements for detecting, locating, identifying, and characterizing 
nuclear explosions in the atmosphere, in space, underground, or 
underwater.
    To meet threats posed by chemical and biological agents, the NNSA 
draws upon the diverse and extensive expertise of its national 
laboratories. The goal of the Chemical and Biological National Security 
Program is to develop, demonstrate, and deliver technologies and 
systems that will lead to major improvements in U.S. capability to 
prepare for, and respond to, chemical or biological attacks against 
civilian populations. The NNSA is the primary agency developing non-
medical technical solutions for this challenge. Our experts are 
involved in a broad interagency program to develop sensors that could 
detect the terrorist use of a biological agent at a large outdoor 
event, such as the Super Bowl or the Olympics.

                   ARMS CONTROL AND NONPROLIFERATION

    Another key strategy is promoting arms control and nonproliferation 
treaties, promoting agreements, and regimes, and developing the 
associated technologies to support them. The mission of the Office of 
Arms Control and Nonproliferation is to detect, prevent, and reverse 
the proliferation of weapons of mass destruction (WMD) materials, 
technology, and expertise. It is the focal point within the NNSA for 
activities that support the President's nonproliferation and 
international security policies, goals, and objectives, as well as 
those activities mandated by statute. The program provides policy and 
technical expertise and leadership for NNSA and the Department in 
interagency, bilateral, and multilateral nonproliferation and 
international security matters. Several projects that had been 
initiated last year are not proceeding currently. The NNSA will not be 
proceeding with the Separated Civil Plutonium activities, due to 
Russian nuclear cooperation with Iran. Funding for Spent Fuel Storage 
and Geological Repository in Russia are on hold, to allow time for the 
new administration's interagency policy review.

              NONPROLIFERATION PROGRAMS OUTSIDE OF RUSSIA

    While the bulk of our nonproliferation activities take place in 
Russia, the NNSA is also involved in nonproliferation and arms-control-
regime projects in many other parts of the world. For instance, since 
1995, the U.S. and Kazakhstan have been working to reduce proliferation 
risks associated with three tons of weapons-grade plutonium. This 
material, which is located at the BN-350 fast-breeder reactor in Aktau, 
Kazakhstan, contains enough plutonium to manufacture hundreds of 
nuclear weapons. Furthermore, unlike most spent fuel, the majority the 
BN-350 spent fuel material poses no significant radiation hazard to a 
would-be thief. The project has reduced the threat to our national 
security posed by the vulnerability of the weapons-grade material. 
Further assistance to Kazakhstan, in implementing the secure long-term 
storage of the BN-350 plutonium-rich fuel, will be curtailed.
    The Aktau project will continue to support the IAEA in the 
implementation of internationally accepted safeguards measures over the 
material, continue to provide non-weapons-related employment for 
nuclear scientists in Kazakhstan, and provide security and 
international safeguards measures for the transportation and long-term 
dry storage facility for the BN-350 material.
    NNSA experts are also actively working in North Korea to reverse 
and prevent proliferation of nuclear weapons, by securing approximately 
thirty kilograms of weapon-grade plutonium contained in Nyongbyon 5 
megawatt reactor spent fuel. Similar to the objectives of the Aktau 
project, NNSA technicians have:

        <bullet> packaged the 8,000 assemblies in canisters and placed 
        those canisters under IAEA monitoring, and
        <bullet> performed field operations to maintain packaged spent 
        fuel in a safe condition, appropriate for future shipment.

    We are also supporting the IAEA in the implementation of 
verification and international safeguards of the material, while 
helping to prepare plans to support future shipment and disposition of 
spent fuel.
    In an effort to impede the use of weapons of mass destruction, the 
NNSA supports several projects targeted at reducing the amount of 
fissile material that could be available to potential proliferators to 
fashion into a nuclear device. In the Reduced Enrichment for Research 
and Test Reactors (RERTR) Program, NNSA continues to work to reduce 
international commerce in civil HEU, by developing technologies to 
convert foreign and domestic research and test reactors from HEU to 
LEU.
    NNSA is also active in strengthening regional security and 
nonproliferation, not only on the Korean peninsula, but also throughout 
East Asia, South Asia, and the Middle East. We are doing this by 
participating in U.S. policymaking, promoting regional security 
dialogues, and sharing with key states in these regions the expertise 
of the National laboratories on technical measures to implement 
nonproliferation agreements. Under a program to strengthen the 
Biological and Toxin Weapons Convention (BWC) regime, NNSA supports the 
U.S. in its efforts to negotiate a legally binding protocol to the 1972 
BWC. This protocol is part of a larger effort to deter noncompliance 
with the BWC and to reinforce the global norm against the proliferation 
of biological weapons. Our technical experts facilitate U.S. commerce 
through implementation of bilateral peaceful nuclear cooperation 
agreements with our nuclear trading partners.

              INTERNATIONAL NUCLEAR SAFETY AND COOPERATION

    Another strategy for enhancing nuclear security is to improve 
operational safety and safety systems at nuclear facilities of concern. 
The NNSA is working to reduce safety risks at the 66 operating, Soviet-
designed nuclear-power reactors in nine countries, through the 
International Nuclear Safety and Cooperation program. We plan to 
complete safety upgrades for these reactors by 2006. There are three 
reactors in Russia that are to be shut down, as part of DOD's program 
to eliminate the production of weapons-grade plutonium. These three 
high-risk reactors, at secured sites, are the oldest operating reactors 
in Russia, and have not received any safety upgrades under foreign 
cooperation. Safety upgrades at these production reactors, prior to 
their planned shutdown in 2006, are among our highest priorities. 
However, the scope of activities for improved safe operation will be 
limited.
    We are encouraged not just by our progress to address nuclear 
safety at operating reactors, but by the early closure of older 
reactors as well. The Ukrainian government shut down Chornobyl's sole 
operational reactor in December 2000, as planned. Our efforts to 
support the construction of a replacement heat plant at Chornobyl, for 
decontamination and decommissioning purposes, are also proceeding well. 
We were pleased when Kazakhstan also made the tough decision to shut 
down its BN-350 reactor. Our attention is now focused on plans for 
decommissioning and decontaminating the reactor's sodium coolant, which 
will ensure that this reactor can never be restarted. The fiscal year 
2002 budget request will allow us to complete one full-scope, nuclear 
plant training simulator, each, in Russia, Ukraine, and Slovakia. We 
will also strive for the completion of operational safety improvements 
at all plants in Russia and Ukraine. Safety procedure and reactor in-
depth safety assessments will proceed, albeit at a delayed pace.

                               CONCLUSION

    Mr. Chairman, I believe that NNSA is on the right course. The NNSA 
enjoys the strong support and endorsement of Secretary of Energy 
Spencer Abraham. It is the right idea to bring together the national 
security missions of DOE, and to focus our work with clear goals and 
plans, sharp lines of authority, and a strong view to the future.
    The scientists and engineers that are stewards of our nuclear 
arsenal have also been making important technical contributions to 
controlling, detecting, and deterring the use of weapons of mass 
destruction. NNSA's unique contribution is evident in the caliber of 
personnel working on these complex, interrelated threat reduction 
programs. Their expertise resident in our national laboratories has 
been honed by years of working in support of the U.S. nuclear complex. 
Our technical experts are ready and willing to share their 
nonproliferation and counter-proliferation experience with their 
counterparts in Russia.
    As a Nation, we may face no greater challenge than preventing 
weapons or weapons usable materials from falling into the hands of 
those who would use them against the U.S. or our allies. It has been 
more than a decade since the Berlin Wall fell, opening a new era in 
history. In many ways, we live in a more dangerous world now, since the 
demise of the Soviet Union. The threat to our safety and international 
security is more diffuse, which makes it harder to defend against. 
Rather than one monolithic threat, we must be prepared against rogue 
nations or terrorist organizations with interests inimical to ours. I 
am very proud of the nonproliferation programs that are rightfully part 
of the defense nuclear security enterprise. The review being conducted 
at the present time by the White House is timely and I am confident it 
will reveal that the NNSA's programs are making solid contributions to 
the national security of the United States.
    Again, I thank the members of this panel for their commitment and 
support of our mission, and for your support of the people of NNSA who 
actually do the work and accomplish the mission: scientists, engineers, 
technicians, policy planners, administrators, and so many others.

    Senator Roberts. We've been joined by the distinguished 
Senator and Ranking Member of this subcommittee, Senator 
Landrieu, and I would turn to her for any opening comments that 
she would like to make.

             STATEMENT BY SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, I want to 
welcome our panelists this afternoon to discuss this important 
program. I apologize for being a few minutes late.
    I want to express that when Senators Nunn and Lugar had the 
foresight in 1991 to start this program to assist Russia with 
dismantling its nuclear weapons, protecting its weapons-usable 
materials plutonium and uranium, and engaging its weapons 
scientists and engineers to stop the spread of weapons of mass 
destruction, the U.S. was committed to a major challenge. 
Although much has been done along these lines and great efforts 
have been made, much more remains undone.
    In January, a task force chaired by former Senator Howard 
Baker and White House Counsel Lloyd Cutler determined, ``The 
most urgent unmet national security threat to the United States 
today is the danger that weapons of mass destruction or 
weapons-usable materials in Russia could be stolen and sold to 
terrorists or hostile nations and used against American troops 
abroad or citizens at home.''
    The task force went on to find that current 
nonproliferation programs in the Department of Energy, the 
Department of Defense, and related agencies have, in fact, 
achieved impressive results so far, but their limited mandate 
and funding fall short of what is required to address 
adequately this threat. We still have an opportunity to address 
these problems, but it's getting more difficult.
    Moreover, there's concern that if we don't continue to move 
quickly, we may lose this opportunity completely.
    Today we will hear from Ms. Jones, who will focus on the 
management issues arising from two of our programs. I look 
forward to her testimony.
    As we discuss these issues, which are serious, I hope we 
don't lose sight of the ultimate goal of all of these programs, 
and that we identify how to move forward so that we continue 
this valuable effort.
    Working with Russia is exceedingly difficult, and the DOE 
efforts are made even more difficult because they must occur in 
high security environments of closed cities. But there has been 
substantial success, and there will be more, if we don't 
collectively lose our will to preserve it.
    We in Congress must commit to ensuring the success of these 
programs, they're in our national security interest, they are 
not Russian aid programs.
    There's one specific issue I hope we can resolve by the end 
of this hearing, one of the nuclear cities projects has stopped 
because the NNSA has not released money for the project. I 
hope, Mr. Chairman, by the end of this hearing we'll be able to 
identify a way to release the money for this project to close 
the Avangard weapons facilities. It's important to get this 
effort back on track.
    I, again, welcome you all today. I look forward to your 
remarks, and I thank the chairman for calling the hearing.
    Senator Roberts. Senator Allard, would you like to make any 
comment?

               STATEMENT BY SENATOR WAYNE ALLARD

    Senator Allard. Mr. Chairman, thank you for the 
opportunity. Just very briefly I want to recognize the great 
job that I think General Gordon is doing with the new agency. 
I've had a lot of respect for Ms. Jones. She's done some GAO 
studies in Colorado on Rocky Flats, and I think she's been very 
helpful in that regard. Just to recognize those two efforts, 
and I'll have some questions later on when we get around to 
questioning.
    Senator Roberts. Thank you, Senator. Ms. Jones, please 
proceed. Your statement will be made part of the record as well 
as findings of your report.

 STATEMENT OF MS. GARY L. JONES, DIRECTOR OF NATURAL RESOURCES 
        AND ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE

    Ms. Jones. Thank you, Mr. Chairman, I appreciate that. We 
are pleased to be here today to discuss part of the results of 
our reviews of two of DOE's nonproliferation programs.
    Our report on the Material Protection Control and 
Accounting program, or MPC&A, was issued in February. You have 
released our report on the Nuclear Cities Initiative (NCI) 
program today.
    As part of our work, GAO teams traveled to Russia, 
including the closed City of Sarov, to review projects and talk 
with Russian scientists, institute directors, and government 
officials about both programs.
    Our testimony focuses on the impact of and future plans for 
each program. From an overall standpoint, both programs are in 
our national security interests, but their implementation poses 
significant challenges.
    The MPC&A program was initiated to help Russia protect the 
603 metric tons of nuclear material that are in forms that are 
highly attractive to theft. This is important because it only 
takes a few kilograms to build a nuclear weapon.
    Our report concluded that security systems installed by DOE 
are reducing the theft of nuclear material in Russia, but 
hundreds of metric tons of nuclear material still need improved 
security.
    As of February, DOE had spent about $61 million to, among 
other things, install completed or partially completed systems 
that protect about 32 percent of the at-risk material.
    However, DOE has not been allowed access to what Russia 
considers sensitive sites that contain several hundred metric 
tons of material because Russian officials are concerned that 
national security information would be divulged.
    The program's continued progress depends on the success of 
DOE negotiations to gain access to these sensitive sites and 
reach agreement with Russia on reducing the numbers of sites 
and buildings where security systems are needed.
    However, just installing security systems will not ensure 
long-term success. Our report noted that DOE has no mechanism 
to monitor the effectiveness of the installed security systems. 
But as General Gordon said, DOE has agreed to implement our 
recommendation to develop a monitoring system in cooperation 
with Russia.
    Turning to DOE's Nuclear Cities Initiative, that program 
focuses on assisting Russia to downsize its nuclear weapons 
complex and create jobs for weapons scientists in the 10 closed 
nuclear cities that form the core of that complex. These cities 
are high security areas and access is very limited.
    As they downsize the complex, Russian officials have 
identified a need to create 30,000 to 50,000 jobs in the cities 
over the next several years.
    We found that during NCI's first 2 years of operation, the 
program has had limited success. According to DOE, the program 
employs about 370 people, including many Russian weapons 
scientists who primarily work part time on research projects 
sponsored by the U.S. national laboratories.
    According to Russian officials, most of these scientists 
continue to work on Russia's weapons of mass destruction and 
also receive a salary from the Russian government.
    Further, about one half of the program's projects are not 
designed to create jobs but rather include community 
development activities such as the delivery of medical 
equipment and school exchange programs.
    Russian officials told us they did not want the community 
development projects because they didn't create jobs. Industry 
officials told us they were not relevant to their investment in 
the nuclear cities.
    Other factors that have contributed to the limited 
programming success include lack of Russian support, until 
recently no comprehensive review process, the remote location 
of the cities, and the poor economic conditions in Russia.
    With regard to funding, we found that a disproportionate 
amount of NCI program funds has been spent in the United 
States. About 70 percent of the $15.9 million that DOE spent 
through December 2000 was spent primarily in its national 
laboratories for such items as overhead, labor, equipment, and 
travel. The remaining 30 percent was spent for projects and 
activities in Russia.
    DOE is making changes this fiscal year in response to 
congressional direction to spend 51 percent of program funds in 
Russia. But DOE will have to more effectively monitor and 
control spending to meet this goal.
    Our report also raises a fundamental question for DOE. Does 
it need two programs with a shared common goal of employing 
Russian weapon scientists and, in some cases, implementing the 
same kinds of projects?
    In addition, to NCI, DOE's Initiatives for Proliferation 
Prevention (IPP) also has projects in Russia's nuclear cities. 
There is some duplication between the two, such as two sets of 
project review procedures and several similar types of 
projects.
    Further, IPP already had a presence in the nuclear cities 
before NCI was created. Since 1994, DOE has spent over $13 
million on about 100 IPP projects in five nuclear cities.
    We recommended and as General Gordon said DOE agreed to 
review whether these two programs should be consolidated into 
one effort to achieve potential cost savings and other 
efficiencies. Thank you, Mr. Chairman. I would be happy to 
respond to any questions.
    [The prepared statement of Ms. Jones follows:]

                Prepared Statement by Ms. Gary L. Jones

NUCLEAR NONPROLIFERATION--DOE'S EFFORTS TO SECURE NUCLEAR MATERIAL AND 
                  EMPLOY WEAPONS SCIENTISTS IN RUSSIA

    Mr. Chairman and members of the subcommittee: We are pleased to be 
here today to discuss our reviews of two Department of Energy (DOE) 
nonproliferation programs that address important U.S. national security 
concerns--(1) improving the security of hundreds of tons of nuclear 
material at various sites throughout Russia and (2) employing weapons 
scientists in Russia's 10 closed nuclear cities so that they will not 
sell sensitive information to countries or terrorist groups trying to 
develop weapons of mass destruction. Both programs are managed by the 
National Nuclear Security Administration's Office of Defense Nuclear 
Nonproliferation. Our testimony focuses on each of these programs' 
impact and future plans. Our statement is based on our February 28, 
2001, report on the Material Protection, Control, and Accounting 
(MPC&A) program and our report on the Nuclear Cities Initiative (NCI) 
program that is being released today.\1\
---------------------------------------------------------------------------
    \1\ Nuclear Nonproliferation: Security of Russia's Nuclear Material 
Improving: Further Enhancements Needed. (GAO-01-312, Feb. 28, 2001) and 
Nuclear Nonproliferation: DOE's Efforts to Assist Weapons Scientists in 
Russia's Nuclear Cities Face Challenges (GAO-01-429, May 3, 2001).
---------------------------------------------------------------------------
    Mr. Chairman, the following summarizes our findings: The security 
systems installed by DOE are reducing the risk of theft of nuclear 
material in Russia, but hundreds of metric tons of nuclear material 
still lack improved security systems. As of February 2001, DOE had 
installed, at a cost of about $601 million, completed or partially 
completed systems protecting, among other things, 192 metric tons of 
the 603 metric tons of nuclear material identified at risk of theft. 
These systems, while not as stringent as those installed in the United 
States, are designed to prevent individuals or small groups of 
criminals from stealing nuclear material. Russian officials' concerns 
about divulging national security information continue to impede DOE's 
efforts to install systems for several hundred metric tons of nuclear 
material at sensitive Russian sites. The program's continued progress 
depends on DOE's ability to gain access to these sensitive sites and 
reach agreement with Russia on reducing the number of sites and 
buildings where nuclear material is located and security systems are 
needed. DOE agreed with our recommendation to develop options for 
completing the program on the basis of the progress made in gaining 
access to these sites and agreement on the closure of buildings and 
sites. Furthermore, while DOE currently does not have a means to 
monitor the security systems it is installing to ensure that they are 
operating properly on a continuing basis, the Department has agreed to 
implement our recommendation to develop such a system in cooperation 
with Russia. DOE estimates that the MPC&A program will be completed in 
2020 at a cost of about $2.2 billion.
    Regarding DOE's Nuclear Cities Initiative, we found that during its 
first 2 years of operation, the program had limited success. The 
Department estimates that the program employs about 370 people, 
including many weapons scientists who are primarily working on a part-
time basis through research projects sponsored by the U.S. national 
laboratories. According to Russian officials, most of the scientists 
receiving program funds continue to work on Russia's weapons of mass 
destruction and are also receiving a salary paid for by the Russian 
government. About one-half of the program's projects focus on such 
activities as the delivery of medical equipment and school exchange 
programs and are not designed to create jobs for weapons scientists. 
With regard to funding, we found that a disproportionate amount of the 
NCI program's funding has been spent in the United States. About 70 
percent, or about $11.2 million, of the $15.9 million that DOE spent 
through December 2000 was spent in the United States--primarily at its 
national laboratories--for such items as overhead, labor, equipment, 
and travel. The remaining 30 percent was spent for projects and 
activities in Russia. DOE, in response to direction provided by 
Congress in a conference report on appropriations for fiscal year 2001, 
stated that its goal is to spend 51 percent of its program funds in 
Russia this fiscal year. DOE will have to more effectively monitor and 
control the program's spending to meet this goal. We also found that 
DOE's NCI program lacks a plan for the future. DOE agreed with our 
recommendations to develop a plan that addresses the program's future 
costs and a time frame with quantifiable performance measures to 
determine how effectively the program is meeting its goals and whether 
it should be expanded. DOE has two programs--NCI and the Initiatives 
for Proliferation Prevention (IPP)--operating in Russia's nuclear 
cities. We believe that DOE needs to address a fundamental question--
does it need two programs with a shared underlying goal--employing 
Russian weapons scientists--and, in some cases, implementing the same 
kinds of projects? We recommended that DOE determine if these two 
programs should be consolidated into one effort to achieve potential 
cost savings and other efficiencies. DOE agreed to review both the IPP 
and NCI programs with a view toward consolidation.

                               BACKGROUND

    In 1995, DOE established the MPC&A program to install improved 
security systems for nuclear material at civilian nuclear sites, naval 
fuel sites, and nuclear weapons laboratories in Russia. Terrorists and 
countries seeking nuclear weapons could use as little as 25 kilograms 
of uranium or 8 kilograms of plutonium to build a nuclear weapon. With 
the dissolution of the Soviet Union, DOE estimates that Russia 
inherited 603 metric tons of highly enriched uranium and plutonium in 
forms highly attractive to theft. As of February 2001, DOE had 
identified 252 buildings at 40 sites that require nuclear security 
systems. In addition to installing security systems, DOE is providing 
sites with long-term operational assistance through equipment 
warranties, operating procedure development, and training. DOE also has 
projects underway to help Russia's Ministry of Atomic Energy (MinAtom) 
and nuclear regulatory authority develop (1) a total inventory of 
nuclear material, (2) regulations to ensure the effective operation and 
maintenance of the systems, and (3) inspection and enforcement systems 
to ensure that sites comply with regulations. In addition, DOE is 
supporting security improvements for trains and trucks that transport 
nuclear material between and within sites and for nuclear material 
security training centers.
    DOE's Nuclear Cities Initiative focuses on weapons scientists in 
the 10 closed nuclear cities that form the core of Russia's nuclear 
weapons complex. Many of these cities are located in geographically 
remote locations and were so secret that they did not appear on any 
publicly available maps until 1992. These cities remain high security 
areas and access to them is limited. MinAtom manages the nuclear 
facilities that are located within the cities and estimates that about 
760,000 people live there, including approximately 122,000 residents 
who are employed in key nuclear enterprises. The Russian government has 
announced its intention to reduce the size of its nuclear weapons 
complex, and a critical component of this effort includes finding new 
employment opportunities for weapons scientists, engineers, 
technicians, and support staff who will lose their jobs from the 
downsizing of the complex. Russian officials have identified a need to 
create 30,000 to 50,000 jobs in the 10 closed nuclear cities over the 
next several years. DOE has tasked the National laboratories to play a 
major role in the program, which works in conjunction with another DOE 
program--the Initiatives for Proliferation Prevention--that also seeks 
to employ weapons scientists in several countries, including Russia.

 DOE HAS REDUCED THE RISK OF THEFT FOR ABOUT 32 PERCENT OF THE NUCLEAR 
  MATERIAL IN RUSSIA, BUT HUNDREDS OF METRIC TONS OF MATERIAL REMAIN 
                              UNPROTECTED

    DOE has installed completed or partially completed security systems 
in 115 buildings holding about 192 metric tons, or about 32 percent, of 
the 603 metric tons of weapons-useable nuclear material at risk of 
theft in Russia. DOE installed completed systems in 81 buildings 
protecting about 86 metric tons (or about 14 percent) of nuclear 
material. DOE has also installed partially completed systems known as 
rapid upgrades in 34 additional buildings protecting 106 metric tons, 
or 18 percent of the nuclear material. Rapid upgrades consist of such 
things as bricking up windows in storage buildings; installing 
strengthened doors, locks, and nuclear container seals; and 
establishing controlled access areas around the nuclear material. 
Completed systems include such components as electronic sensors, motion 
detectors, closed circuit surveillance cameras, central alarm stations 
to monitor the cameras and alarms, and computerized material-accounting 
systems. By installing rapid upgrades, DOE helps Russian sites 
establish basic control over their nuclear material while U.S. project 
teams finish installing the security systems.
    DOE's reviews of installed systems and our visits to nine nuclear 
sites in Russia indicate that most of the security systems are 
currently reducing the risk of theft. DOE has established a panel of 
experts known as the Technical Survey Team that examines project 
documents and meets with project teams to determine if the installed 
systems meet departmental guidelines for effectively reducing the risk 
of nuclear theft in Russia. From January 1999 through September 2000, 
the Technical Survey Team reviewed projects for 30 of the 40 sites in 
Russia. They found that systems at 22 of the sites were reducing the 
risk of theft by increasing the ability of the Russian sites to detect, 
delay, and respond to an attempted theft or otherwise strengthen 
control over their nuclear material. For six of the sites they 
reviewed, little or no risk reduction occurred because the systems were 
not installed in accordance with the guidelines, the teams did not have 
sufficient access to the buildings to install systems, or the systems 
were installed around material presenting a low risk of proliferation. 
For two of the other sites, it was too soon to tell if the systems 
reduced risk. DOE is taking steps to correct these problems.
    At the nine sites we visited in Russia where DOE had installed 
systems, we observed, among other things,

        <bullet> storage vaults equipped with strengthened doors, 
        locks, video surveillance systems, and alarms that can detect 
        and delay thieves as they attempt to steal nuclear material;
        <bullet> nuclear material containers equipped with computerized 
        bar codes and tamper-resistant seals that allow site personnel 
        to perform quick inventories of the material and determine 
        whether the containers were tampered with; and
        <bullet> nuclear material portal monitors that scan people and 
        vehicles entering and leaving facilities to ensure that they 
        have not taken nuclear material from storage locations.

    While DOE has made progress in installing systems, DOE's project 
teams do not have access to 104 of the 252 buildings requiring improved 
security systems. These buildings, located mostly at Russian nuclear 
weapons laboratories, contain hundreds of metric tons of nuclear 
material. MinAtom is reluctant to grant access to these buildings 
because of Russian national security concerns and Russian laws on the 
protection of state secrets. DOE officials told us they need access to 
these buildings to confirm the type of material to be protected, design 
systems that provide adequate protection for the material, ensure that 
the systems are installed properly, and ensure that the sites operate 
the systems properly. DOE recently reached a draft agreement with 
MinAtom to provide program personnel with greater access to sensitive 
MinAtom sites. According to DOE officials, even with the agreement, 
some of the more sensitive MinAtom sites will remain inaccessible to 
program personnel but the agreement, when concluded, will allow the 
program to further expand its work.
    Just installing security systems will not ensure the long-term 
success of the MPC&A program. DOE's Technical Survey Team and our 
observations provide only a snapshot of how effectively the installed 
systems are reducing the risk of nuclear material theft in Russia. DOE 
has not established a means to systematically measure the effectiveness 
of the security systems that it has installed at Russian nuclear sites. 
However, DOE is currently collecting information from individual sites 
that would be useful in measuring the new systems' effectiveness. For 
example, DOE project teams visit sites and observe systems that have 
been installed, and at certain sites, DOE has contracts with the 
Russians to collect information on the functioning of equipment. In 
addition, before installing security systems, DOE and Russian site 
officials conduct vulnerability assessments, which assess the 
probability of the existing nuclear security systems at the sites to 
prevent nuclear material theft. In commenting on a draft of our report, 
DOE agreed with our recommendation to develop a system to monitor, on a 
long-term basis, the security systems at nuclear sites in Russia to 
ensure that they continue to detect, delay, and respond to attempts to 
steal nuclear material.

 DOE FACES CHALLENGES IN ADHERING TO MPC&A PROGRAM'S COST PROJECTIONS 
                            AND TIME FRAMES

    From fiscal year 1993 through February 2001, DOE spent about $601 
million on the MPC&A program in Russia. DOE spent about $376 million, 
or 63 percent of the $601 million, on installing security systems at 
Russia's civilian sites, nuclear weapons laboratories, the Russian 
navy's nuclear fuel sites, and the Russian navy's nuclear weapons 
sites. DOE spent the remainder of the $601 million on, among other 
things, operational assistance and program management.
    According to DOE, it will complete the MPC&A program in 2020 at a 
total cost of $2.2 billion. However, DOE officials told us that the 
cost estimate and time frame for completing the program are uncertain 
because DOE faces challenges in implementing the program. For example, 
DOE does not know how much assistance it will need to provide Russian 
sites with to operate and maintain the security systems. Some sites 
where DOE is installing systems are in better financial condition and 
have a greater potential to generate revenue than other sites and 
therefore are more likely to have the resources to maintain the 
security systems. Other sites will need more DOE assistance to maintain 
the systems. Furthermore, because of a lack of access to many nuclear 
sites, DOE is not certain about how many buildings will require 
security systems or when it will be able to start and complete the 
installation of these systems. DOE is also working with Russia to 
consolidate nuclear material into fewer buildings and convert the 
highly enriched uranium in these buildings into forms that cannot be 
used in nuclear weapons. While this effort could reduce the program's 
costs by reducing the number of sites and buildings needing systems, 
MinAtom has not yet identified which buildings and sites it plans to 
close. Our report (GAO-01-312) recommends that DOE include in its 
strategic plan, currently under development, (1) an estimate of how 
much assistance is required to sustain operations at each site on the 
basis of an analysis of the costs and the sites' ability to cover these 
costs and (2) options for completing the program on the basis of the 
progress made in gaining access to sensitive sites and the closure of 
buildings and sites. DOE concurred with this recommendation.
    doe's nuclear cities initiative projects have had limited impact
    During its first 2 years, NCI has had limited success in meeting 
the program's principal objectives--creating jobs for weapons 
scientists and helping to downsize Russia's weapons complex. According 
to DOE, the program is employing about 370 people, including many 
weapons scientists who are working primarily on a part-time basis 
through research projects sponsored by the U.S. national laboratories. 
About 40 percent of the work was generated through the Open Computing 
Center in the closed city of Sarov. The center's director told us that 
the part-time employees are also working at the weapons design 
institute in Sarov on weapons-related activities and are receiving 
salaries from the institute. The center has had some success in 
attracting business investment, and DOE officials estimated that, with 
successful marketing to commercial businesses, the center would be able 
to employ 500 people by 2005.
    Although some jobs have been created, about one-half of the 26 NCI 
projects are not designed to create jobs for weapons scientists. 
Instead, these projects focus on, among other things, such activities 
as the delivery of medical equipment and school exchange programs. DOE 
officials told us that these community development projects are needed 
to make the nuclear cities more attractive to business investment. 
However, Russian officials have criticized the projects because they do 
not create jobs for weapons scientists, which they believe is the 
primary goal of NCI and the 1998 agreement between the United States 
and Russia. Furthermore, none of the industry officials we spoke with 
said that they would be more likely to invest in the nuclear cities 
because of municipal and social improvements in the nuclear cities.
    Eight of the program's projects are designed to develop sustainable 
commercial ventures, but only one of these has successfully created 
jobs. Numerous factors have contributed to the limited success of the 
NCI projects. Some projects have been canceled or delayed because of 
the lack of Russian support and cooperation. Other reasons for these 
projects' lack of success include poor economic conditions in Russia, 
the remote location and restricted status of the nuclear cities, and 
the lack of an entrepreneurial culture among weapons scientists. 
Furthermore, DOE and national laboratory officials have told us that 
the Department's project selection process has been inconsistent and 
``ad hoc.'' According to the program director, projects were approved 
for funding without a comprehensive review process in order to 
implement the program quickly and engage the Russians. In January 2001, 
DOE issued new program guidance that includes more detail on project 
selection and approval. For example, the new guidance will give 
preference to those projects with the strongest prospects for early 
commercial success and those in which the start-up costs are shared 
with other U.S. government agencies, Russian partners, and/or private 
entities. While the guidance, if effectively implemented, will address 
the problems with DOE's inadequate project-selection process, it 
remains unclear to us why DOE took over 2 years to develop these 
procedures when similar procedures already existed under the IPP 
program.
    Despite the numerous problems we found with the NCI projects, the 
program has made some strides. For example, according to DOE officials, 
one of the most successful projects involves the conversion of weapons 
assembly buildings at the Avangard weapons facility in Sarov into 
production space for commercial ventures, including the proposed 
establishment of a kidney dialysis manufacturing facility. The program 
has helped facilitate the relationship between a Western business and 
the Russian weapons institute, and DOE has allocated about $1.5 million 
to support this effort.
    Interestingly, Mr. Chairman, the most successful commercial effort 
we observed in the nuclear cities involved a major U.S. computer firm 
that employs former weapons scientists in Sarov. This effort, which 
began about 7 years ago, has been undertaken without U.S. government 
assistance and now employs about 100 scientists. When we visited the 
software operation in September 2000, we were told that the employees 
work full-time and that their salaries are up to three times what they 
had been paid at the weapons institute.

MAJORITY OF NUCLEAR CITIES PROGRAM FUNDS HAVE BEEN SPENT IN THE UNITED 
                                 STATES

    From fiscal year 1999 through December 2000, the expenditures for 
NCI totaled about $15.9 million. Of that amount, about $11.2 million 
(or 70 percent) was spent in the United States, and about $4.7 million 
(or 30 percent) was spent for projects and activities in Russia. The 
U.S. national laboratories' costs to implement the program represented 
the bulk of the funds spent in the United States and included such 
items as overhead, labor, equipment, and travel. In fact, 75 percent of 
the funds spent by the laboratories were for overhead and labor costs. 
DOE officials told us that laboratory expenditures, although 
significant, were part of startup costs for NCI. They noted that the 
program has taken longer to start up because of the economic problems 
facing Russia and the barriers involved in trying to start new 
businesses and related activities in the nuclear cities. DOE officials 
told us that they were concerned about the amount of funds spent by the 
laboratories to administer the program--particularly the overhead 
costs--and have taken steps to reduce these costs such as by managing 
some projects directly from headquarters. These officials also told us 
that laboratory costs will be reduced and that the laboratories' role 
will diminish as commercial investors develop business contacts in the 
nuclear cities as a result of the program.
    The $4.7 million in expenditures for Russia included contracts with 
Russian organizations to buy computers and other equipment, a small 
business bank loan program, and various community development projects. 
Furthermore, MinAtom officials made it clear to us, during our 
September 2000 visit to Russia, that they were dissatisfied with the 
amount of program funds that had been spent in Russia. The First Deputy 
Minister of MinAtom told us that it was his understanding that DOE 
planned to spend the majority of program funds in Russia and wanted to 
know what happened to these funds. He said that the lack of progress in 
the program increases the negative views of the program held by various 
Russian government officials, who allege that the program is a way for 
the United States to gain access to weapons data in Russia's nuclear 
cities.
    In response to direction provided by Congress in a conference 
report on DOE's fiscal year 2001 appropriations, DOE stated that its 
goal is to spend at least 51 percent of its program funds in Russia 
during this fiscal year. DOE will have to more effectively monitor and 
control the program's spending to meet this goal. Regarding future 
program expenditures, the Department has not developed a plan that 
addresses the program's future costs and a time frame with quantifiable 
performance measures to determine how effectively the program is 
meeting its goals and when and if the program should expand beyond the 
three nuclear cities. In 1999, DOE officials believed that the total 
funding level for NCI could reach $600 million over a 5-year period. 
However, the program's director told us that because the program had 
not received expected funding levels during its first years of 
operation, he is uncertain about the program's future costs and time 
frames.

  DUPLICATION HAS OCCURRED IN THE OPERATION OF DOE'S TWO PROGRAMS IN 
                        RUSSIA'S NUCLEAR CITIES

    DOE has two programs operating in Russia's nuclear cities--the 
Nuclear Cities Initiative and the Initiatives for Proliferation 
Prevention--that share a common underlying goal--to employ Russia's 
weapons scientists in nonmilitary work. We believe that DOE needs to 
address a fundamental question--does it need two programs operating in 
Russia's nuclear cities with a shared goal and, in some cases, the same 
types of projects? The operation of these two similar programs has led 
to some duplication of effort, such as two sets of project review 
procedures and several similar types of projects. Both programs provide 
Russia's nuclear cities with funds and since 1994, DOE has spent over 
$13 million on about 100 IPP projects in five nuclear cities, including 
the three nuclear cities participating in NCI--Sarov, Snezhinsk, and 
Zheleznogorsk. One U.S. national laboratory official told us that there 
was not a clear distinction between the two programs, and other 
laboratory officials noted that some projects have been proposed for 
funding under both programs, have been shifted from one program to 
another, or have received funding from both programs. The IPP program 
director told us that although he did not believe that the two programs 
were duplicative, there is a potential for duplication to occur because 
both have a common approach for creating jobs in the nuclear cities. 
Both programs reside within DOE's Office of Defense Nuclear 
Nonproliferation, National Nuclear Security Administration; have 
adjoining offices; and share staff to perform budget, travel, and 
secretarial functions.
    Our work shows that some of the failures of NCI's commercial 
development projects might have been avoided if DOE had a common 
project approval process and incorporated some of the elements of the 
IPP project selection process from the onset of the NCI program. 
Furthermore, most of NCI's initial commercial development projects 
would not likely have been approved under the IPP program's more 
rigorous approval process. This is because, unlike the IPP program, NCI 
did not require that projects have industry partners or demonstrate 
commercial viability until January 2001, when program guidance was 
issued. In addition, NCI has recently (1) begun to develop a more 
systematic process, as IPP already has, for obtaining the views of 
business or industry experts on commercial development and (2) adopted 
practices established under the IPP program regarding the funding of 
projects. In commenting on a draft of our report being released today, 
DOE agreed to review both programs with a view toward consolidation.
    Mr. Chairman, this concludes our testimony. We would be happy to 
respond to any questions that you or other members of the subcommittee 
may have.

                      CONTACT AND ACKNOWLEDGEMENT

    For further information on this testimony, please contact Ms. Gary 
L. Jones at (202) 512-3841. Individuals making key contributions to 
this testimony included Gene Aloise, Charles Bolton, Ross Campbell, 
Joseph Cook, Glen Levis, and Joseph O. McBride. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Roberts. General Gordon, in some ways I think 
perhaps if we were a month down the road or maybe 2 or even 3 
months down the road, we might be better served with an ability 
to respond to some of these questions, and that is a timing 
issue, that obviously you do not have your full team up and 
running.
    But you have indicated that hopefully that will be done in 
2 or 3 weeks or at least a month. Then the administration is 
conducting a review. They have made a budget request, but that 
is dependent, as I understand it, on the review that they are 
conducting. There may be some flexibility in that regard.
    You are conducting your own review in regards to the IPP 
and NCI programs. So we have three very time-sensitive 
considerations here. First, to make sure that you have your 
team up and running; second, the review by the administration 
reflects that any changes in the budget request; third, your 
own review.
    I am not finding fault with this. This is just the way 
things are under the circumstances, but tempis fugit and time 
marches on in how the authorizers and appropriators work around 
this place. While we have a little bit of time, it really is 
not very much.
    Can you give us a general estimate? I am not trying to pin 
you down. Many of these things, two of them at least, well, all 
three of them really you have no way of speeding that up other 
than to plead your case before the administration.
    But could you comment on these three items in regards to 
when we might be up and running with team Gordon?
    General Gordon. With respect to the administration's review 
that's under way, most if not all of the programs have been 
presented to the review panels. So they are beginning to 
wrestle with their decisions--with their recommendation 
process. I frankly don't know how long it will take to write 
that up.
    But the process has been very interactive with meetings 
held several days each week, in looking at each of the 
programs, not just DOE programs and NNSA programs, but other 
programs across the government and looking at them 
comprehensively. The technical part of that work is basically 
wrapping up now in real time.
    Senator Roberts. Are we about a month away, 2 months? I do 
not mean to be picky about this, but we do have an 
appropriations process to get through, and we have to treat the 
appropriators well.
    General Gordon. I can't speak for them, but that would 
certainly be the time frame I'm thinking of it. About a month 
or so is the kind of time frame but that's only an estimate.
    Senator Roberts. If you could relay to the folks in charge 
that the Roberts-Landrieu team was getting a little testy on 
the issue.
    General Gordon. There's probably a little of that among the 
people trying to implement the programs too because we don't 
want to go down a road or make a major investment or commitment 
and find out we're a little bit out of sync with the overall 
approach that the administration would have us take in these 
programs. Should we show common interest in them, Mr. Chairman?
    With respect to internal work, we will all want to tie that 
to the new member of the team as soon as the deputy 
administrator is there, and it won't take very long to do that.
    Senator Roberts. Isn't that name going to be forthcoming 
very quickly?
    General Gordon. I'm hopeful that it is within 2 weeks or 
less. But, again, we're just waiting for the announcement to be 
made by the President.
    But what I want to comment on is that while those processes 
are going to take a bit of time, more than any of us would 
like, we're not standing still, for example, in amending the 
initiatives we talked about, the project review proposals and 
the recommendations that are being made in the NCI report.
    For example, Mr. Baker and his team have already adopted 
those review cycles. So we're putting those in place as we go. 
Not waiting for other reviews to take place on the things that 
we can, in fact, do, and we are proceeding.
    We are proceeding at a good pace on many of the programs 
where we know we can and have folks in Russia this day working 
with some of the Navy programs. So we proceed at a good pace on 
those programs.
    Senator Roberts. General, according to the GAO and I think 
it is common knowledge, that any continued progress in reducing 
the risk of theft in regards to the nuclear material in Russia 
certainly depends on our gaining access to the Russian sites. 
What is the status of the department's effort to gain access to 
these sites?
    General Gordon. We've had some problems in the military 
side of MinAtom, and that's where we're attacking the problem 
now. We have had pending agreements with the Russians that are 
being negotiated and working ad hoc as we speak. It has been 
very difficult. We remain hopeful. But it has been difficult.
    Senator Roberts. The GAO found that most of the systems, as 
installed by you, are reducing the risk of theft. That is, I 
think, obvious. But we seem to be lacking a mechanism to 
monitor the effectiveness of the systems on a long-term basis. 
This may be a bit premature in regards to what we were talking 
about earlier, but what is DOE doing to implement their 
recommendation to develop a monitoring mechanism with the 
Russians? I emphasize the importance of establishing such a 
system.
    General Gordon. Just an example of trying to get some 
technology to work for us is trying to use some of the ideas 
that have been developed by ourselves and by the International 
Atomic Energy Agency to look at remote monitoring of sites.
    For example, using certain controlled video systems that 
would give us a report back that, in fact, systems are working, 
and guards are present, we've had at least the initial 
discussions, and I'm told by my colleagues that the Russians we 
are dealing with find this a fairly attractive program.
    We may be able to do that truly jointly on this one because 
they would like to do it themselves. But the short answer, Mr. 
Chairman, is that we are trying to put some technology to work 
for us in these areas. We fundamentally know how to do it as 
long as we can secure appropriate Russian agreement.
    I do take this idea of the sustainability of these programs 
very seriously. It's just not going to work if we go install 
the stuff, it breaks, and we walk away from it. That's 
absolutely critical to making this whole program work.
    Senator Roberts. One of the things that is obvious is the 
attempt to enable the Russians, help the Russians consolidate 
their material into fewer buildings, and then convert that 
material into forms that cannot be used in any weapon. By 
consolidation, the hope was we might end up spending less money 
and the Russians more.
    But it is my understanding that MinAtom has yet to tell DOE 
which sites and which buildings would be consolidated. Can you 
give us an update on that as to which sites and buildings would 
be consolidated?
    General Gordon. There are efforts being made in that regard 
right now by Mr. Gerard. But I would like to give you a more 
considered current answer for the record, Mr. Chairman, give 
you the most current.

                         Department of Energy,     
          National Nuclear Security Administration,
                              Office of the Administrator, 
                                      Washington, DC, May 18, 2001.
Hon. Pat Roberts,
U.S. Senate,
Washington, DC.
    Dear Senator Roberts: It was a pleasure to testify before the 
Senate Armed Services Committee's Emerging Threats and Capabilities 
Subcommittee on May 15, 2001. At that time, I took two questions for 
the record from you. In response to your request for more detailed 
information about how the fiscal year 2001 funding to the Fresenius 
project will be used, documentation from the Lawrence Livermore 
National] Laboratory on the project indicates that the $3M of 
Initiatives for Proliferation Prevention (IPP) funding will be used to 
provide facility improvements and basic process equipment that will be 
used in the dialysis joint venture. Fresenius, as part of its 
contribution, will provide the actual process/assembly line equipment.
    The improvements and basic equipment needed by the joint venture 
are such things as water, heating, sanitary, and telecommunications 
systems, testing systems, autoclaves, a quality control laboratory, 
air-handling systems, sterile steam, chilled water, cooling systems, 
electrical power distribution, upgraded fire protection, storage and 
mixing tanks, material storage, and material receiving functions. These 
are all part of the infrastructure upgrades needed in the Avangard 
facility for the dialysis project, which will be funded in fiscal year 
2001.
    In response to your request for an update on site and building 
consolidation: the Department of Energy (DOE)I National Nuclear 
Security Administration (NNSA) has witnessed successful closure of 21 
buildings located at several Russian sites and has converted more than 
2 metric tons of high-enriched uranium (HEU) to low-enriched uranium 
(LEU). The Russian Ministry of Atomic Energy (MinAtom) has proposed an 
aggressive plan calling for the closure of 60 buildings through 
material consolidation and conversion of an additional 27 metric tons 
of excess weapons-usable HEU over the next ten years. According to 
MinAtom, specific details such as the name and location of the 
buildings planned for closure will become available once DOE/NNSA and 
MinAtom are engaged in negotiations on a bi-lateral material 
consolidation and conversion (MCC) agreement. The DOE/NNSA is prepared 
to table a draft Agreement as soon as it receives interagency approval 
to proceed.
    If you should have any additional questions please feel free to 
contact me or have your staff contact Laurie Harrison at (202) 586-
7369.
            Sincerely,
                                                       John Gordon.

    Senator Roberts. All right. It took 2 years for DOE to 
develop the NCI program with guidelines that cover such basic 
management issues as project selection review and approval 
procedures. Some of us feel that time period--well, that that 
should have been done from the outset. Any comments?
    General Gordon. I think I would agree with you, sir. Again, 
what we've done in response to these issues, even on that 
particular one and some of the accounting programs, it's my 
understanding that the NNSA was responsive to the GAO even in 
the initial parts of their investigation and began to correct 
that in real time again as opposed to waiting for the their 
full reports to come out.
    But I must simply agree with you, Mr. Chairman, that if 
there are shortfalls in projects--if projects were not fully 
thought out at the time and if controls were not in place, we 
need not let that happen again.
    Senator Roberts. Where are you in encouraging the Russians 
in regards to cost-sharing?
    General Gordon. That's a continuing discussion with us in 
everything we do, and I think in most of these areas they have 
put up at least in kind in all of these projects. So it's on 
our list for every program we work, sir.
    Senator Roberts. One of the suggestions has been, and we 
looked into this in the last session of Congress and we are 
probably looking at it again very seriously in regards to how 
the NCI program differs from the IPP program; why there was a 
need to create a separate management structure to implement 
both? What are the differences in these programs? There has 
been a suggestion by the GAO that perhaps these programs could 
be merged and better managed. How do you feel about that?
    General Gordon. As I suggest in my statement, we're going 
to take a hard look at that as to how to proceed in that area. 
There are differences in the two programs, at least in how they 
were initially conceived, and they're thought of now.
    Senator Roberts. But the basic goal is the same?
    General Gordon. But the goal of the NCI program, the way we 
now talk about it, is to reduce the floor space, reduce the 
plants, and reduce the operation of the facilities to where the 
employment and other issues are by-products of that that 
naturally occur; where as, the IPP is a little bit more focused 
on employment itself and employment opportunities and 
commercial opportunities.
    But, as I said, Mr. Chairman, we do intend to take a 
serious look at that. Again, they operate a little bit 
differently. The IPP does operate in some of these cities. They 
operate in many other locations as well. They do not operate 
under a government-to-government agreement now.
    Again, just to repeat, we will take a very serious look at 
combining these programs and finding out whether we should 
combine the best of the two into one. Whether IPP should become 
NCI or NCI should become IPP or whatever the combinations are, 
that has yet to be determined. But we're taking that on as a 
considered look, sir.
    Senator Roberts. This is a cooperative program between the 
United States and the Russians. Now you have a pretty good feel 
and a lot of past history in dealing with the Russians. I do 
not think there is any question that the Russians are 
dissatisfied in some respects with both programs, more 
particularly NCI. What are their concerns and are they 
justified?
    General Gordon. I think some of the concerns are, as you 
pointed out and as Ms. Jones pointed out in her statement, the 
program has been off to a slow start, and there hasn't been a 
lot of money flowing into the program.
    On the other hand, some Russians have looked at it 
differently than others. The MinAtom, as itself, is essentially 
a controlled organization, and they would like to have the 
money up front and run their programs. What we believe we 
should do is operate inside the cities, which gives a totally 
different view and perspective on the program, and operate at 
some of the smaller levels that can build infrastructure and 
can build perspectives on business and economics that are not 
likely to come from MinAtom themselves.
    Senator Roberts. Let's get specific and bear with me here. 
MinAtom has sent DOE letters in the past year that have pointed 
out that Russia has only received $3 million out of the entire 
amount allocated. In the most recent letter sent last week, 
MinAtom states that they believe, ``there are other reasons 
impeding the implementation of the NCI agreement.''
    I continue, ``the most fundamental of those are the 
unsatisfactory funding for the agreed project's ineffective use 
of the allocated budget funds.''
    They go further by stating, ``we continue receiving quite a 
large number of requests for access to the closed cities. Such 
visits require significant funds to finance business trips, 
drawing resources from the project financing in the nuclear 
cities.''
    ``However, mere visits to the closed cities cannot 
obviously resolve the issues related to a job creation in the 
nuclear cities.''
    How do you plan to respond to them in regards to these 
concerns?
    General Gordon. Mr. Chairman, the requirements--commitments 
that Congress has levied and that we've accepted obviously, 
first off, to spend no less than 51 percent of the money in 
Russia, will be accomplished, and our goal is actually to begin 
spending numbers on the order of 65 percent on the projects, if 
at all possible, and I expect to be able to do that.
    I think the numbers, some of their own accounting and, 
again, I don't want to quibble over the amount too much because 
I certainly agree that the largest percentage of funds were not 
spent in Russia at the outset, but the balance is probably 
twice that because I don't think they count some of the work 
that has been done with the European bank and some of those 
other programs.
    But, again, Mr. Chairman, we need to spend more money in 
Russia, if we're going to do this program, and we need to spend 
it there.
    With respect to access as a whole, I don't know if there 
has been too much request for access in the past or not, but, 
again, I don't think we're going to be able to sustain these 
programs, and I don't think the business partners are going to 
play on them very hard if we don't have the degree of access 
needed. Again, we're in the middle of the discussions for the 
second or third or forth time, with the Russians right now.
    Senator Roberts. Let me--and I'm going to cease and desist 
here so I can turn it over to Senator Landrieu and to Senator 
Allard, but this sort of gets to your feeling in regards to 
what the Russians have said and what they will do or may not 
do.
    I think you are certainly aware last year's subcommittee 
established legislation that required the MPC&A program to 
establish an access policy with MinAtom and required the NCI to 
obtain a written agreement. Let me emphasize the words 
``written agreement.'' Not intent, but ``written agreement'' 
with respect to closure of some of its nuclear weapons assembly 
and disassembly facilities.
    Now, some may question that as to where we were so 
specific, and we had to be specific. But in dealing with this 
program, obviously you want to be as open and positive and have 
common sense, if I can use that term, with the Russians as 
possible.
    But we have a coequal in this business. It is called the 
House of Representatives. When we went to conference, it was 
very clear that they would not agree to continue funding unless 
we obtained a written agreement. You and I have talked about 
this a little bit in terms of Russian intent. Could you shed a 
little light?
    It seems to me, we may have to maybe come up with some out-
of-the-box thinking or some art craft here. I do not think they 
are objecting to the transparency or the access. But I do think 
in regards to the written agreement that may pose some 
problems, and yet we think the program certainly merits further 
consideration. Any comment?
    General Gordon. Mr. Chairman, I don't know quite how to go 
with this, but I will say we have received from the Deputy 
Minister, Mr. Ryabev, what I think would be fair to call a 
commitment on his part and his agency's to begin the efforts to 
close out these facilities on Avangard. It's his document 
that's signed, and it's written to us. I guess the issue is 
whether that constitutes agreement or not.
    He's also on record, and we just came across it on a speech 
that Mr. Ryabev gave within the last couple of days to the Duma 
stating the very clear intent of MinAtom, talking to their own 
legislative body about their intent to close these facilities.
    So we have that record. They're speaking to themselves, 
this is openly available. We have a letter from Mr. Ryabev 
toward this point. I guess at issue is whether that satisfies 
the term ``agreement'' or not.
    I would also tell you we have gone back to Mr. Ryabev in 
real time, if there's anything that looks more like a formal 
agreement, it's possible that may prove different. I understand 
their perspective.
    I think, for the reasons that we've discussed and Senator 
Landrieu has discussed, that if there is a way creatively to 
release those funds towards that end, that would be a benefit 
towards many of the programs we're trying to do.
    In particular, where we are now kind of on a cusp with this 
dialysis company, they're ready to go. We think the Russians 
are ready to go. There's $3 or $4 million standing in the way 
of being able to do that.
    I don't want to stand it up as one of the only things, but 
this will be a measure of whether this program is going to be 
able to make it or not. If we get a real program in there with 
this kind of magnitude with potential to really take over a 
significant portion of this material, the jobs, the work, and 
the economic benefit that comes from that, it offers at least a 
signal to the other companies that are interested that they may 
actually be able to work in this environment.
    Conversely, if it falls apart, it probably sends a signal 
back to business partners equally.
    Senator Roberts. I concur with that statement.
    Senator Landrieu.
    Senator Landrieu. I have an interest in looking to see how 
we can actually work through this because I think this 
particular program is at a critical juncture here. I thank you, 
General, in your work and want to try to be helpful in making 
whatever changes are necessary to the program. But overall 
ensuring that the funding is there to move ahead with something 
that I consider and I think the chairman does and others a real 
threat--security risk to the United States.
    Again, to reiterate what I said in my opening statement, 
this is fundamentally a security issue for us.
    I really appreciate your help and support and want to 
submit for the record the letter that you referenced which I 
have a copy of here, Mr. Chairman, that may or may not be 
considered by some as a signed agreement. But it is very 
specific in what it says in terms of being ready to close this 
facility.
    There are 3,000 to 3,500 jobs at stake at this particular 
site. So I would like to just submit that to the record.
    Senator Roberts. Without objection.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Landrieu. I also want to submit my other questions 
for the record. I have some for open and some for the closed 
meeting. Just to take my limited time before Senator Allard 
speaks to say how important I think it is to get this funding 
in a timely manner.
    Because if we do not, it is not going to be there when we 
go to ask for it. This program in the budget has been cut 
substantially, it has been recommended for cuts. The way things 
are moving around here pretty quickly that if we don't get this 
money either redirected, the money that's there released and 
then for next year that no matter how much we fix it and no 
matter how many private partners we may have, we are not going 
to have the funding to carry this out.
    I think it will be a real step backwards for the security 
of our nation. I just want to be on the record saying that. Our 
whole side, according, Mr. Chairman, to our Ranking Member, 
Senator Levin, is very concerned about this. I wanted to 
express this at this hearing and commit these for the record. 
Thank you.
    Senator Roberts. We had a good conversation yesterday with 
Senator Levin on the Senate floor, and his position is 
precisely that as described by the distinguished Senator.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. The GAO identified 
duplication of effort between the Nuclear Cities Initiative and 
the Initiative for Proliferation and Prevention. In the nuclear 
cities of Sarov, Snezhinsk, whatever, and----
    Senator Roberts. They have an allergy pill for that if you 
want to take it. [Laughter].
    Senator Allard. Apparently there's some other programs and 
you've reported those, Ms. Jones. Did GAO examine any of these 
programs for duplication and the possibility of consulting 
them? I think one of them that comes to light is the State 
Department's International Science and Technology Center 
Program.
    Ms. Jones. We have recently looked at that ISTC program, 
Senator Allard, but just from the standpoint of looking at the 
process that the program uses to select projects and also the 
process that the program uses to oversee how the science 
centers are functioning. So we did not look at it from the 
standpoint of duplication with IPP or NCI.
    Senator Allard. Does that possibility exist?
    Ms. Jones. Yes, sir, it does. Certainly they're going at 
the same kind of bottom line goal which is to keep weapon 
scientists, also scientists that work on chemical and 
biological projects working. They do it from a different 
standpoint. They basically look at contract research. They're 
not looking for sustainable jobs in the same way that the IPP 
program is looking.
    But, again, we certainly could look at that to see if there 
is potential duplication and a way to consolidate all of those 
kinds of nonproliferation activities.
    Senator Allard. I think that would be helpful. I hope at 
some point in time that we can.
    Now, on the Department of Energy's efforts, one of the 
issues raised again by the GAO report, General Gordon, is 
whether the department should be involved in the area of 
business development. They indicated in their report that there 
is some question as to how successful your business development 
efforts would be.
    I do believe the scientists at DOE are some of the best and 
the brightest in the technical areas, but I'm not so sure about 
their business acumen.
    GAO has noted the successful commercial venture in Sarov 
was done without U.S. Government assistance. The report noted 
that the company representative believed that linking the 
research and analytical skills of the Russian scientists with 
western companies would be more successful in attempting to 
start up new ventures.
    I wonder if you would comment on the role at DOE in the 
area of nonproliferation security sites and issues and what 
experience does DOE have in creating business from scratch?
    General Gordon. Senator, I think that the programs are 
basically evolving to the way you've just suggested and 
described it there.
    What we're doing with the NCI program now and its proposal 
for this dialysis company is helping provide the basis for 
them, for the company itself to come in and be able to conduct 
the work in that location. We're trying to provide basically 
government agreements, some seed money that would help move in 
that direction.
    The whole strength, Senator, of the IPP part of the program 
is exactly that. It's helping match up the technical side on 
both sides with the business folks on both sides. Through IPP 
we're literally putting--looking through the economic endeavors 
by facilitating contact by American businesses. So their point 
is well-taken and well-understood, sir.
    Senator Allard. On the European Nuclear Cities Initiative, 
there's a perception there that the Europeans are less willing 
to get in--consider the scientist as a possibility of serious 
threat. They're more focused on actual weapons themselves.
    Why do we perceive scientists as a threat and many of our 
European allies do not?
    General Gordon. I wouldn't propose to know why they don't, 
but the knowledge of how to do some of this stuff is just so 
important, and I think the more we can control, the more that 
we can keep this expertise, from marketing this expertise into 
other channels is to our net benefit.
    Senator Allard. The follow-up question, what kind of effort 
has our European allies done in trying to deal with the 
security of the material?
    General Gordon. I would like to give you an answer for the 
record on that, Senator. I don't have one. I don't have an 
answer on the top of my head. Let me give you a for-the-record 
answer.
    [The information referred to follows:]

                              Department of Energy,
                  National Nuclear Security Administration,
                                      Washington, DC, May 18, 2001.
The Hon. Wayne Allard,
United States Senate,
Washington, DC.
    Dear Senator Allard: It was a pleasure to testify before the Senate 
Armed Services Committee's Emerging Threats and Capabilities 
Subcommittee Hearing on May 15, 2001. At that time, I took a question 
that you posed ``for the record.'' I would like to provide you with the 
following information concerning the level of support our European 
allies have provided in securing Russian nuclear material.
    Although the U.S. has provided the majority of assistance to Russia 
in securing nuclear material, our European allies have made several key 
contributions.

        <bullet> European Union (EU) organizations such as the Joint 
        Research Center (JRC) and the Euratom Safeguards Office (ESO) 
        have worked jointly with the Russian Federation (RF) in the 
        areas of training, analytical capabilities, and reference 
        materials.
        <bullet> Germany and the United Kingdom have provided Material 
        Protection, Control, and Accounting (MPC&A) assistance at Mayak 
        facilities such as the Isotope Production Reactor Plant and the 
        Isotope Production Plant, and at the RT-1 Fuel Reprocessing 
        Plant. These efforts have been conducted with the knowledge of 
        the U.S. MPC&A team but totally independent of U.S. funded 
        MPC&A activities.
        <bullet> The JRC is supporting the establishment of a model 
        plutonium storage facility laboratory at the All Russian 
        Scientific Research Institute of Technical Physics (VNIITF) 
        located in Snezhinsk for the purpose of developing the 
        instrumentation that would be used in such a facility.
        <bullet> European Safeguards Directorate (ESD) has purchased 
        over $1M of MPC&A equipment for Gosatomnadzor (GAN) to use at 
        power reactors and fuel fabrication facilities. This includes 
        tamper indicating devices (TID) and video surveillance systems 
        which are used by GAN for all Russian nuclear facilities.
        <bullet> The German firm, Gesellschaft fur Anlagen and 
        Reaktorsicherheit (GRS), provided consulting services and 
        equipment to improve the site perimeter and building security 
        systems at Bochvar Institute.
        <bullet> Kurchatov Institute in Moscow has worked with the 
        German government on physical protection upgrades. 
        <bullet> The Murmansk Shipping Company in Murmansk is working 
        with the British and Norwegian governments on physical 
        protection upgrades and has cooperated with the Swedish 
        government on a material accounting system.   

    If you should have any additional questions please feel free to 
contact me or have your staff contact Ms. Laurie Harrison at (202) 586-
7369.
            Sincerely,
                                                       John Gordon.

    Senator Allard. General Gordon, would you talk a little bit 
about your new guidelines and measurements? GAO noted it took 2 
years to develop and implement the new procedures for the 
Nuclear Cities Initiative. I guess the question that comes up 
is why did you take that long or why was that length of time 
required?
    Also DOE, and apparently you've concurred with the 
recommendations of the report, but how long will it take to 
implement those recommendations?
    General Gordon. I expect to move pretty quickly on those. 
For example, the concept--I don't know the question to the 
answer why it took so long, I really don't. But, for example, 
the issue about the recommendation, we have a better program 
review and acceptance procedure that involved a multiple 
process of making sure, for example, economic viability. We 
have, in fact, already begun to implement that.
    The same individual that developed those procedures for the 
IPP program is implementing them now on the Nuclear Cities 
Initiative. So we're not letting any grass grow under our feet 
on these initiatives, sir.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Roberts. General Gordon, there is a great deal of 
support in Congress for the project that we were just talking 
about, the dialysis project; there is a great deal of support 
for additional funds.
    Senator Landrieu just spoke about that, and I believe that 
the request is around $3 to $4 million. I think, if I am 
accurate, that the suggestion has been made that at least some 
of that money could be transferred from the IPP program.
    But it is my understanding that, I know the IPP program has 
specific criteria that perhaps--that this program could not 
meet or at least that is my understanding of it.
    Can you agree, this is sort of a crossroads project here? 
Can you tell me what specifically that money would be used for 
in regards to this project? Or maybe you would like to get back 
to me on that?
    General Gordon. I could either give you an answer for the 
record or ask Mr. Baker to comment.
    Senator Roberts. If you could comment and then do both. 
Senator Levin is very supportive of this. I am supportive of 
it. I think with the budget numbers and the request we have, it 
is important that we know what that would be used for.
    General Gordon. Let me say at the outset that our 
understanding is exactly that, that there's about $4 or $4\1/2\ 
million as the total amount. There is an initial thought that 
about $3 million of that could come from IPP. But the 
requirements and limitations on that funding make it, in fact, 
not available. Mr. Baker.

  STATEMENT OF KENNETH BAKER, ACTING DEPUTY ADMINISTRATOR FOR 
             NONPROLIFERATION AND NATIONAL SECURITY

    Mr. Baker. I'm Kenneth Baker, Acting Deputy Administrator 
for Defense Nuclear Nonproliferation. Sir, we tried to work 
this out when Secretary Richardson was still the Secretary of 
Energy at that time. To finish the Kidney Dialysis Project, it 
would cost us $4\1/2\ million. We did not have that money in 
the NCI program.
    A decision was made by the past Director of 
Nonproliferation and National Security to use $1\1/2\ million 
of NCI money, which we had; and $3 million of IPP money to push 
this over the goal line to get this Fresenius project done and 
put it in the Technical Park.
    We found out after I looked at this when I took over Acting 
Director that there were rules and regulations for IPP that we 
could not meet while trying to use IPP money.
    The first one is the benefit to American firms. The $5-$6 
million that was provided to Livermore, who was the project 
manager on this particular project, could not be spent until 
certain IPP project requirements were met.
    The $3 million would push it over, but right now we're 
trying to work out how IPP can finish this off. That was the 
problem, sir.
    Senator Roberts. You have defined the problem, but you have 
not told me what you are going to spend it on specifically.
    Mr. Baker. The money is for seed money, seed money to go 
put Fresenius into the Technical Park to get it going, to get 
it up and running. This was the money that was promised for the 
seed money, and they would take it over completely after that. 
That's what the money was used for, to get ground money to get 
them going in the Technical Park.
    Ms. Jones. Mr. Chairman, if I could raise a question on 
that or add a point.
    Senator Roberts. Yes, please.
    Ms. Jones. During the course of our work, the NCI program 
has provided $1.5 million for this project already. During the 
course of our work, we were told that it had only been spent 
several hundred thousand dollars. So seed money has already 
been provided to this project. So it's a little unclear what 
the additional $3 million would be for, based on the work that 
we've done.
    Senator Roberts. It's very important, and I am going to 
have a comment a little bit later as I get to the second sheet 
here of the GAO report where 70 percent of the NCI fund is 
spent in the United States, 30 percent spent in Russia. It may 
not be a proper question or maybe I do not understand it 
correctly, but if it were $3 million and we still have that 
ratio, we were not there yet for the seed money. There aren't 
going to be that many seeds.
    General Gordon. I think the intent is to spend nearly all 
or all of it there, sir.
    Senator Roberts. So that $3 to $4 million would be spent 
entirely by the seed money or for the seed money to score the 
touchdown or----
    General Gordon. It's my understanding.
    Senator Roberts. There are a lot of us who feel this is 
very important, and I do not want this to--I understand the IPP 
criteria, but I also understand that--we need to know exactly 
what this money is going for. I appreciate the term seed money, 
but I wonder what that means.
    General Gordon. It includes getting the facility up and 
running, getting the water supply up and running, the power 
source that would make it go. It's establishing that core 
infrastructure.
    Senator Roberts. I am an event-oriented guy. If you can 
spell that out to me like, ``OK, Roberts, I am going to turn 
the water on.'' That makes sense. If you say seed money, who 
knows how many grants we have running around on seed money. All 
right, enough of that.
    General Gordon. Water, electricity, doors, walls.
    Senator Roberts. That makes sense.
    I have to ask, OK, you know what's coming. If there was a 
boy named Sue, we have a girl named Gary. I should not do this, 
I apologize. Do you want to make any comment about that?
    Ms. Jones. All I can say is I can give you my mother's 
phone number. She liked the name and I was the first. I have 
three brothers. I'm the only girl.
    Senator Roberts. Bless your heart. I apologize for that. I 
will catch heck for that from staff.
    Ms. Jones. No problem, Senator. I've been getting the 
question all my life.
    Senator Roberts. My name is Pat Roberts, my first name is 
Charles, and you can call me Chuck if it bothers you.
    OK. Let me ask a couple of questions in regards to your 
work. Your review found that the department is installing 
systems that reduce the risk of theft in Russia. Can you give 
me any comments for the basis of your findings?
    Ms. Jones. Yes, Mr. Chairman. Our findings were based on 
reviews conducted by a DOE technical survey team as well as 
visits to nine sites in Russia. The technical survey team is a 
group of experts that DOE has put together to look at these 
projects and how they were installed to make sure they were 
following the criteria that DOE has set out for success.
    During the course of our review, we looked at the reports 
they did on 30 sites. This technical survey team found that 22 
had been installed correctly and reduced the risk of theft.
    Also we saw a lot of things on the site visits we did to 
nine different sites. We saw such things as video cameras being 
installed. We saw hardend doors and locks, things that hadn't 
been used before. We felt it was comfortable for us to draw the 
conclusion that what DOE was doing was reducing the risk of 
threat to nuclear material.
    Senator Roberts. I don't want to speak for every member of 
the subcommittee, but I think in terms of priorities we were 
very insistent that that would be one of the priority goals. So 
I am very pleased at your observation.
    I asked General Gordon about the Russian view. Of course it 
depends on the Russian, I suppose, that is there today. The 
posthumous period. But their view of the NCI program, in your 
view, what did they like and what did they not like about it? 
It is a cooperative program.
    Ms. Jones. Yes, sir, the officials that we talked to, and 
we talked with MinAtom officials, we talked to officials in 
Sarov both at the weapons institute as well as the open 
computing center and the deputy mayor of the city. These 
officials provided a consistent view when it came to the fact 
that they're serious about downsizing the weapons complex. They 
also believe there is a role for the U.S. Government to help 
them do that.
    The MinAtom officials we talked to were very disappointed 
and dissatisfied with the level of assistance they were getting 
under the program. They also believed it did have limited 
success in terms of the numbers of sustainable jobs that had 
been provided.
    They also felt that lack of success was increasing the 
skepticism that others in Russia had that this program was 
really just there to get the U.S. in the door to get 
information on their weapon activities.
    Officials in Sarov were very grateful for the program, but 
they were also a little dissatisfied with how it had been 
implemented. They expressed some displeasure with the European 
bank project because they felt that the funds that had been 
given out through loans under the bank really weren't focused 
on jobs for the weapons scientists. They were small loans. They 
weren't starting new businesses, they were really focused on 
the retail establishments. So they didn't really feel that was 
getting at the goal of employing weapon scientists.
    Senator Roberts. When, in fact, if I can read my writing 
when I was taking notes in regards to your summary here, that 
was in fact the primary goal with regards to weapon scientists. 
There may be other programs that are social and economic in 
nature that would improve the environment of a community, but 
basically the goal was in regards to the weapon scientists; is 
that not correct?
    Ms. Jones. That's correct. While the community development 
projects are, on their face, good projects, they really didn't 
contribute to getting jobs for the weapons scientists.
    Senator Roberts. You talked to a lot of industry officials 
in regards to your study. Give me a take on their attitude 
about any impediments that they found in regards to commercial 
investment in the nuclear cities. I am not talking about the 
NCI program or the IPP program, but their investment.
    Ms. Jones. Sure. The industry officials we talked to really 
painted a very cautious picture about investing in Russia as a 
whole, in particular the nuclear cities. They told us that 
Russia really doesn't present a business-friendly environment 
because it lacks a market economy.
    Also its legal, financial, and banking systems provide for 
an uncertain investment climate as well as the uncertainty in 
terms of political stability.
    When looking at the nuclear cities, they found that the 
weapons scientists didn't really have a good business sense or 
marketing backgrounds. Of course, the point that all of us have 
been making about access to the cities is very limited. So 
those were the negative aspects.
    From a positive standpoint, they felt that they were very 
optimistic about a very talented pool of scientists, 
mathematicians, and engineers that they could tap in the future 
for their business ventures.
    The point that they tried to make to us is that industry 
must play to the strengths of the weapons scientists in trying 
to develop commercial opportunities in Russia.
    Senator Roberts. Let me get to a question that we have been 
mulling over for some time now. The NCI program and IPP 
program. You mentioned in your conclusion that perhaps they 
should be consolidated. Are these programs sufficiently 
different to warrant their continued separation, or I could put 
it the other way. Are they different to the extent the 
consolidation is not the way we want to go? What's your take on 
that?
    Ms. Jones. I appreciate the fact that General Gordon said 
DOE is going to consider and look at consolidating these two 
programs. What we saw is they have the same basic underlying 
goal of trying to create jobs for weapons scientists.
    We also saw that there are so many things happening in 
parallel. For example, they both have very similar review 
procedures. IPP had very much started to tap industry to help 
them figure out what commercial projects are working. NCI is 
just now starting to do that. So they could be working together 
on a lot of these avenues that they haven't been in the past.
    Also, we found that there were some similar projects, 
projects started in IPP and ended up in NCI. Projects were 
proposed to be funded by both programs, so we thought it would 
make more sense to consolidate the two, have some flexibility 
to cover the kinds of things that the NCI program has been 
focusing on that might be different from IPP, such as business 
development, education for scientists. That might become a more 
efficient program as a whole.
    Senator Roberts. You touched on the status of the European 
Nuclear Cities Initiative and a European consortium. I think 
you said 15 nations; is that correct?
    Ms. Jones. Yes, it's actually the European Union. The 
European Commission is the arm of the Union that provides this 
kind of money.
    Senator Roberts. So it is a commission out of the European 
Union not a consortium?
    Ms. Jones. Yes, sir.
    Senator Roberts. OK, my mistake. It is 15 nations?
    Ms. Jones. Yes, sir.
    Senator Roberts. The EU is into every other thing, they 
might as well be into this. Pardon my editorial comment.
    You also indicated that it was Italy that was taking the 
lead, and that they are making more efforts to cooperate vis-a-
vis Russia; is that correct?
    Ms. Jones. Yes, sir, that's correct.
    Senator Roberts. I asked you the question, as I recall, 
why? You indicated that they wanted to tap the resources of 
these scientists to be a specific help as opposed to a more 
generic kind of program. Am I on line there with what you told 
us?
    Ms. Jones. Yes, sir. In our conversations with the 
Italians, they're interested in focusing the efforts with the 
Russians on things like energy efficiency and cleanup of 
nuclear waste. They felt they would, rather than try to create 
sustainable businesses, contract with weapons scientists and 
use their expertise to help develop technologies and different 
things in those two arenas.
    Senator Roberts. Within the European Union?
    Ms. Jones. Yes, sir.
    Senator Roberts. Does that make sense to you?
    Ms. Jones. I think it does. I think what they're trying to 
do is say that we in the European Union, we in Italy have a 
need for some help in trying to develop technologies for 
cleanup, for energy efficiency. You have scientists that have 
backgrounds, mathematicians, engineers, and they want to tap 
that expertise in this particular arena.
    Senator Roberts. Interesting--I will get myself in trouble 
if I say that our programs tend to be somewhat patronizing. But 
it seems to me that maybe they are on to something here in 
terms of the approach. You get immediate employment, you are 
making a difference with exactly the kinds of things that you 
have expertise with. I am not trying to make a judgment here. 
Staff, don't go nuts now in terms of what is going on.
    Have they dedicated any funds to this? Where are they with 
this?
    Ms. Jones. This is really just a proposal that's in the 
discussion stage right now. We're told they would like to come 
up with $50 million to spend over the next few years, but it's 
really just a proposal at this point, Senator.
    Senator Roberts. They'd better fund ESDI first if they 
think they can do that, with all due respect.
    Seventy percent of NCI funds spent in the United States, 30 
percent spent in Russia as of December 2000. The majority of 
U.S. expenditures by national labs, three-fourths of lab 
expenditures for salaries and overhead, Russian officials very 
dissatisfied with the split of funding. I certainly would be as 
well.
    The DOE was directed by the energy appropriations folks to 
fund 51 percent. You want to comment on that? More especially 
with the example the Savannah River Site, and they move their 
overhead costs from 37 percent to 11 percent.
    Ms. Jones. Yes, sir.
    Senator Roberts. Can't we get 70 percent of the funds? I 
wrote down here somebody said Russia thinks the United States 
has set up the program and is stealing the money. That is a 
little harsh, to say the least. We have to do better than this.
    Ms. Jones. During the course of our work in talking with 
the Savannah River Site officials about the program, they had 
changed their overhead fee from, as you said, 37 percent down 
to 11 percent.
    So we were hopeful that the Savannah River Site approach 
might be a model for the rest of the sites in the program. I 
know in talking with General Gordon about this, he's talking 
about his commitment to looking at this program from a 
management overview, and I would hope that the overhead would 
be something that they would be looking at.
    Senator Roberts. We had some discussion in regards to 
overhead costs. I am not going to take up the subcommittee's 
time to get into that to the extent that I wanted to, but I 
still need to be educated. We are going to be back in touch 
with you to see. I think you had, what, 27 projects?
    Ms. Jones. 25, 26, yes, that ballpark.
    Senator Roberts. Then I was asking questions about what do 
those overhead costs entail? Then we got into that to some 
degree, but I am very concerned about that, and I think the 
subcommittee is as well.
    We were going to try to have the NCI project target 
approximately 30,000 to 50,000 people over there; is that 
correct?
    Ms. Jones. What the Russians are saying is that they need 
to find jobs for weapons scientists. 30,000 to 50,000 jobs over 
the next several years. That's what they're looking for. Not 
necessarily that the U.S. has to find that number of jobs.
    Senator Roberts. Let me tell you what we hit during 
conference in regards to last year when we had the request for 
additional funds and to do a better job. It was tossed right 
back that the projects were employing about 374 people.
    Well, 400 people out of 40,000 doesn't quite cut it. In 
regards to any kind of progress. I am not trying to perjure 
this program, I am just saying what I have in terms of that our 
funding discussion. We had what I would call meaningful 
dialogue.
    In addition, they said that scientists still receive 
salaries from the institute while working on NCI-related 
activities, and you have that in your summary. One half of the 
projects are not designed to create jobs.
    Now, some of these things in terms of a drug program, child 
care program, environmental programs certainly could be 
justified as to their own worth. But that was not the goal or 
the original goal, as I understand it, with regards to 
employment of the weapons scientists; is that correct?
    Ms. Jones. That's correct. Our point, Senator, is when you 
have limited funds, are these the types of activities you want 
to focus on to try to get these jobs?
    Senator Roberts. You gave the example of a private company, 
after a considerable number of years, was able to or is able 
right now to pay 100 of the weapon scientists approximately 
three times the pay that they would receive under NCI/IPP. They 
are involved in software development. Could you amplify on 
that?
    Ms. Jones. Yes, sir. This is a company where one of the 
officials of the company did have some ties to Russian 
officials, and they worked through those ties to get into 
Sarov. They now are employing 100 individuals who were former 
employees of the weapons institute in Sarov.
    As you said, these individuals are making three times the 
salary, and they have cut their ties with the institute, unlike 
some of the NCI projects where they're still part time.
    So it did take them 7 years to do it.
    Senator Roberts. But it is successful?
    Ms. Jones. Yes, sir.
    Senator Roberts. You visited that office or that building?
    Ms. Jones. Yes, we did. That's actually in the same 
building as the open computing center which is one of the NCI 
projects. They're on different floors. We were given a tour and 
talked with some of the scientists. They seemed all very busy 
and interested in what they were doing.
    Senator Roberts. Was this the program where you indicated 
there was an age difference in regards to the weapons 
scientists, or am I suffering my standard memory lapse?
    Ms. Jones. I think we raised that issue in regards to the 
European program that they are going to be targeting older 
weapons scientists. They felt that some of the younger 
scientists might have more flexibility in terms of future 
careers.
    Senator Roberts. What was the difference, if any? You say 
that the private company is on floor ``X'' and the NCI project 
is on floor ``Y''; is that correct?
    Ms. Jones. That's correct.
    Senator Roberts. You visited both?
    Ms. Jones. Yes, sir.
    Senator Roberts. Describe what was going on.
    Ms. Jones. Our experience at the open computing center was 
that mainly the scientists followed our team around. There 
didn't seem to be a lot going on versus when we were in the 
commercial space, the scientists were all sitting at their 
computers working away. That was our observation during the 
visit.
    Senator Roberts. You had one floor where they are working 
away not paying any attention to you, with all due respect, 
then the other looking at the friendly tap on the shoulder 
judge, if you will, and obviously they were showing you around.
    Again, I am not trying to perjure this. I found the same 
thing with the ISTC program that I had the opportunity to visit 
and always make that mistake of thinking it was an NCI project, 
which it wasn't. They were very happy to take you all around 
and explain why it was not working and why they needed more 
money. Why it really wasn't cogent to that.
    I appreciate that very much. Are other companies into this? 
Is this a growing kind of program here where private and 
international companies are able to do this?
    Ms. Jones. I think the NCI program is facilitating some of 
those companies coming into the closed cities.
    Senator Roberts. They are a catalyst then?
    Ms. Jones. They are a catalyst. They are a facilitator, 
absolutely.
    Senator Roberts. OK, good.
    I have no further questions. I appreciate your patience and 
thank you for responding.
    General Gordon and Ms. Jones, do you have any final 
comments you think that might be helpful?
    General Gordon. We had a good discussion, Senator. You know 
where we're trying to take this organization, where we're 
trying to take these programs. We're in broad accord with the 
recommendations that are being made by GAO, and we're going to 
head down those directions.
    Senator Roberts. Tell the folks downtown we need their 
review at double time. Well, no, just put quick time. We won't 
go double time.
    Ms. Jones, any final comments? Thank you for the job that 
you have done.
    Ms. Jones. Thank you, Senator, I appreciate it. No final 
comments.
    Senator Roberts. We will now proceed to the closed session. 
Thank you.
    [The prepared statement of Senator Santorum follows:]

              Prepared Statement by Senator Rick Santorum

    Chairman Roberts, thank you for scheduling this important 
subcommittee hearing today. I know that the U.S. Department of Energy's 
nonproliferation programs have been a key concern of yours. Your focus 
on the U.S. government's ``return on investment'' has been particularly 
helpful for Members of this subcommittee.
    I believe Members of the subcommittee would agree that Department 
of Energy nonproliferation programs such as the Nuclear Cities 
Initiative (NCI) and Material Protection, Control and Accounting 
(MPC&A) program are well-intended and are consistent with U.S. national 
security objectives. That being said, there are legitimate concerns 
that have been highlighted by the U.S. General Accounting Office (GAO) 
on the performance of these and other nonproliferation programs. I am 
hopeful that today's witnesses will be able to discuss the GAO's 
conclusions and will be able to explore ways to improve on program 
performance.
    With respect to where NCI funds are expended, GAO's data portray a 
phenomenon that deserves further scrutiny and attention. I am concerned 
with GAO's conclusion that 70 percent of NCI program funds are spent in 
the U.S., rather than inside Russia. The GAO's observation that the 
Department of Energy's inability to obtain access to sensitive sites in 
Russia is constraining the MPC&A program also bears attention. Lastly, 
I am concerned with GAO's observation that the Department of Energy 
does not yet have the means to monitor the security systems it is 
installing to ensure that they are operating properly over the long-
term.
    Again, I look forward to the testimony of today's witnesses and to 
a candid exchange on some of the conclusions reached by the GAO.

    [Questions for the record with answers supplied follow:]

               Question Submitted by Senator Pat Roberts

    1. Senator Roberts. General Gordon, the GAO report said that DOE is 
attempting to help Russia consolidate their nuclear material into fewer 
buildings and convert the material into forms that cannot be used in 
weapons. By consolidating the material, DOE may end up spending less 
money to install new security systems. However, MinAtom has yet to tell 
DOE which sites and which buildings would be consolidated.
    What is the status of DOE's efforts to get MinAtom to identify 
which sites and buildings will be consolidated under the program?
    General Gordon. The NNSA's Civilian and Conversion Division, which 
includes the Material Consolidation and Conversion (MCC) Project, has 
already successfully closed 21 buildings and significantly reduced the 
proliferation risk associated with more than 2 metric tons of very 
attractive high-enriched uranium (HEU) by converting it to low-enriched 
uranium (LEU). In addition, MinAtom has proposed an aggressive plan or 
``roadmap'', which calls for the closure of 60 more buildings and the 
conversion of an additional 27 metric tons of HEU over the next 10 
years. According to MinAtom, specific details such as the name and 
location of the buildings planned for closure will be shared with the 
U.S. as soon as DOE and MinAtom are engaged in negotiations on a 
bilateral MCC agreement, which would provide an appropriate ``legal 
framework'' for the exchange of such sensitive information. For the 
last 6 months the U.S. has refused to begin negotiation of a bilateral 
agreement because of Russian/Iranian nuclear cooperation. DOE is 
prepared to table a draft agreement, as soon as it receives interagency 
approval to proceed.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                             NUCLEAR CITIES

    2. Senator Landrieu. General Gordon, my understanding of the 
fundamental difference between IPP and NCI programs, other than the 
number of sites and facilities where the programs are engaged, is that 
IPP directly funds work for the scientists in the closed cities and 
institutes but NCI is designed to bring economic development.
    Is this understanding correct?
    General Gordon. NCI is designed to reduce the size of the weapons 
complex in the Russian nuclear cities. Economic diversification and 
development is a tool to achieve this goal. NCI removes functions and 
equipment from the weapons sites within the closed cities; reduces the 
physical footprint; and seeks to create sustainable, alternative non-
weapons work outside of the nuclear institutes and within a functioning 
city economy.
    IPP, on the other hand, is a ``brain drain'' program that engages 
former Soviet weapon scientists at institutes across the New 
Independent States (NIS)--in Belarus, Ukraine and Kazakhstan, as well 
as in Russia--in applied research projects having high commercial 
potential. The scientists comprise former biological and chemical 
weapons researchers and missile development experts in addition to 
nuclear scientists.

    3. Senator Landrieu. General Gordon, the GAO has recommended 
combining IPP and NCI. How could these programs be combined and still 
preserve the unique aspects of each?
    General Gordon. The GAO recommended that the NNSA Administrator 
``determine whether the two programs should be consolidated into one 
effort--including a determination of what changes in authorizing 
legislation would be necessary--with a view toward achieving potential 
cost savings and other programmatic and administrative efficiencies.'' 
NNSA is still in the process of making its determination and we will 
provide more information as it is available.

    4. Senator Landrieu. General Gordon, the NCI program has an 
agreement governing how the Russian government treats programmatic 
funds for tax and other purposes, the IPP program does not. As a result 
it works through the State Department sponsored International Science 
and Technology Center (ISTC) or under the NCI agreement.
    How important is this agreement to future efforts, given Congress' 
concern about not having programmatic funds taxed?
    General Gordon. We believe the NCI Government-to-Government 
Agreement is very important. It provides tax and liability protection, 
and the structure under which program activities can proceed. Such 
agreements are very difficult to negotiate and generally take at least 
a year, and often more, to achieve. In any reorganization involving IPP 
and NCI, it is important to protect the NCI Agreement, if possible.

    5. Senator Landrieu. General Gordon, there has been criticism of 
the NCI program since its inception, nevertheless it does not seem to 
me to be in our best interest to walk away from the Russian nuclear 
cities.
    Do you agree that it is in our national security interests to 
continue to work with these cities?
    General Gordon. NCI was conceived as a national security program 
whose aim is to bring the Russian weapons complex more in line with 
post-Cold War realities, thereby advancing our own security. The 
Russian weapons complex is vastly oversized, decrepit, and starving for 
resources on the one hand, and dangerously capable of performing its 
core functions on the other. We continue to have a strong 
nonproliferation interest in maintaining our engagement with these 
cities.

    6. Senator Landrieu. General Gordon, would you look at the broader 
objectives of this program and work to develop a program with the focus 
and flexibility to meet broad objectives?
    General Gordon. We agree with the approach. We are currently 
considering how to best preserve the broad objectives of NCI as we look 
at the best way to organize this program in the future.

    7. Senator Landrieu. General Gordon, when Russia announced that it 
wanted help to reduce the size of its nuclear weapons complex, and shut 
down two of its four weapons assembly and disassembly facilities, this 
was viewed as good news. The Russian Ministry of Atomic Energy, 
MinAtom, took a bold step when it made this announcement. The 
understanding was that if NNSA is successful in helping to shut down 
the facility at Avangard then it will proceed with work to shut down 
the second facility, at Penza-19. The fiscal year 2002 budget request 
for NCI is $6 million. This level of funding jeopardizes the shutdown 
of Avangard and will prevent the accelerated shutdown of Penza-19. 
Because DOE has only one similar facility, the imbalance between U.S. 
and Russian capabilities has been a concern for many years.
    Does it make sense to miss this unique opportunity and long 
standing U.S. goal to reduce Russian nuclear weapons manufacturing 
capacity?
    General Gordon. The NCI program continues to work with the MinAtom 
in order to encourage and facilitate the closure of its nuclear weapons 
assembly facilities. In order to take maximum advantage of the unique 
opportunities created by NCI's cooperative relationship with MinAtom, 
and to most effectively utilize the program's funds, NCI will focus its 
efforts primarily on facilitating the accelerated closure of Avangard, 
which is the best candidate facility among the four Russian nuclear 
weapons assembly facilities for accelerated closure.

    8. Senator Landrieu. General Gordon, if the NCI and IPP programs 
were combined, how would the statutory provisions that govern each 
program have to modified?
    General Gordon. As part of our response to the GAO recommendation 
to consider merging the programs, we are currently researching this 
question, which involves legal and technical issues. We will provide 
the answer as soon as it is available.
    At first glance, however, they could be combined without 
significant statutory modifications. IPP's statutory limit on funding 
to the National Laboratories (35 percent) is both workable and 
consistent with DOE/NNSA's efforts to maximize the nonproliferation 
impact of program funds. IPP's legislation appears sufficiently broad 
to permit such additional activities as infrastructure support. There 
are requirements for projects funded under NCI that are not now part of 
IPP (e.g., the requirement to commercialize within 3 years). NCI also 
does not require the same matching requirements from industry as IPP 
does.

           THE LABORATORIES AND THE NONPROLIFERATION PROGRAMS

    9. Senator Landrieu. General Gordon, it appears to me that there is 
much confusion, and therefore criticism, about the role of the DOE and 
NNSA laboratories in the nonproliferation programs including IPP and 
NCI.
    What is the role of the labs in these programs and why are they 
important?
    General Gordon. The primary role of the labs in IPP is to ensure 
that the technical claims made by NIS institutes have merit and that, 
in the case of commercialization, the engineering transition from R&D 
to commercial production follows high and verifiable standards of 
excellence. The labs provide technical oversight for and conduct joint 
research with the Russian scientists who participate in IPP projects. 
In so doing, the labs greatly reduce the technical risks of doing 
business with NIS institutes. In addition, the labs play a key role in 
helping to ensure that funds intended for a bona fide commercial 
project are not diverted from their intended use. The laboratories also 
have key roles in the project development process, including technical 
evaluations of project proposals, validation of the weapons-research 
credentials of Russian scientists, and identification of potential 
dual-use problems. The laboratories also provide the legal connection 
with the U.S. private sector, through their cooperative agreement 
mechanisms, which allocate intellectual property from IPP projects that 
are commercialized by U.S. industry participants. These expanded non-
scientific roles were important in getting the programs under way at a 
time when only the labs had access to the NIS institutes. These 
nonscientific roles are gradually transitioning to DOE/NNSA and the 
U.S. companies involved in commercialization.
    Laboratory involvement was also essential to the start-up of NCI, 
but it is business investment and economic diversification that are the 
long-term drivers. The laboratories have been significantly involved at 
the outset of many of NCI's efforts, but their role will diminish over 
time as business participation increases.

    10. Senator Landrieu. General Gordon, what do the seven Federal 
employees do who manage the NCI program?
    General Gordon. Up until June 4, 2001, NCI had only four Federal 
employees. Currently we have five. These employees are: the Director 
and Deputy Director; a Federal staff member who serves as the desk 
officer for Sarov and who manages NCI contracts; a Federal staff member 
who serves as the Zhelezoogorsk desk officer and manages the project 
review process; and a new Federal staff member who is responsible for 
generating outside sources of finding for NCI projects.

                   RESEARCH AND DEVELOPMENT PROGRAMS

    11. Senator Landrieu. General Gordon, the NNSA research and 
development program has been effectively reduced $50 million in the 
fiscal year 2002 budget request from the 2001 appropriated level of 
$225 million. This is a very large cut and significantly undermines 
NNSA efforts to address proliferation and detection.
    Can you please describe what programs are not being funded and what 
you would do if you had the funding restored or increased?
    General Gordon. As noted in the President's budget request, let me 
briefly describe the fiscal year 2002 level of funding for the R&D 
program. The proliferation detection and deterrence program was 
decreased by a total of $36 million. As a result, in proliferation 
detection, the remote effluent detection area's hyperspectral 
activities and much of the lidar activities will be terminated. In 
deterring proliferation, the reduction will slow the development of new 
radiation detection materials and nuclear materials analysis 
techniques. Chemical and biological national security will decrease by 
$12 million. As a result, the milestones will be stretched out for 
technology development initiatives involving the development of new 
chemical and biological detectors, biological foundations 
understanding, modeling of interior structures, and transfer of 
decontamination. The decrease will also slow a demonstration project. 
The nuclear explosion monitoring program will decrease by $5 million. 
This decrease will defer work such as regional seismic characterization 
and support to the Air Force Technical Applications Center's advanced 
regional monitoring system.
    If the funds were available at the fiscal year 2001 appropriation 
level, we would return to the previously described R&D program and 
development schedule.
    If funds were available above the fiscal year 2001 appropriation 
level, we would anticipate: funding more new sensor concepts for 
detecting proliferation; expanding our research into detecting shielded 
fissile materials and detecting fissile materials at greater standoff 
ranges; expanding our regional seismic characterization and calibration 
program to match the Air Force Technical Applications Center's 
accelerated seismic station installation schedule; and making more 
rapid progress in characterizing a larger number of biological agent 
signatures.

    12. Senator Landrieu. General Gordon, the research and development 
program supports the U.S. effort to address the single greatest threat 
to U.S. national security interests?
    General Gordon. The R&D program is very important to providing the 
technical underpinning that supports government efforts addressing 
worldwide threats to national security interests. In fact, our focus on 
long-range R&D provides operational organizations with innovative 
systems and technologies to satisfy their nonproliferation mission 
responsibilities.

    13. Senator Landrieu. General Gordon, will any other agency have 
the ability to pick up the shortfall?
    General Gordon. Since other agency programs have already defined 
and submitted their fiscal year 2002 budgets, it will be difficult for 
another agency to incorporate work we are deferring, particularly 
because other agencies' priorities are nearer-term and NNSA's focus is 
longer-term R&D.

    14. Senator Landrieu. General Gordon, is the NNSA research effort 
closely coordinated within DOE and with other Federal agencies?
    General Gordon. The R&D program is coordinated within the DOE and 
with other Federal agencies. The R&D program is captured in the 
overall, integrated DOE National Security R&D Portfolio, and in fact 
closely leverages DOE investments in Defense Programs and the Office of 
Science. Coordination with other agencies is primarily documented in 
the Department of Defense/Intelligence Community/Department of Energy 
Counterproliferation Program Review Committee Annual Report to Congress 
and through the Nonproliferation and Arms Control Technology Working 
Group Report and Symposium, which is jointly chaired by the Departments 
of Defense, Energy, and State.

    15. Senator Landrieu. General Gordon, how will the funding cuts in 
nonproliferation and arms control affect existing programs that advance 
DOE and U.S. core capabilities in detection and monitoring of the 
development of weapons of mass destruction?
    General Gordon. The requested level of funding will slow the 
development of new and emerging technologies for detecting and 
monitoring the development of weapons of mass destruction, particularly 
detection of emerging proliferation programs.

    16. Senator Landrieu. General Gordon, what is the role of the DOE 
laboratories in the national effort to develop technologies to address 
proliferation risks?
    General Gordon. The DOE laboratories, especially the weapons 
laboratories, have unique, comprehensive understanding of nuclear 
weapons development, test, and production processes and the 
technologies needed to assess proliferation activities. In developing 
the technologies required to address proliferation risks, we are able 
to leverage current and past investments in the NNSA nuclear weapons 
program.

    17. Senator Landrieu. General Gordon, how do the efforts at the DOE 
laboratories differ from the efforts sponsored by DOD or other Federal 
agencies involved in this national challenge?
    General Gordon. The work we sponsor at the laboratories has a 
longer-term focus, enabling us to explore higher risk, revolutionary 
integrated system solutions to the difficult problems associated with 
proliferation, and we often assist other agencies address their most 
difficult proliferation questions. Additionally, because of our 
knowledge of the expertise at the laboratories, we are able to marshal 
multi-disciplinary, inter-laboratory teams to address the significant 
technical challenges. Other agencies tend to be driven by near-term 
requirements which lead them to short-term evolutionary development 
programs.

    18. Senator Landrieu. General Gordon, while the NSC review is 
assessing the value of the existing Russian nonproliferation programs, 
is there any corresponding high-level assessment of the adequacy of DOE 
core competencies and fundamental technologies to detect and monitor 
the development of weapons of mass destruction throughout the world?
    General Gordon. There has been no NSC-level review of DOE 
proliferation detection and monitoring technical capability. However, 
the R&D program is reviewed annually as part of the preparation of the 
annual DOD/IC/DOE Counterproliferation Program Review Committee Report 
to Congress. The program is also coordinated within the interagency 
community as part of the Nonproliferation and Arms Control Technology 
Working Group. The NNSA Nonproliferation and Verification R&D Program 
was reviewed by the Nonproliferation and National Security Advisory 
Committee, an independent panel of external experts who found that the 
DOE core competencies and fundamental technologies supported by the R&D 
program underpin our Nation's capability to detect and monitor the 
development of weapons of mass destruction throughout the world. A copy 
of the Advisory Committee's February 25, 2000 report is attached.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                      INTERNATIONAL NUCLEAR SAFETY

    19. Senator Landrieu. General Gordon, how many reactors of the 
Chernobyl type are still operating, where are they, and what is NNSA 
planning to do about them?
    General Gordon. There are 13 RBMK (Chernobyl type) reactors still 
operating. Lithuania's Ignalina nuclear power plant has two reactors. 
Eleven reactors are in Russia near her western border: four reactors at 
the Leningrad nuclear power plant located about 60 miles west of St. 
Petersburg, three reactors at the Smolensk nuclear power plant located 
about 250 miles southwest of Moscow; and four reactors at the Kursk 
nuclear power plant located about 300 miles south of Moscow.
    There are also three plutonium production reactors which have a 
design similar to RBMK type reactors. They are located in Siberia, with 
two at Seversk and one at Zheleznogorsk. These reactors are even older 
and the least safe reactors in the entire former Soviet Union. These 
three plutonium production reactors are still needed to provide heat 
and electricity to the local communities until replacement power is 
available in about 2005-2007. The administration is considering the 
possibility of implementing projects to improve near-term safety at the 
plutonium production reactors until replacement fossil power becomes 
available.
    Previously, the program has provided safety improvements in the 
areas of safety equipment upgrades, safety analysis, fire safety, and 
operational safety. For example: a safety parameter display system was 
completed at Kursk unit 2; an in-depth safety assessment was completed 
at Leningrad unit 2; fire safety improvements were implemented at the 
Smolensk plant; and at the Ignalina plant, excellent results have been 
achieved in upgrading the control and protection systems, installing 
safety parameter display systems, and implementing emergency 
procedures.
    The program plans to continue with a limited set of projects to 
improve safety. Safety parameter display systems are being completed at 
Leningrad units 3 and 4.  A project is underway to evaluate and 
mitigate pipe cracking problems due to intergranular stress corrosion 
cracking. Our planned support emphasizes the area of safety assessments 
in order to identify the weakest and highest risk components and 
procedures. An in-depth safety assessment is in progress at Leningrad 
unit 1, and a review of the Kursk unit 1 safety analysis is planned. At 
the Ignalina plant, we are providing limited technical assistance to 
complete a safety analysis for unit 2.

    20. Senator Landrieu. General Gordon, the funds for these programs 
have been substantially reduced. What is the impact of the funding 
cuts?
    General Gordon. The reduced budget means that the program must 
reorient toward fewer and smaller safety projects, and more limited 
interactions between U.S. and Russian nuclear experts. As a result, the 
program will have less impact on the safety of the RBMK plants than 
otherwise would have been the case. These funding levels cannot support 
implementing specific upgrades at all 13 operating RBMK reactors. 
Therefore, the program will complete more general safety culture 
upgrades such as improving quality control procedures, emergency 
operating instructions, and configuration management systems in order 
to have the widest possible impact on safety throughout the country.
    In Russia, support for safety analyses will be limited, and no 
support will be available for safe shutdown evaluations or fire safety 
improvements (although they have been identified by international 
experts as key areas of concern). In Lithuania, we will not be able to 
fund any new safety projects, nor to provide any support for 
decommissioning.
    Besides the 13 RBMK reactors and the three plutonium production 
reactors, there are 54 VVER type Soviet-designed reactors operating in 
Russia, Ukraine, Bulgaria, Slovakia, Hungary, and the Czech Republic. 
Many of these reactors need help to improve their safety systems, 
safety procedures, and safety analyses. We plan to provide very limited 
support to the Russian and Ukrainian reactors, but we will be unable to 
provide support to those in Bulgaria and other countries.
    We feel the program may need to serve an increasingly important 
role, considering that Russia plans to continue to operate its older 
reactors, including the RBMKs. In addition, with nuclear power as a key 
part of our national energy plan, it is important to minimize the risk 
of nuclear accidents abroad, as they would adversely impact the 
prospects for nuclear power in the United States. We hope that despite 
a smaller program with fewer nuclear safety projects, we will be able 
to continue to have a meaningful impact on Russia's ability to improve 
its nuclear safety and infrastructure.

                                AVANGARD

    21. Senator Landrieu. General Gordon, how do we know that the 
Russians are really closing the Avangard plant? We have heard that the 
plant workers are demanding that it not be closed.
    General Gordon. It is not surprising that the plant workers do not 
wish the plant to be closed. Warhead production is what they know best 
and, like people everywhere, many of them wish to go on doing what is 
familiar to them. However, the Russian officials have reiterated in a 
number of public settings and private meetings their desire to close 
Avangard, a desire that makes sense in the light of post-Cold War 
realities. NCI worked directly with Avangard to reduce 10 percent of 
the facility by moving the security fence line. Such cooperation 
suggests that the Russians are serious about their plan to close 
Avangard.

    22. Senator Landrieu. General Gordon, will we have any transparency 
into this process?
    General Gordon. The best assurance of transparency is the continued 
involvement of the NCI program in Avangard's transformation. NCI 
officials and their laboratory contractors were the first Westerners to 
enter the Avangard facility. If NCI moves forward with its plans to 
develop businesses in the Avangard technopark, this will also help 
ensure both the transparency and irreversibility of the closure 
process. The NCI approach to Avangard is to convert more and more of 
the site for commercial ventures that provide alternative employment to 
weapons scientists. The site floor space has already been reduced by 10 
percent and we hope to keep reducing it by steady increments.

    23. Senator Landrieu. How will we know that they are not continuing 
nuclear warhead work? How do we know that the Avangard plant is not 
being used for a build-up in new tactical nuclear weapons?
    General Gordon. The Avangard plant is the oldest of the four 
Soviet-era nuclear plants; it has been in operation the longest, and 
its physical plant is the oldest, which is why MinAtom has selected it 
for early shut-down. From a manufacturing point of view, Russia would 
have to undertake a massive retooling and re-equipping of the plant to 
make new warhead production possible.  In essence, they would have to 
build a wholly new production line, which likely would be observable 
through alternative technical means.
    At the same time, accelerating the decommissioning of the existing 
warhead production lines will remove Avangard permanently from nuclear 
operations. Restarting warhead work at a ``clean'' plant would be very 
expensive and time-consuming, and once Avangard is decommissioned, 
Russia would not be able to quickly restart operations there. Thus, 
providing NCI's work not only reduces the current Russian weapons 
through-put, but also makes it harder to increase the level of 
production at Avangard as a result of its reduced size.

    24. Senator Landrieu. General Gordon, aren't the Russians 
emphasizing nuclear weapons as a way to compensate for the weakness of 
their conventional forces?
    General Gordon. A debate has been ongoing in Moscow on this very 
issue, and it will probably be some time before we know its complete 
and final outcome. However, we do know that President Putin has lately 
made some significant decisions that point toward that outcome. Marshal 
Sergeyev, the former Commander-in-Chief of the Strategic Rocket Forces 
(SRF) and, in latter days, the Minister of Defense, had been the 
proponent of a nuclear emphasis in Russian military strategy. He was 
removed from his position in March, and is now serving as an advisor to 
President Putin. Just a few weeks ago, General Vakovlev, the Commander-
in-Chief of the Strategic Rocket Forces, lost his job. The position was 
downgraded to a commander, the job was given to an individual who is 
not an expert on nuclear weapons, and the SRF was placed under the 
Army. In the meantime, Chief of the General Staff Kvashnin, who during 
the debate has been a proponent of modernizing and strengthening 
Russia's conventional forces, has seen his position strengthened. This 
seems to indicate that the Russians will be emphasizing conventional 
modernization, not nuclear weapons. However, I defer to the 
Intelligence Community for a more authoritative and detailed response 
to this question.

    25. Senator Landrieu. General Gordon, what happens if we don't 
support efforts to shut down Avangard? If it's so bad, won't the 
Russians close it anyway without us?
    General Gordon. Ending nuclear activities at this plant takes a 
significant amount of money and resources, both in direct and indirect 
costs. Russia may, in time, be able to accomplish the job, but not by 
the end of 2001, as they have said they would like to do. They have 
said that they are ready to begin downsizing their nuclear weapons 
complex, but that they would like our help in order to accelerate the 
process. From the outset, this has been a major rationale for NCI, and 
it has given us unprecedented opportunities to work inside the Russian 
nuclear weapons complex. At this point, a delay or halt in U.S. funding 
under the NCI would have the effect of sustaining Russia's capability 
to manufacture warheads at their current rate.

                           FUNDING DIVERSION

    26. Senator Landrieu. General Gordon, is there any evidence that 
funds from the DOE/NNSA nonproliferation programs have been diverted to 
nuclear weapons development programs?
    General Gordon. [Deleted.]

    27. Senator Landrieu. General Gordon, is there good cooperation 
between the DOE programs and the intelligence community?
    General Gordon. [Deleted.]

    28. Senator Landrieu. General Gordon, NNSA has been responsible for 
canning the spent fuel in North Korea as part of the Agreed Framework. 
Is there any evidence that this material has been diverted?
    General Gordon. There is no evidence to date that indicates North 
Korea has diverted any of the canned spent fuel. The canned material, 
slightly under 8,000 spent fuel rods, is currently stored under water 
in 412 canisters at North Korea's spent fuel storage facility in 
Nyongbyon, North Korea. The canisters have been sealed by the 
International Atomic Energy Agency (IAEA). The IAEA maintains a 
continuous monitoring presence at Nyongbyon, inspecting the seals on a 
recurring basis. In addition, continuous coverage is provided by IAEA 
surveillance cameras.

                             NUCLEAR CITIES

    29. Senator Landrieu. Ms. Jones, establishing a climate attractive 
to western business is hard. Doing business there is more difficult 
there, is even more difficult than doing business generally in Russia.
    How would you recommend attracting business to these sites, as 
opposed to just bringing some work to these sites?
    Ms. Jones. As noted in our report, Nuclear Nonproliferation: DOE's 
Efforts to Assist Weapons Scientists in Russia's Nuclear Cities Face 
Challenges (May 3, 2001, GAO-01-429), there are numerous impediments 
associated with trying to start businesses in the nuclear cities. The 
nuclear cities are geographically and economically isolated, access is 
restricted for security reasons, and weapons scientists are not 
accustomed to working for commercial businesses. As a result, western 
businesses are reluctant to invest in the nuclear cities. However, the 
successful collaboration of a major U.S. computer firm in the Russian 
nuclear city of Sarov demonstrates what can be accomplished over time 
if the skills of Russia's weapons scientists are properly matched with 
the needs of business. This was the most successful commercial effort 
we observed in the nuclear cities and it has been undertaken without 
U.S. government assistance. This effort which began about 7 years ago 
employs about 100 scientists who have cut all ties to Russia's weapons 
institutes. The U.S. company representative responsible for developing 
this business effort told us that the key to establishing successful 
commercial ventures in the nuclear cities is to identify the skills and 
capabilities of the scientists and match their skills to the company's 
specific business needs. For example, the company determined which 
scientists in Sarov had math and science backgrounds suitable for 
computer software development. These scientists were then trained by 
the company in software development and hired away from the Russian 
weapons institutes. We believe that the approach followed by this U.S. 
firm makes sense and could be used by other companies seeking to employ 
Russian scientists. Furthermore, we believe that DOE can play an 
important role in identifying the skills and capabilities of scientists 
located in Russia's nuclear cities and facilitating contacts between 
the scientists and U.S. companies interested in hiring them.

    30. Senator Landrieu. Ms. Jones, in your report, you suggest 
combining the Nuclear Cities Initiative with the Initiatives for 
Proliferation Prevention Program.
    If this is done, what are the goals of the combined program?
    Ms. Jones. As noted in our report, both programs already share a 
common underlying goal--the employment of Russian weapons scientists in 
alternative, nonmilitary scientific commercial activities. Scientists 
who are employed in sustainable nonweapons-related jobs will be 
financially able to move out of the weapons facilities which will 
assist in the downsizing of Russia's weapons complex--another goal of 
DOE's efforts. Russian officials we met with told us that they are 
judging the success of DOE's programs by one standard--the creation of 
sustainable jobs. These Russian officials have criticized those 
projects, such as community development projects, that do not lead to 
employment opportunities or provide sustainable jobs for weapons 
scientists. We believe that DOE needs to concentrate its limited 
financial resources on those projects that will most realistically lead 
to sustainable employment for weapons scientists.

    31. Senator Landrieu. Ms. Jones, if NCI and IPP are combined, what 
legislative changes would be needed to the language governing the IPP 
program and the language governing the NCI program?
    Ms. Jones. Both NCI and IPP operate under the same general 
statutory authority granted to the Department of Energy in 42 U.S.C. 
5817(a), 42 U.S.C. 7112(10), and 42 U.S.C. 5813(9). No changes would be 
necessary to any of these statutory authorities. The authorization 
acts, however, contain different requirements and restrictions on the 
use of appropriated funds under each program. Section 3172 of the 
National Defense Authorization Act for Fiscal Year 2001 (P.L. 106-398) 
restricts the use of funds in the NCI program for the fiscal year. 
Section 3136(a) of the National Defense Authorization Act for Fiscal 
Year 2000 (P.L. 106-65) restricts the use of funds for the IPP program 
available in any fiscal year after fiscal year 1999. Some legislative 
alternatives for combining the programs are listed below.
    1. Congress could act now and

          (a) define the Initiative for Proliferation Program as 
        including the Nuclear Cities Initiative activities.

                  Congress could add a definition section for IPP that 
                incorporates the definition of NCI and transfers NCI 
                2001 appropriated funds to IPP, thus creating one 
                program that would operate under current IPP 
                authorization requirements and restrictions. To do 
                this, Congress would also need to revoke authorizing 
                language that refers to NCI; or

          (b) enact more specific statutory authority, under which the 
        combined program would operate.

    2. Congress could wait and combine the programs in fiscal year 2002 
authorization act.

                Congress would set requirements in new authorizing 
                language for the combined program.

    32. Senator Landrieu. Ms. Jones, does your recommendation imply 
that there should only be an IPP program with its fairly narrow focus?
    Ms. Jones. We would not characterize the IPP program as having a 
fairly narrow focus. The objectives of the IPP program are to (1) 
engage weapons scientists and institutes in productive nonmilitary work 
in the short term, and (2) create jobs for former weapons scientists in 
the high-technology commercial marketplace in the long-term. As noted 
in our report, IPP has funded over 100 projects in Russia's nuclear 
cities at a cost of over $13 million. The program also funds other 
projects at weapons institutes outside of the closed nuclear cities 
throughout Russia.
    We believe that combining the IPP and NCI programs could result in 
a more effective and efficient consolidated effort incorporating the 
best aspects of both programs. As noted in our report, both the IPP 
program and the NCI program share a common underlying goal--the 
employment of weapons scientists in nonmilitary work--and there is not 
a clear distinction between the two programs. Combining the two 
programs could alleviate many of the concerns we have with the 
implementation of the NCI program. For example, the IPP program already 
has established limits on the amount of program funds to be spent in 
the United States and Russia as well as a strengthened project review 
and selection process. We believe that any consolidated effort should 
be flexible to allow for worthwhile projects initiated under the NCI 
program such as business training and development activities while 
concentrating on those projects that lead to sustainable employment for 
weapons scientists.

    33. Senator Landrieu. Ms. Jones, the NCI program has an agreement 
governing how the Russian government treats programmatic funds for tax 
and other purposes, the IPP program does not. As a result, it works 
through the State Department-sponsored International Science and 
Technology Center (ISTC) or under the NCI agreement.
    How important is this agreement to future efforts given Congress' 
concern about not having programmatic funds taxed?
    Ms. Jones. While we believe the agreement is important, in our 
opinion, DOE could explore several options to avoid program funds from 
being taxed by the Russian government. For example, if the IPP and NCI 
programs are combined the government-to-government agreement between 
the United States and Russia for the Nuclear Cities Initiative can be 
renegotiated to accommodate the combined program. In addition, the IPP 
program seeks tax relief through the U.S. Civilian Research and 
Development Foundation--a U.S. nonprofit organization. Under this 
arrangement, IPP funds are transferred to the Foundation, which 
provides tax-exempt payments directly into the Russian project 
participants' bank accounts. DOE could explore whether this approach 
could also be used for all projects initiated under a program that 
consolidates the IPP and NCI programs.

    [Whereupon, at 3:56 p.m., the hearing was adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2002

                              ----------                              


                        THURSDAY, JULY 12, 2001

                             U.S. Senate,  
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

   COOPERATIVE THREAT REDUCTION, CHEMICAL WEAPONS DEMILITARIZATION, 
    DEFENSE THREAT REDUCTION AGENCY, NONPROLIFERATION RESEARCH AND 
                   ENGINEERING, AND RELATED PROGRAMS

    The committee met, pursuant to notice, at 2:18 p.m. in room 
SR-222, Russell Senate Office Building, Senator Mary L. 
Landrieu (chairman of the subcommittee) presiding.
    Committee members present: Senators Landrieu, Roberts, 
Allard, and Hutchinson.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; and Peter K. Levine, 
general counsel.
    Minority staff members present: Edward H. Edens IV, 
professional staff member; Mary Alice A. Hayward, professional 
staff member; and Joseph T. Sixeas, professional staff member.
    Staff assistants present: Gabriella Eisen and Michele A. 
Traficante.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Erik Raven, assistant to Senator 
Byrd; Jason Matthews, assistant to Senator Landrieu; George M. 
Bernier III, assistant to Senator Santorum; Robert Alan 
McCurry, assistant to Senator Roberts; James P. Dohoney, Jr., 
assistant to Senator Hutchinson; and Wayne Glass, assistant to 
Senator Bingaman.

    OPENING STATEMENT OF SENATOR MARY L. LANDRIEU, CHAIRMAN

    Senator Landrieu. Good afternoon and let me welcome all of 
you to our Emerging Threats and Capabilities Subcommittee. I 
thank you for joining us this afternoon. I want to begin by 
thanking my most able ranking member, Senator Roberts, for his 
good work in this area, and look forward to working very 
closely with him as we did when our chairs were reversed. We 
have a wonderful relationship and will work closely together. I 
welcome our other members, Senator Allard and Senator 
Hutchinson. Thank you for your interest and your involvement in 
this important subject.
    Let me just do one order of business before we start with 
opening statements. We welcome all of you as we said, but we 
had a slight problem this morning. We did not receive some of 
the written testimony in the usual, customary manner. So, I 
just want to, on the record, really encourage our witnesses to 
try to get their written material to the staff, which is very 
helpful to them in helping us to be prepared for the meetings. 
This is the second time today this has happened. Please be 
mindful of that for future hearings.
    We are going start with our first panel. We have a lot to 
cover. This is the last of the Emerging Threats and 
Capabilities Subcommittee budget hearings this year. Due to the 
late DOD budget request, the ability of this subcommittee to 
hold more budget hearings has unfortunately been constrained. 
However, we are going to do the best we can under a tight 
timeframe and think we have done the best we could do.
    As a result, we have a very full agenda to try to cover 
some of the matters that we were not able to cover before. We 
are here today to discuss the wide-ranging efforts of the 
Departments of Defense and Energy to address weapons of mass 
destruction.
    Our witnesses today are Dr. Anna Johnson-Winegar, Deputy 
Assistant to the Secretary of Defense for Chemical and 
Biological Defense; Maj. Gen. Robert P. Bongiovi, Acting 
Director of the Defense Threat Reduction Agency; Dr. Susan 
Koch, Acting Assistant Secretary of Defense for Threat 
Reduction; and Robert Waldron, Assistant Deputy Administrator 
for Nonproliferation Research and Engineering at the National 
Nuclear Security Administration of the Department of Energy.
    Today we will focus on the Cooperative Threat Reduction 
programs, commonly known as Nunn-Lugar, and the research and 
development efforts to assist both the warfighter and the wider 
community concerned broadly with weapons of mass destruction to 
detect, destroy, protect against, and stop the spread of 
weapons of mass destruction and weapons' usable materials. We 
will also discuss the U.S. efforts to destroy stockpiles of 
chemical munitions and stockpiles of chemical agents both in 
the United States and in Russia.
    In January, a task force co-chaired by former Senator 
Howard Baker and former White House Counsel Lloyd Cutler 
concluded, ``the most urgent unmet national security threat to 
the United States today is the danger that weapons of mass 
destruction or weapons' usable material in Russia could be 
stolen, sold to terrorists or hostile nation-states and used 
against American troops abroad or our citizens at home.'' This 
threat is real and our work today is important. The report went 
on to state that this threat is a clear and present danger to 
the international community as well as to American lives and 
liberties.
    The task force concluded that much has been done by the 
programs that our witnesses here today represent, but much 
remains to be done. ``Current nonproliferation programs in the 
Department of Energy, the Department of Defense, and related 
agencies have achieved impressive results thus far, but their 
limited mandate and funding fall short of what is required to 
address adequately the threat.''
    Today we would like to review many of those efforts to deal 
with this situation. We would like to understand where we have 
succeeded and where we have failed; how we can improve and the 
barriers left to achieving those results. Again, I welcome you 
all and look forward to hearing from each of you. I would at 
this time welcome any opening statement from our able ranking 
member, Senator Roberts, and then in turn the members who are 
present. After those opening statements we will hear from our 
panelists and then proceed to a round of questioning of 
whatever time will allow us.
    Senator Roberts.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Thank you, Madam Chairman. I would like to 
extend a very warm welcome to the witnesses this afternoon. 
Your work on the U.S. programs, as the chairman has indicated, 
that address the threats posed by weapons of mass destruction 
both at home and abroad represent some of our country's most 
important national security efforts. So, I want to thank you 
for your tireless work. I want to thank you for your dedication 
to this very critical mission. I want to thank you for the time 
and attention you have placed in preparing your remarks for 
this hearing. I know it is a tough job. As a matter of fact, we 
were working on my statement as of last night, so I stand 
guilty as you are. I look forward to receiving your testimony.
    The subcommittee has had a tradition of holding hearings 
that examine how the United States is implementing programs 
designed to address the present and future threats to the 
United States. We have held hearings in the subcommittee on 
cyber threats and critical infrastructure protection, 
terrorism, weapons of mass destruction, civil support teams, 
nonproliferation and Russian threat reduction programs, science 
and technology research and development, and joint 
experimentation. That's pretty wide pasture. Our jurisdiction 
is indeed broad. These hearings have established what I hope is 
a solid record of accomplishment and challenges in meeting the 
emerging threats that face our Nation.
    Today's hearing actually compliments the topics that the 
subcommittee has examined over the past 2 years. The programs 
we will hear about from you attempt to enhance U.S. strategic 
capabilities by developing and implementing technologies that 
give us the leading edge over known and potential adversaries, 
and provide the United States the ability to monitor arms 
control agreements. These programs combat threats posed by 
weapons of mass destruction either by improving security, as 
the chairman has indicated, or by eliminating the chemical, 
biological, and nuclear threats posed by these stockpiles. 
Finally, these programs augment the U.S. efforts to detect, 
deter, and protect vital national security interests to meet 
the challenges posed by the evolving threats of the 21st 
century.
    I cannot stress enough how important this work is and what 
a great supporter I am of the mission and your work and your 
dedication. I hope today's hearings will illustrate that point. 
I am particularly pleased that we will have an opportunity to 
discuss the U.S. chemical weapons demilitarization program. The 
$1.2 billion requested by the administration for this program 
will be necessary to support ongoing destruction operations, 
bring new facilities on-line, and ensure the safety of citizens 
in communities and towns adjacent to the destruction 
facilities.
    This subcommittee has been very supportive of this program 
and I intend to maintain that tradition. I will note, however, 
that the U.S. chemical weapons program is not without its share 
of problems. There have been growing concerns about oversight 
and management of the program. Many members of this 
subcommittee, as well as Senators Shelby and McConnell, have 
been outspoken in this regard. Congress, through the work of 
this subcommittee, has repeatedly directed the Secretary of 
Defense to take a greater oversight role in this program.
    Despite the public law that states that no one service will 
bear the financial burden of this program, the budget request 
for this program is included in the Army procurement account. 
That means that as a result, the decisions affecting Black Hawk 
helicopters, Abrams tanks, or M-16 rifles could impact or be 
impacted by funding for this program. Executing the chemical 
demilitarization program and meeting our obligations under the 
Chemical Weapons Convention is a national priority and should 
receive a commensurate degree of oversight from the Secretary 
of Defense. I am looking forward to hearing from Dr. Winegar on 
what steps have been taken to address these concerns.
    Now we have received your budget request for fiscal year 
2002. I hope you will be able to provide the subcommittee today 
with a clear and detailed discussion of how your budget request 
meets your mission and what you expect to accomplish with these 
requested funds. Shortly the subcommittee, as the chairman has 
indicated, will begin marking up the bill. I expect your 
testimony will contribute to the subcommittee's oversight role 
in the mark-up process, so we look forward to your statements 
and answers to your questions.
    I would say again to the chairman, thank you for holding 
this hearing and this concludes my opening remarks.
    Senator Roberts [presiding]. I would assume now acting as 
my role of chairman emeritus of the Emerging Threats and 
Capabilties Subcommittee, I would recognize the distinguished 
Senator from Arkansas.

              STATEMENT OF SENATOR TIM HUTCHINSON

    Senator Hutchinson. Thank you, Mr. Chairman. I will be 
brief. We have a vote ongoing so I will make this opening 
statement very quickly so we can begin receiving testimony. I 
want to thank you for being here. I want to thank the panel for 
their willingness to detail specifically the budget requests. 
As the chairman mentioned, the chemical demilitarization 
program should be a top national priority. Pine Bluff, 
Arkansas, the Pine Bluff Arsenal, is one of the prime sites of 
the Department of Defense chemical demilitarization program. 
So, I am very interested in the budget numbers regarding that 
program and, as Senator Roberts said, the oversight by the 
Department of Defense.
    I will spend the bulk of my time during the questioning to 
discuss an issue that I think is very important not only to our 
national security but also to our force protection--that is the 
need for a vaccine production facility--a government-owned 
contractor-operated (GOCO) facility, the failure of the current 
program and the need to accelerate. I am disappointed that the 
administration only included $700,000 for this program. I think 
it needs to be accelerated.
    There is an article in the Chicago Tribune that appeared 
just last week regarding two deaths that occurred at the Great 
Lakes Naval Training Center; two of our recruits died of viral 
infections. It has been linked to the failure to vaccinate 
these recruits and the cessation of the production of the 
vaccine that would have protected them back in the 1970s 
because the manufacturing company determined that they could 
not make money at it; that there was a very small demand for 
the product and therefore it was not profitable for them in 
terms of revenue. That is what commercial companies do and I 
think that is the compelling reason that if we are going to 
protect our men and women in uniform, we need to have a GOCO 
vaccine production facility. So, I am going to have a few 
questions regarding that.
    I thank you for being here and I look forward to your 
testimony.
    Senator Roberts. Senator, we have a vote that I did not 
realize that we would have so quickly and there are about 9 
minutes left. I know the chairman wants to hear your testimony 
directly. I do as well. Usually we try to rotate back and forth 
in the interest of time, but we put you off so much now, I 
think you might as well sit back and relax for about 15 minutes 
and we will go vote. We will declare the subcommittee in a 
temporary recess until we come back from voting. We apologize. 
[Short recess.]
    Senator Landrieu [presiding]. We thank you all for your 
patience. I appreciate it. We are going to wait just a moment 
because our members are very interested in the testimony. So, 
if everybody will just be at ease for a few minutes and they 
will be making their way back from this vote. [Pause.]
    We thank you all for your patience. I believe Senator 
Allard has an opening statement.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Madam Chairman, I do. In light of our being 
behind schedule, I am just going to ask permission that we put 
it in the record in its full context.
    Senator Landrieu. Without objection.
    [The prepared statement of Senator Allard follows:]

               Prepared Statement by Senator Wayne Allard

    Thank you Madam Chairman,
    I want to thank all of you for coming here today. Cooperative 
threat reduction, nonproliferation research engineering, and chemical 
weapons demilitarization are areas of significant importance to the 
United States and the world. We saw today at the earlier ballistic 
missile defense hearing that the United States is working to assure our 
security on all fronts. Just as we prepare a ballistic missile threat 
defense, we must also prepare defenses for the other major threats of 
our times. Nonproliferation, cooperative threat reduction, and BMD are 
together a ``defense in depth'' and each area needs development.
    The Cooperative Threat Reduction Program has had great success in 
reducing the number of ballistic nuclear missiles that can threaten us 
and our allies. Additionally, the National Nuclear Security 
Administration's Nonproliferation and Verification Research and 
Development Program has been successful at tracking and limiting the 
proliferation of nuclear threats. These endeavors coupled with our 
success in creating a robust missile defense system will certainly 
provide us a more secure world environment.
    In 1997, the Senate agreed to ratify the Chemical Weapons 
Convention. Meeting the milestones prescribed in this treaty is 
critical to our reputation and our credibility on the world stage. The 
destruction process at the Pueblo Army Depot in Colorado has shown the 
potential to hinder our compliance to the treaty, but I will continue 
to insist that all responsible parties work to avoid this.
    Thank you, I look forward to hearing today on the progress of these 
programs.

    Senator Landrieu. Thank you, Senator. I think we are ready 
for our panelists to begin. Dr. Winegar, please proceed.

  STATEMENT OF DR. ANNA JOHNSON-WINEGAR, DEPUTY ASSISTANT TO 
     SECRETARY OF DEFENSE (CHEMICAL AND BIOLOGICAL DEFENSE)

    Dr. Winegar. Madam Chairman and distinguished members of 
the subcommittee, I wish to thank you for the opportunity to 
appear before this subcommittee today to discuss the United 
States' chemical demilitarization program. I am Dr. Anna 
Johnson-Winegar, but for simplicity's sake, Dr. Winegar is fine 
for addressing. I am the Deputy Assistant to the Secretary of 
Defense for Chemical and Biological Defense Programs. My office 
is the single focal point within the Office of the Secretary of 
Defense responsible for oversight, coordination, and 
integration of the chemical and biological defense programs, 
counterproliferation support, chemical demilitarization, and 
assembled chemical weapons assessment programs.
    Today I would like to highlight for you the major changes 
that the Department of Defense is implementing with regard to 
the United States chemical demilitarization program. As you 
well know, Mr. E.C. (Pete) Aldridge was confirmed as the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
in the second week of May. On May 21, after examining concerns 
related to program cost, schedule and management, Secretary 
Aldridge directed that this program be categorized as an 
acquisition category 1D program. This change is intended to 
streamline future decisions and oversight authority. It is also 
consistent with the size and scope of this program, the 
international treaty obligations, and the level of local, 
state, and Federal interest in the safe and timely destruction 
of our Nation's chemical weapons stockpile.
    In this capacity, Secretary Aldridge will oversee a 
defense-wide review that will provide him with a comprehensive 
assessment of our entire chemical demilitarization program. 
This defense acquisition executive review, and I will call it 
the DAE review, is an extensive and rigorous process that was 
initiated approximately 1 year ago when the Under Secretary of 
Defense for Acquisition, Technology and Logistics--Dr. Jacques 
Gansler at that time--directed this total review of all program 
components. This includes the chemical stockpile disposal, 
chemical stockpile emergency preparedness, alternative 
technologies and approaches, non-stockpile chemical materiel, 
and the assembled chemical weapons assessment programs.
    As the status and future plans of each of these areas is 
examined, the following issues will be covered: The Chemical 
Weapons Convention compliance, life cycle cost estimates, 
program plans for closure of the stockpile facilities, and 
other organizational issues related to program management. This 
DAE review is scheduled to be held the first week of September.
    Another important focus of this review is the need to 
select a destruction technology for the chemical weapon 
stockpiles stored in Pueblo, Colorado and Blue Grass, Kentucky. 
In accordance with Public Law 105-261, the Department is 
performing detailed assessments of the associated costs, 
scheduling, and safety of incineration and the alternative 
candidate technologies for those sites. This portion of the DAE 
review will occur in the spring 2002 timeframe in order for the 
technology decision to be made consistent with the final 
environmental impact statements and the subsequent records of 
decision for the Pueblo and Blue Grass sites.
    In closing, I wish to reemphasize that the Department's 
intention to address chemical demilitarization program 
management issues underscores our commitment to strengthening 
and improving overall organizational effectiveness. Change has 
already begun at the top with future changes expected to 
positively impact different aspects at all levels of program 
management.
    As we work our way through the DAE review, the Department 
will develop its recommendation for a decision on how to 
proceed in demilitarizing our Nation's chemical stockpiles. I 
welcome your comments on every aspect of how our program is 
proceeding. I also welcome the opportunity introduced by 
Senator Hutchinson to address his issues and concerns about the 
GOCO vaccine facility, which also falls under my purview.
    I thank you again Madam Chairman and this entire 
subcommittee for inviting me to testify here today and I look 
forward to working with each of you to advance our common goals 
of the safe and complete elimination of our Nation's chemical 
weapons stockpile and the furtherance of our chemical and 
biological defense programs. Thank you.
    [The prepared statement of Dr. Winegar follows:]

             Prepared Statement by Dr. Anna Johnson-Winegar

    Madam Chairman and distinguished subcommittee members, I wish to 
thank you for the opportunity to appear before this subcommittee today 
to discuss the United States chemical demilitarization program. I am 
Dr. Anna Johnson-Winegar, Deputy Assistant to the Secretary of Defense 
for Chemical and Biological Defense. My office is the single focal 
point within the Office of the Secretary of Defense responsible for 
oversight, coordination, and integration of the chemical and biological 
defense, counterproliferation support, chemical demilitarization, and 
Assembled Chemical Weapons Assessment (ACWA) Programs.

                         RECENT PROGRAM CHANGES

    Today I would like to highlight for you the major changes the 
Department of Defense is implementing with respect to the United States 
chemical demilitarization program. As you well know, Mr. E.C. (Pete) 
Aldridge was confirmed as the Under Secretary of Defense (Acquisition, 
Technology, and Logistics) in the second week of May. On May 21, after 
examining concerns related to program cost, schedule, and management, 
Secretary Aldridge directed that the program be categorized as an 
acquisition category-ID program. This change is intended to streamline 
future decisions and oversight authority. It is also consistent with 
the size and scope of this program, international treaty obligations, 
and the level of local, state, and Federal interest in the safe and 
timely destruction of our Nation's chemical weapons stockpile.
    In this capacity, Secretary Aldridge will oversee a defense-wide 
review that will provide a comprehensive assessment of our entire 
Chemical Demlitarization Program. The Defense Acquisition Executive 
(DAE) review is an extensive and rigorous process that began 
approximately 1 year ago when the Under Secretary of Defense for 
Acquisition, Technology and Logistics directed a total program review. 
Subsequently, special panels consisting of cost, schedule and program 
analysts from the Program Manager for Chemical Demilitarization (PMCD) 
and PM ACWA were established and have met consistently for the purpose 
of conducting a review of each program component. This includes 
chemical stockpile disposal, chemical stockpile emergency preparedness, 
alternative technologies and approaches, non-stockpile chemical 
materiel and the assembled chemical weapons assessment. As the status 
and future plans for each of these areas is examined, the following 
issues will be covered: Chemical Weapons Convention (CWC) compliance, 
life cycle cost estimates, program plans for closure of the stockpile 
facilities, and other organizational issues related to program 
management. The DAE review is scheduled to be held the first week of 
September.
    Another important focus of this review is the need to select a 
destruction technology for the chemical weapon stockpiles stored in 
Pueblo, Colorado and Blue Grass, Kentucky. In accordance with Public 
Law 105-261, the Department is performing detailed assessments of the 
associated costs, schedules, and safety of incineration and the 
candidate technologies for those sites. Our analysis also carefully 
considers public acceptability as a critical factor. We realize that we 
owe the communities our best, not necessarily the easiest, solution to 
the problem we face. This portion of the DAE review will occur in the 
spring 2002 time frame, in order for the technology decision to be made 
consistent with the final environmental impact statements and 
subsequent records of decision for the Pueblo and Blue Grass sites. The 
Draft Environmental Impact Statement for Pueblo was released May 9, 
2001 with a 45-day public comment period that was extended an 
additional 45 days and will end August 8, 2001. The Blue Grass Draft 
Environmental Impact Statement is expected to be released by the first 
quarter fiscal year 2002.

                             PROGRAM STATUS

    This year the chemical demilitarization program will enter a 
critical phase, with two new facilities scheduled to begin operational 
verification testing (systemization), and with Tooele chemical 
demilitarization facility continuing full-scale operations at our 
largest stockpile site. The state-of-the-art features at these 
facilities and ability to handle the throughput rates are unparalleled 
on a global scale. These efforts are indeed recognized by the 
international community as a major step towards continued compliance 
with the Chemical Weapons Convention (CWC) destruction deadlines. I am 
pleased to report that as of July 5, 2001, the United States had 
destroyed 20 percent of the stockpile that existed when the CWC entered 
into force 4 years ago. The interim deadlines set forth in the CWC 
require 20 percent destruction by April 29, 2002, putting us nearly 10 
months ahead of the milestone.

                             FINAL REMARKS

    In closing, I wish to reemphasize that the Department's intention 
to address chemical demilitarization program management issues 
underscores our commitment to strengthening and improving overall 
organizational effectiveness. Change has already begun at the top, with 
future changes expected to positively impact different aspects and 
levels of program management. As we work our way through the DAE 
review, the Department will develop its recommendation for a decision 
on how to proceed with demilitarizing our remaining chemical stockpile 
sites. I welcome your comments on every aspect of how our program is 
proceeding. I thank you, Madam Chairman, and this subcommittee for the 
opportunity to testify today. I look forward to working with you to 
advance our common goal of the safe and complete elimination of our 
Nation's chemical weapon stockpile.

    Senator Landrieu. Thank you very much.
    General Bongiovi.

    STATEMENT OF MAJ. GEN. ROBERT P. BONGIOVI, USAF, ACTING 
        DIRECTOR OF THE DEFENSE THREAT REDUCTION AGENCY

    General Bongiovi. Thank you. Madam Chairwoman and members 
of the subcommittee, I am Maj. Gen. Robert Bongiovi, the Acting 
Director of the Defense Threat Reduction Agency. I am pleased 
to have this opportunity today to testify on the mission of the 
agency. I would like to summarize my statement and request that 
it be included in its entirety in the record.
    Senator Landrieu. Without objection.
    General Bongiovi. The Defense Threat Reduction Agency, 
commonly referred to as ``DTRA'', was established in October 
1998 as part of the Defense Reform Initiative. The intent was 
to consolidate within one agency most of the DOD organizations 
executing weapons of mass destruction, or WMD-related missions, 
except for the Title 10 responsibilities of the services. This 
new, focused agency was intended to enhance overall Department 
understanding of the WMD threat and facilitate appropriate 
responses. Today, DTRA is far more than just the sum of its 
merging organizations. It is an innovative thinker and 
responder to the WMD challenge.
    Before proceeding further, it might be helpful to define 
the term ``weapons of mass destruction'' or WMD. The definition 
encompasses nuclear, chemical, and biological weapons. However, 
it also includes radiological, electromagnetic pulse, and other 
advanced or unusual weapons capable of inflicting mass 
casualties or widespread destruction. In addition, conventional 
high explosive devices, such as those used in attacks on Khobar 
Towers and the U.S.S. Cole, are legally and operationally 
considered to be WMD.
    Although the spectrum of our mission is large, it can be 
simply divided into four major functions: WMD combat support, 
technology development, threat control, and threat reduction. I 
will summarize each of these in my following remarks. The WMD 
combat support function provides operational and technical 
support to the Joint Chiefs of Staff, the warfighting 
commanders in chief, the CINCs, and the services to engage the 
threat and challenges posed to the United States, its forces, 
and allies by WMD. For example, DTRA provided targeting and 
consequence management support to the Joint Staff and a U.S.-
European Command during Operations Desert Fox and Allied Force. 
In conjunction with the Commander in Chief, U.S. Strategic 
Command and the services, DTRA developed the first DOD Nuclear 
Mission Management Plan to sustain the U.S. nuclear deterrent 
in the years ahead.
    At the direction of the Chairman, Joint Chiefs of Staff, 
DTRA will integrate threat reduction support and response 
capabilities into the warfighters' contingency plans, 
operational plans, and theater engagement plans. Also at the 
direction of the Chairman, DTRA performs as many as 100 force 
protection assessments of U.S. military installations at home 
and abroad each year. These assessments identify ways in which 
base commanders can improve their force protection posture. At 
the direction of OSD, we also perform more detailed balanced 
survivability assessments of critical facilities.
    The technology development function develops, manages, and 
coordinates research and development activities underpinning 
other DTRA functions. The DTRA technology development function 
includes programs to provide both offensive and defensive tools 
to the warfighter; develop technology needed to support arms 
control; manage nuclear weapons effects simulators and 
simulation; and develop radiation hardening of microelectronics 
for the protection of our weapon and space systems.
    DTRA managed the Advanced Concept Technology Demonstration 
Program that developed the advanced unitary penetrator and hard 
target smart fuze used in Operation Allied Force in the former 
Yugoslavia. DTRA munitions effectiveness tools for the defeat 
of hardened/deeply buried targets and consequence management 
tools are in wide use. Among our top R&D priorities are 
improved tunnel and hardened/deeply buried defeat capabilities 
with emphasis on stand-off attack, faster detectors for 
chemical and biological agents, improved counterforce planning 
tools, and terrorist device defeat tools.
    The third function, threat control, maintains U.S. 
technological security through policy execution, implementation 
of technology security programs, and compliance and 
enforcement. It includes inspection, escort, and monitoring 
missions to help ensure compliance with arms control agreements 
and new non-treaty means of threat control. Major 
accomplishments within the threat control function include the 
establishment of the congressionally-mandated program to 
monitor foreign launches of U.S. satellites; reengineering and 
revitalization of the DOD export control process; and 
successful completion of all arms control missions.
    Finally the threat reduction function centers on the 
execution of the Cooperative Threat Reduction or ``Nunn-Lugar'' 
program. This program assists the eligible states of the former 
Soviet Union with the dismantlement of WMD and reduces the 
threat of WMD proliferation. Specifically, it destroys 
strategic delivery systems, stores and safeguards fissile 
materials, and improves safeguards for WMD materials and 
warheads.
    Although our focus will remain on the warfighters, DTRA 
contributes to efforts to counter WMD terrorism at home. We 
share our WMD expertise with the Department of Justice, FEMA, 
the Center for Disease Control, and other Federal, state and 
local officials. DTRA also maintains an operation center that 
provides the warfighters and government officials on line 
access to a wide range of WMD expertise.
    DTRA also assists interagency exercise planning. We have 
identified issues that national, state and local decision-
makers would face should such an event occur. At the national 
level, we have worked directly and regularly with officials as 
senior as the Attorney General. Moreover, we have an important 
relationship with the Joint Forces Command's Joint Task Force 
for Civil Support. As a combat support agency, we offer 
planning, exercise, operational, legal, and public affairs 
support to this Joint Task Force.
    I will conclude by noting that the Defense Department and 
Congress agree that WMD challenges continue to evolve and grow. 
DTRA is an important response to this threat. Our mission 
continues to expand. I thank you for your past support of DTRA 
and respectfully request your support for our fiscal year 2002 
program. Thank you. I would be pleased to answer your 
questions.
    [The prepared statement of Major General Bongiovi follows:]

        Prepared Statement by Maj. Gen. Robert P. Bongiovi, USAF

    Madam Chairwoman and members of the subcommittee, I am Maj. Gen. 
Robert Bongiovi, the Acting Director of the Defense Threat Reduction 
Agency. I am pleased to have this opportunity today to testify on the 
mission of the agency. I would like to summarize my statement and 
request that it be included in its entirety in the record.
    The Defense Threat Reduction Agency, commonly referred to as 
``DTRA'', was established in October 1998 as part of the Defense Reform 
Initiative. The intent was to consolidate within one agency most of the 
DOD organizations executing WMD-related missions, except for the Title 
10 responsibilities of the services. This new, focused agency would 
enhance overall Department understanding of the WMD threat and 
facilitate appropriate responses. Today, DTRA is far more than just the 
sum of its merging organizations. It is an innovative thinker and 
responder to the WMD challenge.
    Before proceeding further, it may be helpful to define the term 
``weapons of mass destruction'' or WMD. The definition encompasses 
nuclear, chemical, and biological weapons. However, it also includes 
radiological, electromagnetic pulse, and other advanced or unusual 
weapons capable of inflicting mass casualties or widespread 
destruction. In addition, conventional high explosive devices, such as 
those used in the attacks on Khobar Towers and the U.S.S. Cole, are 
legally and operationally considered to be WMD.
    Although the spectrum of our mission is large, our missions can be 
simply divided into four major functions: WMD combat support, 
technology development, threat control, and threat reduction. I will 
summarize each of these in my following remarks.
    The WMD combat support function provides operational and technical 
support to the Joint Chiefs of Staff, the warfighting commanders in 
chief, and the services to engage the threat and challenges posed to 
the United States, its forces and allies by WMD. Program activities 
include:

        <bullet> Support for the planning, safety, security, and 
        reliability of the nuclear deterrent;
        <bullet> Warfighter support across the spectrum of threats and 
        capabilities to include expanded support for CINC contingency 
        plans, operational plans, and theater engagement plans; and
        <bullet> Assessments of the vulnerabilities of U.S. military 
        installations to terrorist threats.

    DTRA WMD combat support has aided the Joint Staff and Commander, 
U.S. European Command with targeting decisions during Operations Desert 
Fox and Allied Force. DTRA has also developed, in conjunction with the 
Commander in Chief, U.S. Strategic Command, and the services, the first 
DOD Nuclear Mission Management Plan to sustain the U.S. nuclear 
deterrent in the years ahead. A top priority for DTRA at the direction 
of the Chairman of the Joint Chiefs of Staff is the integration of 
threat reduction support and response capabilities into the 
warfighters' plans--that is, providing them the offensive and defensive 
tools to prevail in WMD environments. Also at the direction of the 
Chairman, DTRA performs as many as 100 force protection assessments of 
U.S. military installations at home and abroad. These assessments 
identify ways in which base commanders can improve their force 
protection posture. At the direction of OSD, we also perform more 
detailed balanced survivability assessments of critical facilities.
    The technology development function develops, manages, and 
coordinates research and development (R&D) activities underpinning 
other DTRA functions. It is important to understand that DTRA is an 
integrator and shaper of technology rather than a ``bench science'' R&D 
center. We reach out to wherever the needed technology exists, bringing 
together diverse ideas and capabilities, and shaping them into 
integrated R&D programs responsive to the needs of the warfighters. We 
rely heavily on a contractor base, including the DOE national labs, for 
the performance of the R&D we manage. As appropriate, DTRA either 
develops and delivers the final product direct to the customer, or 
provides the technology to the services or other appropriate 
organization for final refinement and fielding. Conceptually, we strive 
to dedicate 75 percent of our technology development to identified 
requirements while focusing about 25 percent on new concepts we can 
``push'' to customers.
    The DTRA technology development mission includes efforts to:

        <bullet> Develop and test systems to characterize and strike 
        WMD sites;
        <bullet> Provide both offensive and defensive tools to the 
        warfighter;
        <bullet> Develop technology needed for DOD engagement 
        activities involving arms control implementation, verification, 
        monitoring, and inspection requirements;
        <bullet> Manage nuclear weapons effects simulators and 
        simulation;
        <bullet> Develop radiation hardening of microelectronics for 
        the protection of our weapon and space systems; and
        <bullet> Provide electromagnetic pulse (EMP), radiation, blast, 
        thermal effects data and related next generation technologies.

    Products developed by DTRA have been used operationally. DTRA 
managed the ACTD that developed the advanced unitary penetrator and 
hard target smart fuze which were used in Operation Allied Force in the 
former Yugoslavia. Our munitions effectiveness tools are widely used 
for the defeat of hard and deeply buried targets. DTRA consequence 
management tools have also supported operations worldwide and are 
relied upon by domestic first responders to WMD events. Among our top 
R&D priorities are improved tunnel and hardened/deeply buried defeat 
capabilities with emphasis on stand-off attack, faster detectors for 
chemical and biological agents, improved counterforce planning tools, 
and terrorist device defeat tools.
    The threat control function maintains U.S. technological security 
in three basic areas: policy, implementation, and compliance and 
enforcement. It includes inspection, escort, and monitoring missions to 
help ensure compliance with arms control agreements; and new non-treaty 
means of threat control.
    Major accomplishments within the threat control function include 
the establishment of the congressionally-mandated program to monitor 
foreign launches of U.S. satellites; re-engineering and revitalization 
of the DOD export control process; and successful completion of all 
arms control missions.
    The threat reduction function centers on the execution of the 
Cooperative Threat Reduction or ``Nunn-Lugar'' program. This program 
assists the eligible states of the former Soviet Union with the 
dismantlement of WMD and reduces the threat of WMD proliferation. 
Specifically, it destroys strategic delivery systems, stores and 
safeguards fissile material, and improves safeguards for WMD materials 
and warheads. Under this program, 5,580 strategic warheads have been 
deactivated, 428 ICBMs destroyed, 388 ICBM silos eliminated, 87 
strategic bombers eliminated, 483 long-range nuclear air-launched 
cruise missiles destroyed, 20 ballistic missile submarines destroyed, 
352 submarine ballistic missile launchers eliminated, 217 submarine-
launched ballistic missiles eliminated, and 194 nuclear test tunnels 
and holes sealed.
    DTRA performs these missions with 2,000 personnel primarily 
concentrated in northern Virginia and New Mexico. We also have people 
literally across the globe. The workforce is divided nearly equally 
between civilians and military personnel.
    The DTRA budget request for fiscal year 2002 is over $1.1 billion. 
However, we will also provide executive management for the 
approximately $900 million Joint Chemical/Biological Defense Program. 
We also assist the Ballistic Missile Defense Organization and other 
U.S. Government organizations on a reimbursable basis. For example, the 
interagency Technical Support Working Group funds many of our blast 
mitigation and structural response field tests in order to make 
government facilities safer against car and truck delivered high 
explosives attack.
    Although our mission spectrum is wide, our focus remains on 
supporting the warfighters. DTRA is a combat support agency and, 
therefore, subject to direct tasking by the Chairman of the Joint 
Chiefs of Staff, as well as the Secretary of Defense.
    Although our focus will remain on the warfighters, we make 
important contributions to efforts to counter WMD terrorism at home. 
The Department of Defense does not have the lead responsibility for 
responding to acts of WMD terrorism within the United States. However, 
as the Department would likely be called upon should such an event 
occur, DTRA assists both preparedness and consequence management 
activities.
    We share our WMD knowledge with the Department of Justice, FEMA, 
the Centers for Disease Control, and other Federal, state, and local 
officials. DTRA also maintains an operations center that provides the 
warfighters and government officials on-line access to a wide range of 
WMD expertise. DTRA also assists interagency exercise planning. We have 
also aided with the identification of issues that national, state, and 
local decision-makers would face should such an event occur. At the 
national level, we have worked directly and regularly with officials as 
senior as the Attorney General. Moreover, we have an important 
relationship with the Joint Forces Command's Joint Task Force for Civil 
Support. As a combat support agency, we offer planning, exercise, 
operational, legal, and public affairs support to this Joint Task 
Force.
    I will conclude by noting that DOD and Congress agree that WMD 
challenges continue to evolve and grow. For fiscal year 2002, DTRA is 
requesting a budget growth for its R&D and mission-related O&M 
accounts. Specifically, we are requesting increases to enhance our 
capability to defeat the hard and deeply buried targets proliferating 
around the world, ensure the availability of radiation-hardened 
microelectronic components essential for our military and commercial 
space systems, and develop ``energetic materials'' to improve weapon 
lethality and chemical/biological agent defeat. The growth in our O&M 
budget request principally reflects expanded targeting support, 
additional balanced survivability assessments of critical command, 
control, and communications facilities, and expanded underground 
facility assessments support. In addition, we are pursuing a terrorist 
device defeat initiative that will enable us to defeat nuclear devices 
improvised by terrorists, attribute the origin of domestic nuclear 
events, and detect special shielded nuclear material. I respectfully 
request your support for our fiscal year 2002 program.
    I would be pleased to answer your questions.

    Senator Landrieu. Thank you, General.
    Mr. Waldron.

 STATEMENT OF ROBERT WALDRON, ASSISTANT DEPUTY ADMINISTRATOR, 
  NONPROLIFERATION RESEARCH AND ENGINEERING, NATIONAL NUCLEAR 
                    SECURITY ADMINISTRATION

    Mr. Waldron. Thank you. Madam Chairwoman and members of the 
subcommittee, I am Robert Waldron, Assistant Deputy 
Administrator for Nonproliferation Research and Engineering at 
the National Nuclear Security Administration (NNSA). I would 
like to summarize my statement and request it be included in 
its entirety.
    Senator Landrieu. Without objection.
    Mr. Waldron. Thank you. The NNSA's Nonproliferation and 
Verification Research and Development Program is focused on 
providing technology to operational users whose mission it is 
to strengthen U.S. responses to current and projected threats 
to national security posed by the proliferation of nuclear, 
chemical, and biological weapons. This program compliments the 
other nonproliferation programs within the NNSA which are 
Russian focused. We provide technologies that can be used 
worldwide and can be applied to making assessments about 
regional proliferation activities. Our goal is to enhance U.S. 
national security through needs-driven research and 
development. The emphasis is on developing the requisite 
technologies to detect and deter nuclear proliferation, to meet 
U.S. nuclear explosion monitoring goals, and to develop and 
demonstrate chemical and biological detection and related 
technologies to enable us to better prepare for and respond to 
the threat of domestic and biological attacks.
    I used the phrase ``needs-driven R&D'' earlier to draw a 
distinction between the focus of our work and that of the DOD 
which is primarily requirements-driven. Since a significant 
portion of our R&D work is not tied to DOD or other formal 
requirements, we are able to take a longer-term focus and stay 
the development course to mature the technology. This needs-
driven approach also allows us to pursue revolutionary, higher 
risk solutions that frequently push the state-of-the-art. 
Having NNSA conduct this needs-driven R&D allows us to marshal 
multi-disciplinary, inter-laboratory teams from the national 
laboratories to address these very challenging technical 
science and engineering problems.
    Our tie to the operational community is strongest in the 
area of nuclear explosion monitoring where we have had an 
almost 40-year history of working together. Our relationship 
with the operators of the space and ground nuclear explosion 
monitoring systems is close and productive, and they 
acknowledge us as critical to the success of their efforts.
    In addition to our connections to individual operational 
organizations, we also work closely with other developers. Our 
collaborations include a variety of projects and cooperative 
mechanisms from jointly funding development to developing joint 
technical roadmaps. While we have very close ties to individual 
developers and operational users, there are other more formal 
coordination mechanisms like the Counterproliferation Review 
Committee and various memoranda of understanding for technical 
operation with other agencies.
    Based on our extensive cooperation and relationships and 
coordination with operational and development organizations, 
let me highlight some of the technical challenges we face. In 
the nuclear explosion monitoring area, challenges in the 
development of the next generation of NNSA satellite-based 
sensors are primarily in improving the sensor detection 
performance while maintaining or decreasing the sensor size, 
weight, and power. For the ground-based nuclear monitoring 
system, most of the challenges are seismic and brought about by 
the transition from current long-range--or teleseismic--methods 
to new regional monitoring methods. This change requires 
significant improvement of our understanding of how the earth's 
crust affects the passage of seismic signals.
    For our program supporting homeland defense, the chief 
challenge facing researchers in the chemical/biological areas 
is biological detection. The challenge of distinguishing a 
threat pathogen from its harmless, very close relatives is 
pushing scientists to discover new and finer distinctions among 
organisms. Other technological gaps we face include accurately 
predicting where and how the plume of a threat agent will 
spread in, out, or around a building and in a city. An accurate 
understanding of the hazard area is critical to a rapid and 
effective response.
    Detecting the diversion or smuggling of nuclear materials 
remains a constant challenge. The ability to detect plutonium 
and highly enriched uranium at standoff distances is driving us 
to explore not only new radiation detection materials, but also 
new detection systems.
    Now let me move to our technology supporting national 
efforts to detect and understand WMD proliferation at its 
source. The challenge is to catch clandestine WMD programs at 
the earliest stage of development. Potential adversaries have 
taken considerable steps to disguise activities that might 
provide clear indications of the nature of their weapons 
development programs. Our challenge is to obtain sufficient 
information to enable us to distinguish steps in a weapons 
production program from closely related legitimate industrial 
activities. New sensors that detect new kinds of signatures are 
necessary and advanced processing and exploitation methods must 
be developed to create useful information out of this data.
    The NNSA Nonproliferation and Verification R&D Program is 
essential to the agencies responsible for combating 
proliferation being able to fulfill their operational missions. 
It is well coordinated with individual users and other 
developers. There is no simple solution to this problem and we 
alone cannot solve it. With the support of Congress and through 
continued collaboration with DOD and others, and the necessary 
advances in technology and analysis techniques, we can make a 
quantum leap in our ability to detect and understand these 
threats. I would be pleased to answer any questions you may 
have.
    [The prepared statement of Mr. Waldron follows:]

                Prepared Statement by Robert E. Waldron

    Madam Chairwoman and members of the subcommittee, thank you for the 
opportunity to testify on the Department of Energy (DOE) National 
Nuclear Security Administration's (NNSA) Nonproliferation and 
Verification Research and Development Program.
    The NNSA's Nonproliferation and Verification Research and 
Development (R&D) Program conducts a full-scope R&D program from basic 
research through test and evaluation to produce technologies that lead 
to prototype demonstrations and resultant weapons of mass destruction 
(WMD) detection systems. Our mission is to provide these technologies 
to the operational users whose mission it is to strengthen the United 
States response to current and projected threats to national security 
posed by the proliferation of nuclear, chemical, and biological weapons 
and diversion of special nuclear material. The technologies are 
developed for a wide range of government users including the Department 
of Defense (DOD), the intelligence community and Federal health and 
safety agencies.
    Detecting the proliferation of foreign nuclear weapons capabilities 
is an increasingly daunting task. A number of countries are seeking to 
acquire nuclear weapons. These nations and organizations take great 
pains to elude detection. The challenge is to detect and understand the 
threats posed by weapons of mass destruction at the earliest stage of 
development, to guide diplomatic actions and, if necessary, a military 
response. We must also deter the use of such weapons by being able to 
trace a weapon to its source before its use--or, in the worst case, 
after its use.
    The NNSA's laboratories are the Nation's repository of expertise on 
nuclear weapons design and production. For more than 50 years, the 
Nation has tapped this resource in assessing foreign nuclear weapons 
programs. The labs have also supplied detection technologies to monitor 
these programs. The goal is to enhance U.S. national security through 
needs-driven R&D. The emphasis is on developing the requisite 
technologies to detect and deter nuclear proliferation, to meet U.S. 
nuclear explosion monitoring goals, and to develop and demonstrate 
chemical and biological detection and related technologies to enable us 
to better prepare for and respond to the threat of domestic chemical 
and biological attacks. To address the broad array of mission 
challenges our program objectives are to:

        <bullet> Develop and demonstrate technologies needed to 
        remotely detect the early stages of a proliferant nation's 
        nuclear weapons program.
        <bullet> Develop, demonstrate, and deliver technologies to 
        detect, locate, identify, and characterize nuclear explosions 
        underground, underwater, in the atmosphere, and in space.
        <bullet> Develop technologies to improve our national 
        capability to counter nuclear smuggling, to identify the 
        origins of nuclear materials, to monitor global fissile 
        material production, and to monitor Russian nuclear warhead 
        dismantlement and Cooperative Threat Reduction programs.
        <bullet> Develop, demonstrate, and deliver technologies and 
        systems that dramatically improve our ability to detect the 
        proliferation or use of chemical and biological agents, and to 
        minimize the consequences of potential use of chemical or 
        biological agents.

                              COORDINATION

    The importance of stemming the proliferation of weapons of mass 
destruction is unquestioned. The Nonproliferation and Verification R&D 
Program fills a gap between basic research and application-specific 
acquisitions. These needs are not always documented in DOD or 
intelligence community requirement statements, but are based upon the 
realization that current technology will eventually become obsolete 
and/or understood by adversaries, thus new capabilities must be 
constantly pursued.
    I used the phrase ``needs-driven R&D'' earlier to draw a 
distinction between the focus of our work and that of DOD which is 
primarily requirements-driven. Since a significant portion of our R&D 
work is not tied to formal DOD requirements, we are able to take a 
longer-term focus and stay the development course to mature the 
technology. This needs-driven approach also allows us to pursue 
revolutionary, higher risk solutions that frequently push the state of 
the art. Having NNSA conduct this needs-driven R&D allows us to marshal 
multi-disciplinary, inter-laboratory teams from the national 
laboratories to address these very challenging technical science and 
engineering problems.
    A distinguishing feature of our work in recent years has been our 
success in understanding and communicating with the user community, 
both in understanding their needs and in transitioning technologies 
from purely R&D efforts into operational use or to follow-on R&D. 
Technology transition is always a challenge for research and 
development organizations, but without it the value of the R&D is not 
fully realized. I believe we are showing the way in terms of 
maintaining a cutting-edge research program while also keeping abreast 
of user needs and interests and transitioning technologies to satisfy 
them.
    The tie to the operational community is strongest in the area of 
nuclear explosion monitoring where we have an almost 40-year history of 
working together. We provide remarkably capable and robust hardware for 
space systems, as well as expert advice in analyzing the data they 
produce, and are authors of the knowledge base critical to modernizing 
the Air Force Technical Applications Center's seismic monitoring 
capability. Our relationship with the operators of the space and ground 
nuclear explosion monitoring systems is close and productive, and they 
acknowledge us as critical to the success of their efforts.
    In addition to our connections to individual operational 
organizations, we also work closely with other developers like the 
Defense Threat Reduction Agency (DTRA). Our collaboration with DTRA 
includes a variety of cooperative mechanisms from jointly funding 
development activities in nuclear warhead dismantlement to developing 
joint technical roadmaps for chem/bio.
    While we have very close ties to individual developers and 
operational users, there are other more formal coordination mechanisms. 
The Counterproliferation Program Review Committee (CPRC) was 
established by Congress to coordinate all DOD, DOE, and intelligence 
community R&D programs for countering proliferation. We have been 
actively involved in the CPRC and its various focus or working groups. 
Recently the Chemical and Biological (CB) Defense Research, 
Development, and Acquisition Focus Group was established to develop a 
coordinated plan for DOE and DOD's CB technology development programs. 
Building on the success of an initial biodetection ``roadmap'', 
chemical detection, and soon decontamination, will be included in the 
CB roadmap. This will enable us to resolve any areas of possible 
duplication and to better integrate our technology development efforts 
toward national needs.
    A few other formal interagency coordination mechanisms we 
participate in include:

        <bullet> The Nonproliferation and Arms Control Technology 
        Working Group (NPAC TWG), a multi-agency group I co-chair with 
        my colleague here at the table Anna Johnson-Winegar and Sallie 
        Mullen at the State Department. This group coordinates all 
        Federal agency R&D programs related to nonproliferation and 
        arms control.
        <bullet> The NRO-NNSA Technology Partnership Panel, a working 
        group to coordinate interactions in research and development, 
        information systems, personnel exchanges, and security.
        <bullet> The Space Technology Alliance, a multi-agency forum to 
        address national space technology issues such as the health of 
        the U.S. space industrial base, maintenance of critical U.S. 
        space infrastructure and skills, and coordination of 
        interagency technology development activities.

                         TECHNOLOGY CHALLENGES

    Based on our extensive cooperative relationships and coordination 
with operational and development organizations, let me highlight some 
of the technical challenges we face.
    Nuclear Explosion Monitoring: Challenges in the development of the 
next generation of NNSA satellite-based sensors going on-orbit aboard 
the next block of Global Positioning System satellites in 2005 are 
primarily for the optical sensors. This challenge is extreme, involving 
the development of focal plane array ``active pixel'' technology. In 
effect, thousands of individual optical sensors will be fit into a 
space not appreciably larger than that required for today's single 
optical sensor. In addition to solving substantial hardware challenges, 
we will have to develop the on-board processing algorithms needed to 
discriminate natural events, such as lightning, from nuclear explosions 
on thousands of individual optical sensors as opposed to a single 
sensor. Significant technology challenges also exist for us as we 
develop a small, low-weight, low-cost payload to replace existing 
neutron and gamma-ray sensors. Size, weight, and power restrictions 
present challenges to provide sufficient sensor sensitivity with an 
acceptably low false alarm rate.
    Most of the challenges for the ground-based nuclear explosion 
monitoring systems are very computationally intensive. Seismic 
challenges are brought about due to the transition from current long-
range, or teleseismic, methods to new regional monitoring methods. This 
change requires significant improvement of our understanding of how the 
earth's crust affects the passage of seismic signals through it and to 
differentiate a nuclear explosion from the enormous number of 
background nonnuclear events like mining blasts and earthquakes. With a 
better understanding of the earth's geology on a regional basis, we 
will improve the capability for identification, location, and 
characterization of nuclear explosions and be able to lower the yield-
detection thresholds. We also need to automate the calibration of new 
seismic stations to increase the speed with which they can be brought 
into the monitoring system and enable the user to do more of the future 
data upgrade themselves.
    Homeland Defense: In the chem/bio area, the chief challenge facing 
researchers is biological detection. Specific and selective detection 
of biological agents is generations behind that of chemical agents. The 
challenge of distinguishing a threat pathogen from its harmless, very 
close relatives is pushing scientists to discover new and ever finer 
distinctions among organisms. The more we learn about pathogens, the 
less we know. As these distinctions are developed, we must develop 
detection methods to exploit these differences. Once these methods are 
developed, engineers must advance the state of the art in detectors to 
utilize and apply these methods. Eventually, these detectors will need 
to be refined to increase the breadth of biological agents covered and 
decrease their costs.
    Other technological gaps we face include accurately predicting 
where and how a plume of a threat agent will spread in a building and 
in a city. Specifically, we face the challenge of working backward from 
detector measurements to decipher information about the amount, 
location, and type of agent released. This release information is a 
crucial variable in accurately predicting the hazard cloud. An accurate 
understanding of the hazard area is critical to a rapid and effective 
response.
    A new detector alone, regardless how sophisticated, cannot protect 
its user from harm unless it is integrated into the user's standard 
operating procedures. We are proud of our efforts in addressing this 
gap between the laboratory and the `real world.' Our demonstration and 
application programs work closely with user partners to integrate 
emerging and off-the-shelf technologies into potential systems to 
address real world needs in areas such as biological aerosol detection 
at special events, a chemical detection and response system in subways 
and airports, and biological forensic investigations. This gap is 
especially crucial in the civilian realm, where structured requirements 
and identified needs for technology to fill do not exist.
    Detecting the diversion or smuggling of nuclear materials remains a 
constant challenge. The ability to detect plutonium and highly enriched 
uranium at stand-off distances is driving us to explore not only new 
radiation detection materials, but also new detection system concepts. 
In addition to new detectors and materials, we are confronted with the 
need to develop new concepts for networking a collection of sensors 
into an integrated architecture for layered defense networks and 
perimeter monitoring systems.
    Proliferation Detection: Now let me move to our technology 
supporting national efforts to detect and understand WMD proliferation 
at its source. The challenge is to catch clandestine WMD programs at 
the earliest stage of development. Potential adversaries have become 
witting of our traditional monitoring methods. They have taken 
considerable steps to disguise activities that might provide clear 
indications of the nature of their weapons development programs. 
Analysts are left to piece together a more complex puzzle, often 
attempting to determine how much of legitimate industrial activity 
might be used in support of a weapons program.
    Our challenge is to obtain sufficient information to enable us to 
distinguish steps in a weapons production program from closely related 
legitimate industrial activities. Yet we are forced to gather this 
information from great distance, during limited access opportunities, 
or under other stressing circumstances. New sensors that detect new 
kinds of signatures are necessary, and advanced processing and 
exploitation methods must be developed to make sense of this data. 
Ground breaking science and engineering is needed to open up new 
detection and monitoring opportunities, but it must be built on a 
foundation that includes:

        <bullet> a thorough understanding of the current and likely 
        future threat,
        <bullet> assessments of the adequacy of current capabilities to 
        detect and monitor this threat,
        <bullet> identification of gaps in our capabilities and 
        recognition of opportunities to improve our capability, and
        <bullet> feedback and evaluation of the technical limits and 
        programmatic feasibility of implementing new capabilities in an 
        operational environment.

    This foundation comes from the historical expertise of the DOE's 
nuclear weapons program and intimate involvement with both the arms 
control/intelligence analysis community and the intelligence collection 
community. This foundation ensures that our technology developments are 
relevant, and we are working on complete end-to-end approaches to 
solving national priorities. We must ensure that the problems we are 
addressing are critical, the new or improved collection methods are 
robust, the information has utility, and the employment concept of the 
technology is realistic. Some of the key challenges we face include:

        <bullet> Validation that new sensor systems will provide 
        actionable information. This involves field trials in an 
        environment where we often don't have surrogates of the threat 
        we are attempting to detect and monitor. In some case we can 
        make use of U.S. weapons program infrastructure or rely on the 
        cooperation of American industry. In specific cases, we operate 
        special test facilities such as the Spill Test Facility, a 
        national resource we maintain for our own and other agencies' 
        use.
        <bullet> Acceptance of new complex detection methods in an 
        environment of shrinking analytical resources. We must ensure 
        our exploitation methods are robust and save time. New tools 
        are difficult to adopt unless they lessen overall workload, 
        especially when existing data sources swamp the limited 
        analytical personnel.
        <bullet> New detection and monitoring systems produce massive 
        quantities of data, and we are often limited by small data 
        bandwidths. Thus, we must develop methods to autonomously 
        process the data at the sensor and send back only the 
        meaningful parts. This raises the issue of confidence in both 
        the sensor and the data exploitation that must be thoroughly 
        addressed through testing.

                               CONCLUSION

    The NNSA Nonproliferation and Verification R&D Program is essential 
to the agencies responsible for non/counterproliferation being able to 
fulfill their operational missions. It is well coordinated with 
individual users and other developers, as well as through formal 
coordinating organizations.
    Our technology will get even better--because it must. Rogue 
countries, terrorists and the suppliers of the nuclear, biological, and 
chemical tools of their trade are using increasingly sophisticated 
means to evade detection. Our methods and technology must outpace this 
growing threat.
    There is no simple solution to this problem, and we alone cannot 
solve it. With the support of Congress and through continued 
collaboration with DOD and others and the necessary advances in 
technology and analysis techniques, we can make a quantum leap in our 
ability to detect and understand these threats to the American people.
    I would be pleased to answer any questions you may have.

    Senator Landrieu. Thank you.
    Dr. Koch.

  STATEMENT OF DR. SUSAN KOCH, ACTING ASSISTANT SECRETARY OF 
                  DEFENSE FOR THREAT REDUCTION

    Dr. Koch. Thank you Madam Chairman. I am Susan Koch, Acting 
Principal Deputy Assistant Secretary of Defense for Strategy 
and Threat Reduction.
    It is a pleasure to appear before the subcommittee to 
discuss the DOD's plans to continue to use the Cooperative 
Threat Reduction, or CTR, program, to address the threat posed 
by the remnants of the former Soviet arsenal of weapons of mass 
destruction. I too have submitted a longer statement, which I 
would request be included in the record.
    Senator Landrieu. Without objection.
    Dr. Koch. Thank you. I would like just to touch now on some 
of the highlights of our request for the Cooperative Threat 
Reduction program for fiscal year 2002. Let me preface my 
remarks by noting that the administration is completing its 
review of nonproliferation and nonproliferation-related 
cooperative programs with Russia to include CTR. Thus our 
budget request and the proposed assistance activities that I 
will discuss this afternoon are subject to the conclusion of 
that review.
    Our program's single largest effort, as it has been for the 
last several years, will be in strategic offensive arms 
elimination programs in Russia. This program will accelerate 
elimination of strategic nuclear delivery systems, ballistic 
missiles, silo launchers, and ballistic missile-carrying 
submarines. Another important effort in Russia will be our 
nuclear weapons storage security program. This assistance will 
enhance Russia's ability to secure, control, and account for 
nuclear weapons and their storage by providing equipment and 
training for guard forces, security upgrades at nuclear weapons 
storage sites, and furthering developing an inventory control 
system to track nuclear weapons scheduled for dismantlement.
    Closely related is the request for nuclear weapons 
transport security, which primarily funds transportation 
services to move nuclear warheads from deployed sites to 
storage and from storage to dismantlement, thereby facilitating 
Russia's acceleration of warhead dismantlement.
    An important element of our request for fiscal year 2002 
will be the slightly over $41 million for the elimination of 
weapons grade plutonium production in Russia. As originally 
envisioned, this project would convert the cores of the three 
remaining Russian plutonium producing reactors so that they 
would continue to provide heat and electricity to the 
surrounding regions without producing weapons grade plutonium. 
Unfortunately as we worked on the project, it became 
increasingly clear that the reactor cores could not be 
converted safely enough to meet our standards. We therefore, 
about 18 months ago, embarked on a study of the best approach 
to bringing an end to Russian plutonium production and have 
determined that the provision of fossil fuel alternatives, 
which would allow for the complete shut-down of the plutonium 
producing reactors while continuing to provide needed heat and 
electricity, would be the fastest, least risky, and most cost-
effective approach to the overall problem, and have the 
distinct advantage of having the complete shut-down of 
reactors, as I mentioned.
    Another important planned program is in the area of 
chemical weapons destruction and an end to Russia's ability to 
produce chemical weapons. We have requested funds to continue 
to help Russia dismantle two former Soviet chemical weapons 
facilities and to help construct a destruction facility for 
something over 5,000 metric tons of dangerous artillery and 
missile delivered nerve agent at a town called Shchuch'ye.
    The Shchuch'ye project has been discussed with this 
committee more than once in the past. The committee and the 
Senate have, in the past, laid down important conditions for a 
project that would serve U.S. security interests in the most 
efficient, cost-effective manner. The conditions outlined by 
the Senate have definitely attracted the attention of our 
Russian partners and we believe they have made substantial 
progress in addressing congressional concerns over Russia's 
slow progress in meeting destruction-related requirements. We 
have also made considerable progress with friends and allies in 
increasing international assistance to the project.
    Turning to Ukraine, the major effort is the continuation of 
our strategic arms elimination effort there, which will 
continue to work on the final elimination of SS-24 
intercontinental ballistic missiles in Ukraine and begin 
eliminating Backfire bombers. In Russia, Kazakhstan, and 
Uzbekistan in particular, we also plan to continue our 
biological weapons proliferation prevention program to enhance 
safety and security for dangerous biological pathogens, 
consolidate and dismantle production and research facilities, 
and support peaceful collaborative research projects with 
former Soviet scientists once involved in offensive biological 
weapons programs.
    Finally, we hope to continue and expand our Defense and 
Military Contacts program under CTR to nearly 500 events 
involving high-level meetings between defense officials, staff 
talks, and unit exchanges. We particularly value these 
activities which help restructure former Soviet defense 
establishments, professionalize the military units, promote 
democratic civilian control of the military, and establish 
programs of cooperation on counter-proliferation.
    We believe that our 2002 budget request, which I have just 
summarized, is a sound and reasonable approach to increasing 
U.S. security through nonproliferation and threat reduction 
assistance to the former Soviet Union. Thank you.
    [The prepared statement of Dr. Koch follows:]

                  Prepared Statement by Dr. Susan Koch

                              INTRODUCTION

    When the Soviet Union collapsed in 1991, it left behind a huge 
arsenal of weapons of mass destruction (WMD) and associated delivery 
systems, materials and infrastructure. The Nunn-Lugar Act of 1991 
(i.e., the Soviet Nuclear Threat Reduction Act) charged DOD with 
establishing a program to assist the Soviet Union and any successor 
states to destroy, safeguard and prevent the proliferation of WMD.
    Over the past 10 years, the resulting $3.6 billion CTR Program has 
proven effective in pursuing these objectives. CTR assistance helped 
Belarus, Kazakhstan and Ukraine become nuclear free and accede to the 
Nuclear Nonproliferation Treaty by 1996. The CTR Program also has 
assisted in the deactivation of 5,586 nuclear warheads and elimination 
of 740 ballistic missile launchers, 87 heavy bombers, 20 ballistic 
missile submarines, and 645 ballistic missiles. Additionally, CTR 
assistance has reduced the likelihood that sensitive materials, 
technology, expertise, and equipment may fall into the wrong hands.
    Beyond this, CTR assistance is working to improve the 
accountability for warheads, enhancing safe storage of WMD and related 
materials, and reducing the opportunities for unauthorized acquisition 
of nuclear weapons and materials, related systems, and technology.
    The administration is completing a review of all nonproliferation 
assistance programs to Russia. One area of concern is that we do not 
want U.S. investment in the CTR Program to become a means by which 
Russia frees up resources to finance its strategic modernization 
programs. In this regard, the CTR Program does not provide funds 
directly to the Russian government. Instead, DOD contracts with 
entities that provide specific, measurable deliverables related to 
weapon elimination, transportation, and security services. It is not 
clear the Russians would eliminate their weapons without the CTR 
Program of assistance. Leaving them in place makes them vulnerable to 
theft or sale to other countries or groups.

                      FISCAL YEAR 2002 CTR PROGRAM

    DOD's overall fiscal year 2002 budget request for CTR is $403.0 
million. As noted earlier, the administration's review of 
nonproliferation assistance to Russia is not yet complete, and DOD's 
budget request for CTR for fiscal year 2002 and the description I will 
give today of the projects that would be pursued under that request 
remain subject to the conclusion of that review.
    Under CTR's the Strategic Offensive Arms Elimination program area 
in Russia ($133.4 million), the U.S. will seek to accelerate the 
elimination of nuclear delivery systems and missile launchers. We hope 
to eliminate SLBM launchers and dismantle the associated SSBNs. We will 
transport, dismantle, and eliminate 117 liquid fueled SLBMs, 16 liquid 
fueled ICBMs, and 70 solid fueled ICBMs and SLBMs. Also, we will 
continue to construct a solid propellant disposition facility, continue 
to operate and maintain liquid propellant disposition systems and 
eliminate 48 mobile ICBM launchers.
    Under the Nuclear Weapons Storage Security program area in Russia 
($56.0 million), we hope to enhance the security, control and 
accounting of nuclear weapons and their storage. We will continue to 
test, integrate and train at the Security and Assessment Training 
Center and procure 10 suites of security equipment to be deployed at 
nuclear warhead storage sites. Additionally, we will continue site 
renovation and installation of five suites of security enhancement 
equipment, procured with fiscal year 2001 funds, at nuclear warhead 
storage sites. In addition, we plan to install 31 kilometers of 
perimeter security systems at MOD nuclear weapons storage sites; 
procure communications and other safety, support and heavy duty 
equipment for site security operations; continue to procure additional 
portable drug and alcohol testing equipment to ensure personnel 
reliability; and continue maintenance and life cycle support for the 
Automated Inventory Control and Management System for tracking nuclear 
weapons scheduled for dismantlement.
    Also, the Nuclear Weapons Transportation Security program area 
($9.5 million) will facilitate warhead movements from alert systems to 
secure storage and dismantlement facilities in Russia. More 
specifically, this project will fund transportation services for 
deactivated nuclear warheads to move from deployed locations to 
enhanced security storage sites and to dismantlement facilities.
    The Elimination of Weapons Grade Plutonium Production project 
($41.7 million) originated in 1997 when the U.S. and Russia agreed to 
convert the cores of the three remaining Russian reactors (two at 
Seversk and one at Zheleznegorsk) that produce weapons-grade plutonium 
to eliminate this production capability. The U.S. agreed that the 
reactors could not be shut down because they serve the energy needs of 
the local regions. By early 2000, however, it became clear that the 
reactor cores could not be converted safely. DOD notified Congress of 
the need to explore an energy alternative to supply the local needs. 
The results of these studies determined a fossil alternative is the 
most effective and efficient means to stop weapons-grade plutonium 
production. It has the added benefits of being low risk since it uses 
well known technologies and it permits the complete shutdown of these 
three Chernobyl-type reactors.
    In Ukraine, the Strategic Nuclear Arms Elimination (SNAE) program 
area ($51.5 million) will sustain joint efforts to eliminate SS-24 
ICBMs to include continued storage of 163 solid rocket motors, 
completion of construction of a solid propellant disposition facility, 
removal of propellant and elimination of 66 missile motors. Under the 
WMD Infrastructure Elimination (WMDIE) program area in Ukraine ($6.0 
million), we also hope to eliminate ICBM liquid propellant facilities, 
strategic airbase infrastructure and nuclear weapons storage 
facilities. The WMDIE program area in Kazakhstan ($6.0 million) will 
continue securing fissile and radioactive materials and initiate 
elimination of strategic airbase infrastructure and ICBM liquid fuel 
storage facilities in fiscal year 2002.
    With regard to the Chemical Weapons Destruction Facility (CWDF) at 
Shchuch'ye, the Russian government allocated $100 million in 2001 for 
Chemical Weapons Convention compliance including $25 million to support 
the CWDF at Shchuch'ye. This project will enable the destruction of a 
nerve agent stockpile of 5,460 metric tons in highly portable artillery 
and missile munitions, and will provide an opportunity for more 
international assistance. The U.S. has encouraged other countries to 
assist with the Shchuch'ye project. Canada has provided $70,000 for 
infrastructure design and plans to provide an additional $180,000 this 
year. Italy recently agreed to provide $7.15 million in assistance for 
Shchuch'ye. The European Union also has committed $1.8 million to this 
project. The United Kingdom is considering providing up to $18 million 
for Shchuch'ye infrastructure projects. Other countries have expressed 
interest in supporting these kinds of projects at the indicated 
approximate funding levels: Netherlands $2 million, Norway $1.0 
million, Sweden $700,000, and Switzerland a significant portion of $20 
to $30 million. These offers are contingent upon resumption of the 
project by the U.S. The fiscal year 2002 budget includes $35.0 million 
for the CWDF and $15.0 million for dismantlement of former CW 
production facilities.
    Under the Biological Weapons (BW) Proliferation Prevention program 
area ($17.0 million), we will continue to seek enhanced safety and 
security for dangerous pathogen collections, consolidation and 
dismantlement of infrastructure associated with BW production and 
research facilities, and collaborative research projects with former 
Soviet BW scientists.
    The CTR Program also provides funding ($18.7 million in fiscal year 
2002) for a wide range of defense and military contacts between DOD and 
FSU defense establishments. Overall, the objectives of the Defense and 
Military Contacts (DMC) program are to encourage denuclearization and 
nonproliferation, to enhance stability by regular exchanges on issues 
of mutual concern, to encourage and assist the restructuring and 
downsizing of FSU defense establishments, and to encourage support for 
democratic reform. In short, while this component of the program helps 
reduce the risk of weapons of mass destruction in a way that is less 
direct and less quantifiable, it is no less important to addressing the 
larger threat.
    Funding for program management, administrative support, audits and 
examinations and other assessments, or ``overhead'' are 3.3 percent of 
the total fiscal year 2002 budget ($13.2 million), reflecting the fact 
that this is an efficient enterprise.

                               CHALLENGES

    At the program implementation level, our biggest challenges are 
transparency across the board, and access to facilities. Despite their 
generally sincere interest in achieving program objectives, the 
Russians are reluctant to give us visibility into sensitive military 
processes and access to sensitive facilities. One example of this is 
the continuing struggle to include a measure of weapons origin and 
complete a transparency regime for the Mayak Fissile Material Storage 
Facility. Visibility and access are critically important, not only to 
conduct agreed activities, but to conduct required audits and 
examinations that help ensure that CTR resources continue to be used 
for the intended purposes.

                               CONCLUSION

    CTR contributions to national security include the elimination of 
START-accountable nuclear weapon delivery systems and warheads; and 
efforts to reduce the threat from the use or proliferation of chemical 
and biological weapons through the Chemical/Biological Weapons 
Proliferation Prevention Program; the relationships formed through 
professional exchanges foster greater mutual understanding, increase 
confidence, encourage denuclearization, nonproliferation, and enhance 
stability through the regular exchange of views on issues of mutual 
concern. Additionally, CTR Programs inhibit the transfer into the wrong 
hands of sensitive materials, technology, expertise and equipment.
    Continued congressional support is important to the future success 
of CTR's nonproliferation efforts and its role in enhancing U.S. 
national security vis-a-vis the former Soviet Union.

    Senator Landrieu. Thank you all very much for your 
testimony. I think our time will allow us two rounds of 
questions, 5 minutes each. But to the subcommittee members, if 
you require more time, please just let me know.
    Let me begin with you, Dr. Winegar, for just a few 
questions. There have been a number of concerns about the 
safety of the primary disposal method being used to eliminate 
our chemical weapons. Naturally, people want to make sure that 
this process is safe and effective. Could you comment on the 
risks associated with destroying relative to the risk of 
keeping these stockpiles in communities where they are now 
being stored? Or the risk of not eliminating them? If you could 
compare those risks and elaborate somewhat along those lines.
    Dr. Winegar. Certainly. I think our desired goal is the 
safe and complete destruction of the existing stockpiles. As 
you indicated in your question, it is a matter of balancing the 
risks between the alternative of doing nothing--that is leaving 
the stockpiles intact and taking the chance of further 
deterioration or the possibility of an inadvertent, outside 
event such as an earthquake or lightning or something like that 
that we cannot control which could cause significant impact--
and contrast that with the safety record that has been compiled 
in the program thus far where we have essentially completed the 
destruction of the weapons at Johnston Island and are well on 
the way to completing the stockpile that is at the Tooele 
facility. Those have been done with a safety record that I 
think is outstanding and certainly is comparable to, if not 
better, than similar types of industry records.
    Senator Landrieu. Thank you. Earlier this year Secretary 
Aldridge--and you mentioned this in your statement and I just 
wanted to follow up--decided to increase the level of oversight 
for the chemical demilitarization program in the Office of the 
Secretary of Defense in part by making it a major acquisition 
program. You testified to this. Can you explain in more detail 
what the practical effect of this will be, the changes that it 
has made, and what benefits you can see?
    Dr. Winegar. Certainly. By elevating the program to an A-
CAT 1D, that in essence means that Secretary Aldridge himself 
will be involved in all major decisions related to the program. 
He is by definition the official milestone decision authority 
for the chemical demilitarization program. The first actual 
event that will occur is the comprehensive DAE review that I 
also mentioned in my testimony. That has been such an extensive 
undertaking that in point of fact, it has been ongoing for 
about a year now. So, I think that attests to the fact of the 
level of detail that we are accumulating for him. That detail 
is being scrutinized by a number of independent offices from 
the Office of Secretary of Defense level both from a 
comptroller's point of view, the PA&E point of view, and from a 
number of different groups who have not had the opportunity to 
review all of that information in that level of detail.
    Senator Landrieu. Did we discuss when that review will be 
completed?
    Dr. Winegar. Yes. It will be completed the first week in 
September.
    Senator Landrieu. We can expect that. One more question 
regarding the Chemical Weapons Convention to eliminate all of 
our chemical weapons by 2007 and our efforts to try to remain 
on schedule. In previous years, Congress has reduced the 
funding for this program below the requested levels because 
there was a view that it was such a large budget--more than a 
billion dollars this year--that it wouldn't hurt the program to 
do with a little less money. Am I right in understanding that 
the funding you have requested for this fiscal year is 
necessary to keep us on track toward meeting that goal? Do we 
look like we are going to be on track if in fact we can keep 
the money that is in the budget, or do we need more?
    Dr. Winegar. I certainly support the budget that was 
submitted in the President's budget request, which is 
approximately $1.3 billion for fiscal year 2002. I think we 
have adequately justified the particular items in the budget 
that are needed. Again, this will be subjected to that fine 
level of scrutiny and detail that I mentioned, in the upcoming 
DAE review.
    Just to refresh your memory, this budget was prepared by 
the Army in accordance with direction from the previous 
administration, and so this will be Secretary Aldridge's and 
indeed Secretary Rumsfeld's first opportunity to have this 
level of detail in the review of that budget.
    Senator Landrieu. Was there anything that you know of 
regarding how that study is being conducted that would indicate 
we would need significantly more or could do with significantly 
less money? Is anything clear at this point about that study?
    Dr. Winegar. There are a number of working teams doing this 
on a daily basis. I have not at this point been briefed on the 
results of their discussions and I think it would be premature 
at this point to speculate what the possible ramifications 
might be.
    Senator Landrieu. Thank you, Dr. Winegar.
    Senator Roberts.
    Senator Roberts. Thank you, Madam Chairman. In 1998, 
Secretary of Defense Cohen held up a bag of sugar on television 
and stated the extraordinary killing power of an equal amount 
of anthrax. Secretary Cohen, our former colleague, planned to 
have all 2.4 million personnel immunized before 2004. He 
testified in hearings last year which were extremely helpful. 
We learned about BioPort and that is not good news to say the 
least. We had an expenditure of millions of dollars in exchange 
for no usable vaccine.
    So basically the program has been terminated. Riding to the 
rescue  was  Senator  Hutchinson,  who  said  we  ought  to  
fund  something called government-owned, contractor-operated--
the acronym is GOCO--vaccine production facilities. He had the 
place to do it, the expertise to do it, and the money to do it. 
We are waiting for a report. I yield to the person that has 
more expertise on this than I do, Senator Hutchinson, because I 
know this is a pertinent issue with all of us. I would like to 
reserve the balance of my time, but I would like to yield to 
the Senator to follow up on that question. I feel it is 
exceedingly important.
    Senator Landrieu. Go right ahead.
    Senator Hutchinson. Thank you, Senator Roberts. Dr. 
Winegar, let me ask you first, when is the report expected?
    Dr. Winegar. Sir, the report has been completed for quite 
some time now and has been delayed being delivered to Congress 
pending delivery of the budget. It is certainly my 
understanding that it is imminently going to arrive here.
    Senator Hutchinson. Can you tell me what its recommendation 
is?
    Dr. Winegar. Well, sir, there are a number of parts to that 
report as you would recall from the language. One specifically 
addresses the projected costs--the lifecycle costs--for a 
vaccine facility. While I do not have those numbers on the top 
of my head, I can assure you it is a very detailed analysis of 
not only the planning, design, and construction, but the 
follow-on 20 years or more to operate such a facility because 
that has to be factored into the decision.
    The other part of the report summarizes and indeed provides 
all the detail of an expert group, an expert panel commissioned 
by the former Deputy Secretary of Defense, Mr. DeLeon, where we 
brought in their expertise to leverage best practices from the 
industry to again help us make some of these decisions.
    Finally, we were directed in that report to consult and 
coordinate with the Department of Health and Human Services, 
specifically the U.S. Surgeon General, and that part of the 
report is included also.
    Senator Hutchinson. Back in the 1990s you did an exemplary 
job in heading up a group that made recommendations for a GOCO 
for vaccine production which would have, had it been 
implemented, averted the BioPort disaster. I think the 
jeopardizing of our troops who are not getting the anthrax 
vaccinations as they should be. The site selection process that 
was used at that time, will the same criteria be used in the 
site selection for a new GOCO facility?
    Dr. Winegar. All of those criteria will be used but the 
acquisition strategy that we plan to pursue this time is a bit 
more broad. Let me be specific on that. The earlier study 
limited possible site selection to military bases for a variety 
of reasons; number one being security, number two being 
availability of land, etc. We have decided that the best 
approach is to make it a totally open competition so that 
potential competitors to our solicitation could indeed offer to 
build such a facility on private land, and then of course one 
of the evaluation criteria would be cost in addition to all the 
other criteria.
    Senator Hutchinson. Will you assure the subcommittee that 
the site selection process will be fair and transparent?
    Dr. Winegar. Absolutely.
    Senator Hutchinson. Would you give me the assurance that as 
the criteria is established for site selection, that I will be 
briefed on that and before site selection is made, that I will 
receive such a briefing?
    Dr. Winegar. Absolutely. We intend to keep this 
subcommittee and any other interested members of Congress fully 
apprised of the situation, bearing in mind that we do have to 
adhere to the rules regarding the procurement of sensitive 
information, etc.
    Senator Hutchinson. The President's budget recommendation 
for this, I think, was $700,000. Under that funding scheme, it 
will be 2008 before such a GOCO facility will be fully active. 
I think that is absolutely unacceptable. We have too much in 
jeopardy with the growing threat of biological weapons. I think 
it is imperative that we accelerate that. If the subcommittee 
were able to plus up the authorization to say $40 million, 
would the Department be able to utilize that kind of a funding 
level over the next 2 years to accelerate a GOCO facility?
    Dr. Winegar. Well, I certainly am one that is ready to 
admit my limited expertise in the areas of construction. 
Certainly the time frame that we have developed is one that can 
be critically reviewed. In addition to the actual design, 
planning, and construction, I want to say for the record that, 
even once such a facility is built, an imperative part of the 
process is the validation and certification by the Food and 
Drug Administration, which will indeed encompass several years, 
the latter part admittedly----
    Senator Hutchinson. Hopefully with much greater success 
than Bioport.
    Dr. Winegar. Yes, sir.
    Senator Hutchinson. Well, let me just close. I want to 
thank again the Senator from Kansas for yielding his time. This 
is not only a critical national issue but something very 
important to me personally. As I stated in my opening 
statement, we actually had an instance of two deaths of 
recruits because a commercial vaccine production facility would 
not make them any longer. This is a prime example of the need 
for us to move very expeditiously on this GOCO concept. I thank 
you for your leadership on it and I look forward to working 
with you.
    Dr. Winegar. If I could just add one point of minor 
clarification. Senator Roberts specifically mentioned the need 
for anthrax vaccine and Senator Hutchinson is referring to a 
vaccine for adenovirus. I want to make sure that the record is 
clear that our concept for such a vaccine facility is one that 
is flexible and broad enough to be able to encompass the 
appropriate kinds of technology for multiple vaccines.
    Senator Hutchinson. I appreciate that because I think that 
is a very critical point because the emphasis gets placed on 
anthrax and that is certainly a part of the program. But there 
are a number of vaccines that we are not seeing the commercial 
sector produce because it is not financially viable.
    Dr. Winegar. Right. I just wanted to make sure that the 
subcommittee was aware of the fact that we are looking not only 
to today, but as the title of your subcommittee suggests, to 
the emerging threats and whether the next ones on the horizon 
are smallpox and plague or further down the road is Ebola or 
whatever. That indeed will be the challenge to us as we try to 
design such a facility with maximum capability and surge 
capability to meet all the needs.
    Senator Hutchinson. Thank you, Madam Chairman. Senator 
Roberts, have I forgotten anything?
    Senator Landrieu. Senator Roberts.
    Senator Roberts. I am going to yield again, Madam Chairman, 
in that our resident veterinarian and taxidermist and chemical 
demilitarization expert here was straining there with a 
question. Senator Allard, did you want to follow up?
    Senator Allard. I just wanted to compliment you on the fact 
that you are having an open, competitive process to decide to 
turn to the private sector. I was glad to hear you were 
thinking in terms of flexibility on the production lines 
because you never know what kind of organism you might have to 
deal with in turn.
    Dr. Winegar. Exactly.
    Senator Allard. The other thing I would share with you is 
that if you put your production facility all in one spot, there 
are things that could happen: power supply, maybe contamination 
of the facility. Depending how critical--I hope there is an 
analysis of how critical you think this constant supply is--if 
it is very critical then you may want to consider having two 
production spots so you do not have all your apples in one 
basket. If you think there is a moderate, critical need there, 
then maybe one facility would meet your needs. But I would 
assume that you have given that some thought as you have gone 
through this process.
    Senator Hutchinson. If I might just add to a very valid 
point. I think multiple production facilities might be viable. 
Having multiple storage facilities under FDA approval might 
meet the same need as the concern of having that deterrent in 
one location.
    Senator Allard. You may need to have some legislation to 
speed along, although I think they have an emergency process 
where they can rapidly approve vaccines and I would not think 
we would need legislation because I think that is already in 
place. But if not, we may have to consider something to make 
sure this moves more rapidly. I would agree with my colleague 
from Arkansas that 2007 seems a long way out to me.
    Dr. Winegar. I certainly want to reassure the subcommittee 
that on a professional and personal basis, I am constantly in 
contact with my colleagues from the FDA who do have the 
resident expertise that will be required for validating and 
approving such a facility, and also have very strong 
connections with Pharma and Bio and a number of the other 
organizations to whom the industry and the manufacturing sector 
report. I take your comments very seriously with regard to both 
multiple production sites and clearly multiple storage sites 
for what I consider a key element for our National defense 
program.
    Senator Allard. I have another question.
    Senator Landrieu. Why don't we see with Senator Roberts.
    Senator Roberts. It is going to have to wait because I have 
yielded twice now and I am just not going to do it anymore. 
[Laughter.]
    Senator Landrieu. We will get back to order. We were 
thinking about these two sites, Yucca Mountain and offshore 
Florida, which are interesting sites for this anthrax. Senator 
Roberts, I am going to step out for a minute to take care of 
some business--would you continue with your round of 
questioning?
    Senator Roberts. I would be delighted to and I will finish 
up quickly so Senator Allard can follow up. Dr. Winegar, you 
have added some capacity to your duties. You are the chemical 
demilitarization poster person down at the Department in your 
capacity as the Deputy Assistant to the Secretary of Defense. 
Staff informs me that when we took a look at the issue areas 
that this subcommittee would explore--``the things that keep us 
up at night''--that was a question that we asked quite a few 
folks in the last session and the session before that. Your 
portfolio has now increased to include all the things that are 
now in our pasture. So, welcome to our insomniac club.
    Dr. Winegar. Sir, I think I am a charter member of that 
club.
    Senator Roberts. Your position is starting to resemble 
something that was formerly at the Pentagon--the Assistant to 
the Secretary of Defense for Nuclear, Chemical, and Biological 
Defense. We have said over and over again, why can't we have 
another one of those. If you wanted to call it something else, 
I guess you could. I do not know what the acronym for that is--
A-S-D-N--nevermind.
    Dr. Winegar. A-T-S-D-N-C-B.
    Senator Roberts. You know it.
    Dr. Winegar. I know it well.
    Senator Roberts. What are your thoughts on filling the 
position? That was a nominated position. That was something 
that we had to approve.
    Dr. Winegar. That's correct.
    Senator Roberts. How are you doing down there? Why don't we 
get you that title if you want it? Because we have tried to 
single out how important this is, and with this new position I 
think it is at least commensurate with what was happening 
before. So my question is, should this position continue to go 
unfilled? How can we help you do your job so we all get a good 
night's rest?
    Dr. Winegar. Yes, sir. Thank you for the opportunity to 
address that. Mr. Aldridge who is the Under Secretary of 
Defense has indicated to me that this is a high priority for 
him and that he does intend to nominate someone to fill that 
position. It is my understanding that he is interviewing 
potential candidates for that. As you mentioned, the complete 
title of that job is Assistant to the Secretary of Defense for 
Nuclear and Chemical and Biological Defense Programs. I have no 
expertise and no part of my portfolio encompasses nuclear 
matters.
    The way that office has been structured in the past is that 
there have been in fact two deputies: one to handle nuclear 
matters and the other, which I am currently filling, is the 
Deputy for Chemical and Biological matters. You are absolutely 
right. That is and should be a Senate-confirmed position. I 
look forward to getting a new boss to stay up late at night 
with me too.
    Senator Roberts. Senator Allard.
    Senator Allard. Mr. Chairman, thank you. I just wanted to 
ask a question about how are we faring with meeting some of the 
deadlines with some of these weapons conventions. They are 
coming upon us here. Are we going to meet those deadlines? What 
are the biggest challenges you see in us being able to meet 
them?
    Dr. Winegar. Certainly I think that it is going to indeed 
be a very big challenge for us to meet the ultimate deadline 
which is the complete safe destruction of all the weapons we 
have in our stockpile. I think we are off to a good start. I 
think that with the other facilities that are well under way 
with regard to construction or actually in systemization 
planning that we have a very good chance of destroying the vast 
majority of the weapons in the stockpile. Of course there are 
always issues that might come up that could delay what we have 
projected to be the throughput rates for those facilities, etc.
    In my personal opinion, the major obstacles for us to 
overcome are to make technology decisions regarding the 
stockpiles at Pueblo and Blue Grass. Until we make those 
decisions we cannot really move forward down the path with the 
construction and operation of a facility.
    Senator Allard. If I recall your testimony, spring 2002 was 
when you would get your first decision.
    Dr. Winegar. That is correct.
    Senator Allard. If you do not see any impediments coming 
up, when would you predict we could get moving with the Pueblo?
    Dr. Winegar. Well, we actually have money in the fiscal 
year 2002 budget and we are starting some of the infrastructure 
improvements that are not technology specific, such as upgrades 
to utilities. We cannot do anything that would be determined 
pre-decisional until the entire RCRA process is completed, etc. 
But I think we are well-positioned with the money we have in 
the 2002 budget and our projections for the budget beyond that 
time to quickly execute whatever path we decide to follow.
    Senator Allard. In some of the communities we have been 
discussing the possibility of impact fees. My question is, 
where would the money for these proposed impact fees have to 
come from? How could it effect the chemical demilitarization 
programs for these sites?
    Dr Winegar. It is my understanding that the Department of 
Defense has no authorization and no legal grounds to provide 
such impact fees to these communities.
    Senator Allard. So if a community decides to apply an 
impact fee, the ultimate decision that would come out of the 
Department of the Defense is what?
    Dr. Winegar. The Department has no authorization to pay 
such fees.
    Senator Allard. So their response would be what?
    Dr. Winegar. Their response would be we have a program in 
place to complete the destruction of these and we have not 
factored in any funds to address an impact fee.
    Senator Allard. If the community insists on the impact fee, 
then you would have to walk away from where you are at that 
point? How would you deal with that?
    Dr. Winegar. I would certainly think we would have to seek 
help in negotiation or seek some type of relief outside the 
current limitations that are set on the Department.
    Senator Allard. Well, I know in Pueblo there was some 
discussion about applying an impact fee by City Council or some 
of the elected officials there locally.
    Dr. Winegar. Yes.
    Senator Allard. The message that we left is that it would 
severely impede the ability to move forward on that project.
    Dr. Winegar. That is correct.
    Senator Allard. Would that be the proper response?
    Dr. Winegar. That is correct.
    Senator Allard. OK. Thank you very much. Thank you, Madam 
Chairman.
    Senator Landrieu. I have several more questions but Senator 
Roberts, why don't you go ahead.
    Senator Roberts. We do not want to leave the rest of the 
witnesses out. But I have just two quick questions for Dr. 
Winegar. The United States Marine Corps has been testing a new 
technology called electro-chemically-activated decontamination 
solution. I understand that in a recent 3-day test that was 
conducted by the Corps--the Marine Corps Assistance Command and 
the CBERF Team--this, what we call ECA technology, did 
demonstrate it was an effective decontaminate and exceeded all 
test requirements. Any thoughts on this? Does this sound to you 
that this is an area where we ought to plus up some investment 
on behalf of the Marine Corps?
    Dr. Winegar. Sir, I have been briefed on that electro-
static decon program, as a matter of fact, from the Clean Earth 
Technologies Group and the folks at the University who are 
cooperating with that project. I think the results to date are 
promising and we have spoken with them. Again this is another 
example of a program that can be conducted in academia and 
industry to a certain point, and then when they actually need 
to test it against some of the pathogens we have to develop a 
collaborative relationship with our Defense Department 
laboratories and I believe that is the status of that project 
at the moment.
    Senator Roberts. I mispronounced this program. This is 
electro-chemically-activated decontamination solution. What did 
I say? Oh, I am getting static. [Laughter].
    The reason I ask you that, because I am going to ask the 
General a question down the road here on our vulnerability in 
regards to the warfighter on chem/bio defense and how DTRA is 
doing. This is the kind of thing that we really need to press 
ahead on. Two years ago I was out in California when I saw the 
CBERF outfit work through its training. So if we are not doing 
the job we ought to do--not that we don't want to do the job--
why this is extremely important.
    The last thing I have for you, in my opening statement I 
talked about the fact the money is coming out of the Army in 
regards to procurement. Why can't we get a general funding 
program? Is it possible for the chemical/demilitarization 
funding to be transferred within the Army procurement account 
to other programs? This is a national program. Why are we 
making the Army pay for it, or the Air Force for that matter?
    Dr. Winegar. Sir, I think that again is one of the options 
that we will be looking at as we complete our comprehensive DAE 
review for Mr. Aldridge. We have made it clear that all options 
are on the table and whether that should be a defense-wide 
account versus an Army account is clearly one of the issues 
that we will be discussing at that time.
    Senator Roberts. Tell Secretary Aldridge that a very 
reasonable and effective Chairman of the Emerging Threats and 
Capabilities Subcommittee asked that question and a very 
obstreperous ranking member asked it as well.
    Dr. Winegar. Yes sir, I will convey that to him.
    Senator Landrieu. Great. That will put fear in him. Let me 
ask Mr. Waldron, I understand that DOD and DOE--you testified 
to this--are working together to develop bio detectors. What is 
the status of our demonstration and application programs? In 
other words, the devices that can detect chemical and 
biological agents in heavily populated areas like subways, 
airports, even events of limited duration, will these 
technologies eventually be installed or used on military 
installations as well? Could you also talk about the state-of-
the-art standoff chemical and biological detectors today and 
how the agencies are contributing to development efforts in 
this? How are your agencies contributing to the development 
efforts in this arena?
    Mr. Waldron. I think I have all that. First of all, in 
regards to demonstration projects, we have two major 
demonstrations--we call them DDAPS factored after the Defense 
Department's ACTDs, one of which will be conducted in Salt Lake 
City for the Salt Lake City Olympics. We have already done a 
quarter-scale demonstration in Salt Lake City with Utah public 
health people. Basically it is some distributed air sampling 
systems that continually pull in the air deposited onto a piece 
of filter paper and then every 4 hours we have someone go out 
and change the filter paper. The filter paper goes back to a 
laboratory and then we use laboratory techniques to look for 
the potential biological agents.
    So, we have in place a field laboratory that we will be 
using in Salt Lake City for the Olympics. This has been 
coordinated with the FBI, the Salt Lake City Olympic Committee, 
and the Utah public health people. We are going to provide a 
capability for the Utah public health people to make an 
assessment if there may be a release during the Olympics.
    Senator Landrieu. Let me just follow up with this. Maybe 
this is a common sense question. If you detected it on the 
filter would it be too late? Once it is detected on a filter, 
the danger of the agent already spreading in that way, is that 
what the technology is positioned to do?
    Mr. Waldron. Well, what we are doing is, it is being 
collected on the filter paper and then we take it to a 
laboratory and analyze it. The answer is that you can either 
have a detection system that detects right away and alarms or 
you can have a system that you use and detect so you can then 
treat the exposed people. The technology is not there, right 
now, that would not have a significant false alarm rate, for 
detecting something right away.
    Senator Landrieu. So this is for the accurate analysis and 
then effective treatment in the event something terrible 
happened.
    Mr. Waldron. Right. So then the Public Health Service will 
be able to say, everyone that was in the Correll Center or 
whatever venue it was during the certain time, you need to get 
to a hospital to get treated. Our understanding is that as long 
as you can get people to treatment within the 12- to 24-hour 
timeframe after exposure then they can be successfully treated.
    Senator Landrieu. Thank you for clarifying that. Dr. Koch, 
during conference on last year's defense authorization bill, we 
talked about the closure of these plutonium plants in Russia 
and I know we are proceeding. You mentioned that we have 
decided that it is too costly and too dangerous to try to 
convert so we are going to close and try to reorganize with a 
fossil fuel source. What are our options there, would there 
perhaps be some green energy options for the region or clean 
energy production? I understand our options may be coal or 
another fuel source--you did not elaborate. What are our 
options, since we are doing this, to try to skip a generation 
of technology and get some clean power to this region?
    Dr. Koch. Madam Chairman, I confess I do not know the 
details and so if I could expand on my answer for the record, I 
would appreciate it. We are looking at both coal and oil-fired 
plants that would at a minimum be to American environmental 
standards--so it would be, I would think, an increase in 
environmentally sound approaches compared to traditional 
Russian fossil fuels.
    [The information referred to follows:]

    During 2000, the Department of Defense and Ministry of Atomic 
Energy evaluated options for providing heat and electricity to the 
surrounding communities in the closed cities of Seversk and 
Zheleznogorsk, which is a Russian requirement in order to shut down the 
three remaining Russian plutonium production reactors. The final U.S. 
study compared the costs of producing the required heat and electricity 
by coal or converting the reactor core design to allow continued 
operation without production of weapons-grade plutonium. The study 
included a section evaluating the prospects of increasing the energy 
efficiency in the distribution and consumption of the heat and 
electricity.
    The final study was restricted to coal and conversion because other 
technologies, which were evaluated in earlier studies, were rejected 
for technological, meteorological, or economical reasons. Other 
technologies were not included in the final report. The cost to the 
Russian utility to purchase oil or natural gas at competitive rates is 
approximately five times the cost per megawatt for coal. In addition, 
pipelines to supply oil or natural gas to the two cities do not 
currently exist and would have to be built, also adding to the project 
cost. New nuclear reactors were eliminated because the capital 
investment was an order of magnitude greater than coal or conversion.
    Hydroelectric power was rejected because it is seasonal, and not 
available in the winter when demand is highest. In addition, 
hydroelectric power generates only electricity and does not directly 
satisfy the primary requirement for district heat. Solar energy was 
eliminated due to location and weather. Both of these cities are 
located only 600 miles south of the Arctic Circle. In the winter, when 
the heat and electricity demand is the highest, the days at these 
northern latitudes are very short and production from solar 
technologies are at their lowest and intermittent. Similarly, wind 
power was also rejected as being intermittent and is regarded as a 
supplemental, not a primary, source of power.
    Hence, only projects involving coal plants are practical for this 
location.

    Senator Landrieu. Compared to what they have there, I am 
sure it is going to be an improvement. But I would like you to 
get back to me about those options because there is 
extraordinarily fast moving technology in this area and whether 
it is clean coal or cleaner oil or even solar, there are many 
exciting and interesting opportunities.
    While we already have a certain distribution network in the 
United States for new places in the planet, there are other 
options that we did not necessarily have when we began. I think 
we should be open to that. So, if you could give me some 
details I would be interested.
    I have one more question. The NNSA research program, Mr. 
Waldron, has been cut substantially. If our analysis is 
correct, there appears to be approximately a $50 million cut in 
research. What impact is this going to have on ongoing research 
projects? What impact will this have on the future? What will 
the impact be on the people who actually do the research?
    Mr. Waldron. The simple answer obviously is that it is 
going to delay a significant amount of work that we have had 
underway. We are also looking at terminating a few efforts 
prematurely. We have not gotten to formal, final assessment of 
the technology. It impacts our ability, obviously, in the 
future to address the technical challenges that I presented in 
my testimony. It draws things out. It makes our ability to make 
these technologies available on a fairly rapid basis drawn out. 
We are also not able to address as many technical options as we 
would like to. Obviously the impact on the people doing the 
work is not an impact on the DOE and NNSA and my staff. We are 
going to have jobs, but the impact is going to be substantial 
at the NNSA laboratories.
    Senator Landrieu. Let me ask you this and forgive me for 
not knowing the totals, but what does this $50 million 
represent in terms of a percentage cut?
    Mr. Waldron. About 25 percent.
    Senator Landrieu. So it is a pretty steep cut in research.
    Mr. Waldron. Yes, ma'am.
    Senator Landrieu. While you have not determined how exactly 
you are going to deal with that, could you just indicate a few 
things that you know of that may have to be cut, that we may 
have to walk away from? I know we have not decided exactly how 
this cut is going to be implemented and all of those decisions 
have yet to be made, but could you just share some of that with 
us?
    Mr. Waldron. One of the things is in our proliferation 
detection area. We are going to substantially scale back. Our 
look at hyperspectral technologies that would be able to detect 
chemicals associated with the production of nuclear weapons and 
potentially chemical agents, that is one area; also some laser-
based technology doing the same type of work to look at various 
chemical species. That is one significant area. The other is 
that we will substantially delay our support to the Air Force 
Technical Application Center in seismic calibration as they 
move to this regional-based monitoring system. So there are a 
couple of areas.
    Senator Landrieu. There are consequences for every cut and 
of course we want to try to maintain our balanced budget and 
our fiscal discipline. I want the record to reflect that I 
believe the ranking member has also indicated this in other 
cases, we know how important the research and technology 
aspects of our budgets are to maintain our ability to refocus 
and reshape and redesign and explore places we have not been 
before but where real threats exist. Sometimes you save money 
in the short run, but when you cut your research you lose a 
great deal of the money over the long term. I would like to 
work with all of you and look forward to working with the 
members, thank you for your testimony.
    That completes my questioning. Senator Roberts, do you have 
anything to add?
    Senator Roberts. I have just a couple of questions.
    Senator Landrieu. We have about 5 minutes. Go right ahead.
    Senator Roberts. General, last November the GAO reported 
that the services were not really integrating chemical and 
biological defense into unit exercise, and the training, if 
done, was not always realistic in terms of how the units would 
operate in war. In your opening testimony, you indicated that 
DTRA is basically a combat support or warfighter support 
agency. DOD reported last year that the Army's combat training 
centers continued to see units of all levels unable to perform 
all chemical and biological defense tasks to standard. That is 
what I was referring to in my other question. What is your 
assessment of the chemical and biological defense training by 
our combatant commanders? How is DTRA assisting the CINCs and 
the warfighter?
    General Bongiovi. Sir, I would say right now we do work 
with the warfighting CINCs and we exercise with them. It would 
be hard for me to assess right now what their capability is 
because I think they are just beginning to understand the 
threat out there and their capabilities. We work in the area of 
chemical and biological defense and the technology side of 
that. We work under the joint chemical and biological defense 
program, which Dr. Winegar oversees. That program establishes 
the technologies and capabilities out there in terms of 
detection, protection, clean-up, training, and those kinds of 
things.
    Under that program, we are executing right now what is 
called an ACTD, an Advanced Concept Technology Demonstration, 
over in Korea at Osan Air Force Base called Reststops--
restoration of operations. That process is really looking at a 
fixed site, a chemical/biological simulated attack on a fixed 
site and how we would respond procedurally and with technology. 
It is actually a 3-year activity.
    Senator Roberts. Excuse me for interrupting--you always 
have the threats that you have to prioritize and deem whether 
they are appropriate or not. When we went to North Korea 
several years ago with Chairman Stevens trying to assess what 
Kim Jong Il was up to, at that particular briefing we were told 
a whole series of things that could very well happen and the 
closeness of that base and Seoul to the border, etc., could be 
utter chaos if that ever took place. As a matter of fact, I do 
not know how you could really treat anybody. I think it was 
about 17 minutes away or something similar if anything were to 
happen. But was that factored in, in terms of when you got to 
conduct the exercises? Does that mirror what you think a 
possible threat----
    General Bongiovi. Yes sir. When we----
    Senator Roberts. There's a criteria there.
    General Bongiovi. Yes, sir. When we do a demonstration of 
that nature with a warfighter, one of the CINCs will volunteer 
to be the operational manager of that. In this case, PACOM 
chose U.S. forces in Korea because of the immediacy of the 
threat. We simulate the attack as it would be likely to happen 
under those scenarios.
    Senator Roberts. I apologize for interrupting you again. 
One of the lessons learned in the Intelligence Committee and 
the Armed Services Committee on the U.S.S. Cole was the need 
for increased frequency of vulnerability assessments like the 
Joint Service Integrated Vulnerability Assessments--basically 
military installations, ports, air facilities, both around the 
world and the United States. We have just seen the Pentagon 
step up to that, and you have that requirement. How is that 
impacting your agency, your personnel, and are you conducting 
exercises along those lines?
    General Bongiovi. Not necessarily exercises, sir. As I 
mentioned in my statement, we do a hundred force protection 
assessments under the direction of the Chairman. That is what 
you referred to, what you called JSIVAS.
    Senator Roberts. What's the acronym?
    General Bongiovi. JSIVAS. Joint Staff Integrated 
Vulnerability Assessments. We just increased the number of 
teams doing that. We are now moving away from fixed 
installations to forces in transit. So, the Chairman is 
restructuring that program as a result of the U.S.S. Cole. We 
have not been asked to expand it beyond the hundred that we are 
doing right now.
    Senator Roberts. Right. I did not want to leave you out, 
Dr. Koch. Thank you for your past testimony and your work. You 
referred to the conditions that we have with Shchuch'ye. When 
we were in the majority those were called the Roberts 
Initiatives, but now we just call them conditions.
    Senator Landrieu. We can still call them the Roberts 
Initiatives.
    Senator Roberts. Where do you think we are on that? We even 
had the Russians come here and say that the conditions were 
appropriate for them to step up to their responsibilities. We 
got into a situation with the House of Representatives where 
the funding was not forthcoming. I need to know where you think 
we are in terms of the administration's support. I think they 
have recommended that the restriction on the funding be lifted, 
but they haven't said anything about the conditions. I think 
the conditions have been very helpful for long-term 
cooperation. Am I right in this respect? What do you think?
    Dr. Koch. Senator, I absolutely think you are right and 
perhaps it is even more important that the Russian responsible 
for chemical weapons destruction thinks you are right. He has 
said more than once that the conditions you outlined helped him 
greatly within his government with focusing attention and 
pointing them on a good path ahead. We have had good progress 
on all fronts.
    They have dramatically increased their fiscal year 2001 
budget for chemical weapons destruction, including $25 million 
for Shchuch'ye. They are working very hard on a systematic 
overall destruction plan, which they had lacked before. They 
are working on being able to transport chemical weapons for 
destruction in just a very few sites as opposed to the many 
that they had once planned. Their work at the Shchuch'ye site 
on the general infrastructure, which we would require to go 
ahead, continues apace. On the non-Russian front, our friends' 
and allies' contributions, commitments, and statements of very 
strong interest about contributions now total about $55 
million.
    Senator Roberts. So we have not only statements of support 
but actual contributions. Senator Lugar is extremely interested 
in this. $20 million in fiscal year 2000 funds were authorized 
for security enhancements. But how can we do this unless the 
Russians step up? Are they going to destroy the other nerve 
agents at this plant? So we decided that the most important 
thing that we do is enhance the security. But I note here that 
only $6 million has been obligated. Why is that? There is $14 
million here that--and this is back in fiscal year 2000. Do we 
know that?
    Dr. Koch. Again I will have to find some details. I do know 
that the actual costs of the needed security enhancement was 
less than initially projected, but if----
    Senator Roberts. I am not sure the GAO feels that those 
security enhancements are the best that we could do. But my 
final response for the record is that $442 million authorized 
and appropriated for fiscal year 2001 CTR still not obligated.
    Dr. Koch. On its way, sir. We are, of course, required to 
notify Congress of our intention to obligate funds each fiscal 
year and we had delayed notification while the administration 
was reviewing all the assistance programs to Russia. We did in 
early June send up an initial notification for several projects 
using fiscal year 2001 funds. As the review completes, we will 
send up the notification for the remainder.
    Senator Roberts. Well, we have 2002, $458 million 
authorized and appropriated for fiscal year 2000 still 
unobligated. Why don't you include all of that in one report 
and get it back to us? That is all, Madam Chairman. Thank you. 
Thank you Dr. Koch for the job you do.
    Senator Landrieu. Thank you, Senator Roberts, for focusing 
on that because it is very important and a bone of contention 
between our committee and the House. We need to move forward on 
that.
    Thank you all for your testimony and as I said the record 
will be open for another 48 hours and you are welcome to submit 
additional statements. Please respond to the questions that 
were asked to be submitted. Thank you all very much, the 
meeting will be adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Pat Roberts
    1. Senator Roberts. General Bongiovi, the U.S. has demonstrated in 
the Gulf War and subsequent military operations worldwide that we have 
weapons with pinpoint accuracy. As a result, our potential adversaries 
are increasingly locating critical command facilities and WMD-related 
infrastructure in hard-to-destroy bunkers and tunnels.
    Do we have the capability today to defeat bunkers and tunnels?
    General Bongiovi. We have the capability to defeat most bunkers 
(those structures that are excavated, then covered with soil and 
concrete), but under limited circumstances. We generally have to fly 
directly over or very near the target to drop our penetrating weapons 
(``direct attack''), which often carries significant risk since such 
high-value targets are often heavily defended. An improvement is the 
current procurement of Joint Air-to-Surface Standoff Munition (JASSM), 
which has some standoff capability (such that the aircraft would still 
have to fly over the threat country, but not the target itself), and 
can penetrate on the same order as our workhorse direct attack 
penetrator, the 2,000 pound BLU-109. Weapons that will provide improved 
penetration and significant standoff (no aircraft flight over the 
threat country) are the Conventional Air Launched Cruise Missile 
Penetrator (Initial Operational Capability 2002), and the potentially 
Tactical Tomahawk Penetrator Variant (Initial Operational Capability 
2005) depending on U.S. Navy support. Both of these weapons will be 
developed under an Advanced Concept Technology Demonstration (ACTD) 
program managed by DTRA.
    We have even less capability to defeat tunnels (structures that are 
excavated directly under existing rock). These structures can be 
protected by up to several hundred meters of hard rock versus the 2-20 
meters of soil and concrete used for most bunkers. Significant 
shortfalls exist in both our capability to collect and analyze 
intelligence data, and our capability to functionally defeat these 
facilities with conventional weapons. Current nuclear weapons can 
defeat most tunnel structures. However, shortfalls still exist against 
the very deepest structures, and in our ability to reduce the resulting 
nuclear collateral effects.

    2. Senator Roberts. General Bongiovi, what is DTRA contributing to 
this?
    General Bongiovi. DTRA is a central player in providing capability 
to characterize and defeat hard and deeply buried targets. We apply our 
significant background in underground facility design to assist the 
intelligence community in identifying typical signatures and reverse 
engineer to fill knowledge gaps. We have robust defeat programs that 
cut across conventional weapon, nuclear weapon, and special operations 
capabilities against this target set. Our ACTDs have delivered the 
Advanced Unitary Penetrator (BLU-116/B), the Hard Target Smart Fuse, 
and are supporting the development of penetrators with significant 
standoff capability, such as the CALCM Penetrator and the Tactical 
Tomahawk Penetrator Variant. DTRA's test division has pioneered the 
delivery concepts of Optimized Dual Delivery (multiple weapons 
optimally released along a common laser path), and the skip-bomb 
delivery as an alternative method to penetrating deep targets. DTRA 
tunnel defeat demonstration facilities at the Nevada Test Site have 
provided a community focus in working the hard and deeply buried target 
(HDBT) problem end-to-end using all warfighting capabilities. DTRA also 
chaired the HDBT Defeat Interagency Working Group for OSD that authored 
the draft DOD/DOE-DP HDBT Science and Technology Master Plan. Finally, 
as a Combat Support Agency, we are able to quickly transition new 
capabilities to the warfighter through the use of deployable expert 
teams, or through reach-back support in a 24 hours, 7 days per week 
operations center.

    3. Senator Roberts. General Bongiovi, under the terms of the 
Chemical Weapons Convention (CWC), U.S. government and privately-owned 
facilities are subject to inspection. DTRA has the implementation role 
for the CWC and is responsible for escorting the inspectors of the CWC 
when they inspect U.S. government and commercial facilities.
    Is DTRA able to provide these escorts and fulfill the requirements 
of the CWC or is DTRA facing compliance issues regarding the staffing 
of these escort positions?
    General Bongiovi. There are no Chemical Weapons Convention 
compliance issues currently foreseen regarding the staffing of these 
escort positions. However, DTRA has determined that the most economical 
and effective way to fulfill the escort requirements for Department of 
Defense (DOD) facilities is through the use of contractor employees 
reporting to a U.S. Government employee team chief. This would maximize 
flexibility, minimize cost, and accommodate the fact that the escort 
mission at DOD facilities is of finite duration. However, the language 
in the Chemical Weapons Convention Implementation Act of 1998 precludes 
the use of contractor employees. Unless the proposed amendment is 
adopted, DTRA will be required to hire civilian employees to perform 
these escort functions.

    4. Senator Roberts. Mr. Waldron, I have reviewed the fiscal year 
2002 budget request for the Office of Nonproliferation Research and 
Engineering in the National Nuclear Security Administration. If the 
goal of this office is to conduct R&D on technologies that detect and 
deter nuclear proliferation, meet U.S. nuclear explosion monitoring 
goals, and to develop and demonstrate chemical and biological detection 
and related technologies, why is your office funding a construction 
project?
    Mr. Waldron. You are correct Senator. The goal of our office is to 
conduct R&D that advances nonproliferation technologies. Therefore, it 
was a corporate decision for us to sponsor the construction of a 
facility that will consolidate many of our activities and other related 
activities of the Office of Defense Nuclear Nonproliferation and the 
Office of Intelligence because of our program management and technical 
oversight skills. This new facility will enhance the efficiency of R&D 
development and improve the physical infrastructure and security at Los 
Alamos National Laboratory by centralizing activities that are 
currently scattered over six different technical areas at the Los 
Alamos site. The fiscal year 2002 funding represents the final request 
for funds for construction of the facility, which will be operational 
during fiscal year 2003.

    5. Senator Roberts. Dr. Koch, last year the Fiscal Year 2001 
National Defense Authorization bill required the CTR program to provide 
several reports to the committee during fiscal year 2001. These reports 
are long overdue. For example, the Section 1307 Fossil Fuel 
Alternatives Options Report was due to the committee on December 30, 
2000. Similarly, the Section 1308 Consolidated Annual CTR Report was 
due to the committee on February 5, 2001. Finally, the Section 1309 
Russian Chemical Weapons Elimination Report was due to the committee on 
January 30, 2001. To date we have not received these reports nor have 
you been able to tell staff when these reports will be delivered.
    Are you now in a position to tell the committee when these reports 
will be delivered?
    Dr. Koch. The Department regrets that these reports were not 
submitted in a more timely fashion to the committee. The response 
required for Section 1307 Fossil Fuel Alternatives Options Report, the 
annual report called for by Section 1308, and the Section 1309 Russian 
Chemical Weapons Elimination Report are awaiting the results of 
administration and departmental review of nonproliferation programs for 
Russia. We will provide the reports as soon as possible.

    6. Senator Roberts. Dr. Koch, why is the $442 million authorized 
and appropriated for fiscal year 2001 for CTR still not obligated? 
    Dr. Koch. According to CTR's authorizing legislation, Congress must 
be notified prior to obligation of appropriated funds. While waiting to 
learn of the results of the administration's Russia review, the 
Department of Defense notified Congress on June 2, 2001 of its intent 
to obligate $105.9 in fiscal year 2001 funds for several CTR programs 
expected to be supported by the review. As of August 3, 2001, $23.9 
million had been obligated. When the review is completed, the 
Department will send Congress notification of the remaining $336.5 
million.

    7. Senator Roberts. Dr. Koch, of the $458 million authorized and 
appropriated for fiscal year 2000, why is half still unobligated?
    Dr. Koch. Section 1306 of the National Defense Authorization Act 
for Fiscal Year 2000 requires a determination of whether DOD is the 
most appropriate agency to execute CTR and a congressional report 
reflecting the results of this determination. Once the Secretary makes 
the determination, we will prepare the report for submission. Section 
1306 precludes DOD from obligating 50 percent ($229.1 million) of its 
fiscal year 2000 funds until this report is submitted. As of August 3, 
2001, the Department has obligated 91 percent of the fiscal year 2000 
funds available for obligation.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

    8. Senator Collins. Dr. Winegar, in your prepared testimony you 
stated that the Department of Defense owes the local communities around 
demilitarization facilities the best, and not necessarily the easiest, 
disposal possible. The Department is expending a substantial amount of 
funding to develop effective sensor technologies to provide real-time, 
near-instantaneous detection of chemical agents to protect American 
troops.
    Does the chemical demilitarization program at the present time have 
adequate technologies for the monitoring of demilitarization of 
facilities?
    Dr. Winegar. Yes, the chemical demilitarization program has 
adequate sampling and analytical technologies to monitor the 
demilitarization facilities. The environment inside and outside all 
demilitarization facilities is continuously monitored for protection of 
workers and the public. The demilitarization facilities have installed 
a network of ``near real-time'' (less than a 10-minute cycle time 
response) monitors at all the facilities. The monitors, automatic 
continuous air monitoring systems (ACAMS), are devices that 
continuously sample and analyze ambient air for the presence of agent 
in the plant and stack effluent. The ACAMS is an automatic gas 
chromatograph that cycles from sampling to analysis, providing a direct 
readout of the chemical agent concentration. The ACAMS computes the 
chemical materiel masses associated with the monitoring level based on 
its calibration of instrument response, sample collection time, and 
sample flow rate through a preconcentrator tube. A strip chart recorder 
provides real-time printouts and a historical log of the ACAMS 
chromatogram. The ACAMS generates an audible alarm when the chemical 
materiel concentration exceeds the preset alarm level. The ACAMS 
provides internal diagnostic checks to determine the operability of the 
system and software determines whether various operating parameters are 
within predetermined limits. If the ACAMS are operating outside the 
limits, an error message appears on the front control panel, and a 
malfunction status signal is sent to the control room.
    The demilitarization sites also use a depot area air monitoring 
system (DAAMS) to confirm ACAMS alarms and provide historical 
monitoring of the facility perimeter. The DAAMS is comprised of solid 
sorbent tubes and associated equipment. Air monitoring with DAAMS 
employs air aspiration through the sorbent tube for a predetermined 
period of time at a controlled air flow rate. The DAAMS samples are 
then analyzed in the laboratory to detect chemical materiel at the 
desired monitoring levels TWA (time weighted average), ASC (allowable 
stack concentration), and GPL (general population level). Laboratory 
analysis uses thermal desorption of the analytes from the sorbent tubes 
into a gas chromatograph/flame photometric detector (GC/FPD) or gas 
chromatograph/mass selective detector (GC/MSD) analytical system. 
Duplicate DAAMS sampling at sample stations allows for confirmation of 
chemical materiel readings by analyzing replicate samples on dissimilar 
analytical columns or on the GC/MSD if sufficient analyte mass is 
available.

    9. Senator Collins. Dr. Winegar, would any leakage be detected in a 
timely fashion?
    Dr. Winegar. Yes, each facility has numerous monitoring devices 
strategically positioned throughout the demilitarization facility to 
detect any potential releases from the demilitarization process. The 
locations are dependent on such conditions as: (1) probability that 
agent will be present at concentrations in excess of established 
limits; (2) nature of the source of agent; (3) probability that 
individuals are present in the area; and (4) level of protective 
clothing used in the area. All demilitarization facilities have a 
network of automatic continuous air monitoring system (ACAMS) devices 
that continuously sample and analyze ambient air within near real-time 
(less than a 10-minute cycle response time). These ACAMS units are used 
as process monitors and early warning devices in the event of a 
chemical agent leak or spill. The ACAMS are networked into the 
continuously manned facility control room to provide alarms in the 
event of equipment malfunction and leak or spill of chemical agent 
materiel. The depot area air monitoring system (DAAMS) is used to 
confirm ACAMS alarms and provide historical data of sampling locations. 
Throughout chemical demilitarization operations, monitoring and 
sampling will be performed routinely at locations selected to provide 
optimum information to ensure maximum protection for workers, the 
public, and the environment during operations.
    The program manager for chemical demilitarization (PMCD) has 
detailed and intricate quality control and monitoring concept programs 
defining requirements to ensure that the monitoring system and 
analytical methods can reliably detect and quantify chemical agents. 
The PMCD reviews and evaluates the laboratory quality control data from 
each facility. The Department of Health and Human Services (DHHS) is an 
oversight agency that reviews and evaluates the effectiveness of the 
monitoring system and laboratory activities. DHHS and PMCD annually 
inspect laboratory operations to determine their readiness and 
preparedness to operate and support safe facility operations.

    10. Senator Collins. Dr. Winegar, is the demilitarization program 
tracking the advances made in detection/sensor technology?
    Dr. Winegar. The demilitarization program tracks advances in 
detection/sensor technology by routinely attending vendor's 
presentations and briefings on recent and state-of-the-art advances in 
monitoring and analytical equipment. In addition, we work with 
technical companies to assist this program in evaluating advances in 
monitoring and analytical technology. Also, we use the services of 
technical contractors to evaluate the latest advances in monitoring 
technology. The scope of tasks range from performing literature 
searches to testing, sampling, and monitoring equipment with chemical 
agent to determine sensitivity and specificity in identifying and 
quantifying chemical agents. The PMCD communicates frequently with DHHS 
personnel, providing them with current information and details on the 
evaluations and studies performed to improve and enhance the PMCD 
monitoring program. The PMCD briefs the National Research Council of 
the National Academies of Science at least once a year on the status of 
efforts to improve monitoring of chemical agents and potential future 
efforts that could improve the monitoring of chemical agents. PMCD has 
tasked various laboratories to evaluate different technologies such as 
the operability of the Fourier Transform Infra-Red (FTIR) Spectrometer, 
Chemical Ionization (CI) Mass Spectrometer/Mass Spectrometer (MS/MS), 
Ion Mobility Spectrometer (IMS), and others. The FTIR study was 
performed with an ACAMS unit to determine the sensitivity during a 
demilitarization operation. The FTIR was able to identify chemical 
agent at high concentrations, but it could not identify and quantify 
chemical agent at required lower concentrations. The CI-MS/MS was used 
for a study at the common stack for the three types of furnaces and was 
not able to quantify chemical agent at the required current monitoring 
level. The IMS was tested but could only identify chemical agent at 
high levels or what would be described as battlefield concentrations. 
Since the demilitarization facilities require a much lower level of 
detection, each of these approaches was considered impractical for 
operational use.

    11. Senator Collins. Dr. Winegar, is the Department's 
demilitarization program pursuing any R&D on improved detection and 
monitoring technologies? If so, could you elaborate on what those 
technologies are?
    Dr. Winegar. Yes, the PMCD has developed several technical tasks 
for development of improvements to the monitoring program. PMCD 
constantly evaluates and upgrades current methods and technology to 
improve detection efficiencies. Though the current capabilities meet or 
exceed the requirements as outlined by DOD and the EPA, the PMCD is 
continuing to evaluate and modify the current ACAMS devices and 
software to reduce the response time to facility releases and increase 
performance efficiency. PMCD plans to evaluate the depot area air 
monitoring system (DAAMS) technology to collect sufficient sample in 
satisfying proposed lower exposure levels. One possibility is to equip 
the ACAMS monitoring system with a DAAMS sampling device on the front 
end to collect a great volume of sample for the lower detection limits. 
The PMCD has evaluated the gas chromatograph/atomic emission detector 
to determine its sensitivity and specificity. This technology has 
adequate sensitivity; yet, it requires large sampling volumes to reach 
this sensitivity and the instrument is maintenance-intensive.
    The technologies that are used to monitor for chemical agents at 
U.S. chemical stockpile sites provide excellent capabilities for 
detection and identification of agents at low levels in near real-time. 
The ACAMS can identify the presence of chemical agent in near real-time 
at less than half the concentration of the stated worker population 
limited time weighted average, which is the regulatory limit 
established to which a worker may be exposed for 8 hours a day over an 
entire career with no adverse health effect.
    The DOD Chemical and Biological Defense Program is investing in 
sciences and technology for the detection and identification of 
chemical and biological agents. However, these technologies are being 
developed for the primary purpose to protect the warfighter against 
attacks by adversaries with chemical or biological weapons. As a 
result, the system needs are focused on providing real-time detection 
of concentrations of agent that pose an immediate threat to life and 
health. In addition, these capabilities are generally intended to be 
more compact and ruggedized for field use. This is in contrast to the 
monitoring capabilities for chemical demilitarization sites, which use 
laboratory quality instrumentation of high sensitivity to monitor in 
support of operations at the stockpile and destruction sites. One 
project that may yield information to support chemical demilitarization 
monitoring activities is the Low Level Chemical Agent Research Program, 
which is conducting research to determine the effects of exposures to 
low levels of chemical agents.

    12. Senator Collins. Dr. Winegar, the Department of Defense has 
been actively pursuing research and development of sensor technologies 
to help defend against chemical and biological weapons. Congress, and 
particularly the Senate Armed Services Committee, has supported this 
DOD research effort and has included substantial increases beyond the 
budget request in recent years.
    Are you satisfied with the progress that has been made in this 
technology area?
    Dr. Winegar. Since Operation Desert Storm, there have been 
increased investments in chemical and biological sensor technologies to 
improve upon our capabilities. Significant progress has been made in 
fielding new capabilities to protect our warfighters against the 
continuing threats from chemical and biological weapons, and new 
systems are in development that will provide further improvement in the 
next few years. Additionally, investments in the science and technology 
base are addressing many of the difficult technical and scientific 
challenges in order to allow detection and identification of existing 
and emerging threat agents in sufficient time to provide warning to 
protect against the threat before our forces have been exposed. In 
summary, there has been a great deal of progress over the past decade 
and our strategy promises to yield further improvements over the coming 
decade. However, technical barriers and the evolving threat environment 
will continue to pose challenges.
    Since Operation Desert Storm, the services have fielded the 
following detection capabilities:

        <bullet> Automatic Chemical Agent Detector and Alarm (ACADA)--
        Automatic point detection of nerve and blister agents.
        <bullet> Biological Integrated Detection System (BIDS)--
        Vehicle-mounted biological detection and identification 
        capability.
        <bullet> Improved Chemical Agent Monitor (ICAM)--Handheld 
        surface off-gas sampling capability for nerve and blister 
        agents.
        <bullet> Improved Point Detection System (IPDS)--Ship-based 
        improved automatic point detection of nerve/blister agents.
        <bullet> Interim Biological Agent Detector (IBAD)--Shipboard 
        biological point detection capability.
        <bullet> Portal Shield network sensor system--Biological point 
        detection capability to protect high value fixed sites against 
        BW attacks.
        <bullet> Remote Sensing Chemical Agent Alarm (RSCAAL)--Standoff 
        detection of nerve and blister agents.

    The following developmental systems are planned to be fielded in 
the mid-term:

        <bullet> Joint Biological Point Detection System (JBPDS)--
        Automatic long line source and point/mobile biodetection to 
        detect and identify bio-agents; programmable.
        <bullet> Joint Chemical Agent Detector (JCAD)--Improved, all-
        agent programmable automatic point detection; portable monitor, 
        miniature detectors for aircraft interiors; interior ship 
        spaces; wheeled and tracked vehicles; and individual soldiers.
        <bullet> Joint Service Lightweight Chemical Agent Detector 
        (JSLSCAD)--Lightweight, on-the-move, passive standoff detection 
        for chemical agent vapors.

    In addition, there are several being explored in the technology 
base:

        <bullet> Joint Chemical Biological Agent Water Monitor 
        (JCBAWM)--Detection of CB contamination in water.
        <bullet> Joint Modular Chemical/Biological Detector System 
        (JMCBDS)--Automated, integrated detection of both biological 
        and chemical agents in a single sensor package.
        <bullet> Joint Service Warning and Identification LIDAR 
        Detector (JSWILD)--Standoff detection, ranging, and mapping of 
        chemical vapors and aerosols.
        <bullet> Chemical Imaging Sensor--Passive standoff detection 
        technology for detection on-the-move at high speeds from a 
        distance.

    Additionally, there is investment in science and technology base 
for detection of contamination on surfaces, non-specific agent 
identification, standoff biological agent detection, and other key 
technologies.

    [Whereupon, at 4:05 p.m., the meeting was adjourned.]

                                 <all>

</pre></body></html>
